<html>
<title> - IMPROPER GRANTING OF U.S. CITIZENSHIP WITHOUT CONDUCTING CRIMINAL BACKGROUND CHECKS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
   IMPROPER GRANTING OF U.S. CITIZENSHIP WITHOUT CONDUCTING CRIMINAL 
                           BACKGROUND CHECKS
=======================================================================

                             JOINT HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT

                                and the

                 SUBCOMMITTEE ON IMMIGRATION AND CLAIMS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION
                               __________

                             MARCH 5, 1997
                               __________

              Committee on Government Reform and Oversight

                           Serial No. 105-21

                       Committee on the Judiciary

                             Serial No. 14
                               __________

Printed for the use of the Committee on Government Reform and Oversight 
                   and the Committee on the Judiciary




                     U.S. GOVERNMENT PRINTING OFFICE
41-887                       WASHINGTON : 1997
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              TIM HOLDEN, Pennsylvania
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
JOHN B. SHADEGG, Arizona             DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           ROD R. BLAGOJEVICH, Illinois
MARSHALL ``MARK'' SANFORD, South     DANNY K. DAVIS, Illinois
    Carolina                         JOHN F. TIERNEY, Massachusetts
JOHN E. SUNUNU, New Hampshire        JIM TURNER, Texas
PETE SESSIONS, Texas                 THOMAS H. ALLEN, Maine
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
------ ------
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK E. SOUDER, Indiana              THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Robert Charles, Staff Director and Chief Counsel
                       Jim Wilon, Defense Counsel
              Andrew Richardson, Professional Staff Member
                          Ianthe Saylor, Clerk
           Michael Yeager, Minority Professional Staff Member
          Mark Stephenson, Minority Professional Staff Member
                       COMMITTEE ON THE JUDICIARY

                   HENRY J. HYDE, Illinois, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        BARNEY FRANK, Massachusetts
BILL McCOLLUM, Florida               CHARLES E. SCHUMER, New York
GEORGE W. GEKAS, Pennsylvania        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         RICK BOUCHER, Virginia
LAMAR SMITH, Texas                   JERROLD NADLER, New York
STEVEN SCHIFF, New Mexico            ROBERT C. SCOTT, Virginia
ELTON GALLEGLY, California           MELVIN L. WATT, North Carolina
CHARLES T. CANADY, Florida           ZOE LOFGREN, California
BOB INGLIS, South Carolina           SHEILA JACKSON LEE, Texas
BOB GOODLATTE, Virginia              MAXINE WATERS, California
STEPHEN E. BUYER, Indiana            MARTIN T. MEEHAN, Massachusetts
SONNY BONO, California               WILLIAM D. DELAHUNT, Massachusetts
ED BRYANT, Tennessee                 ROBERT WEXLER, Florida
STEVE CHABOT, Ohio                   STEVEN R. ROTHMAN, New Jersey
BOB BARR, Georgia
WILLIAM L. JENKINS, Tennessee
ASA HUTCHINSON, Arkansas
EDWARD A. PEASE, Indiana
CHRISTOPHER B. CANNON, Utah

            Thomas E. Mooney, Chief of Staff-General Counsel
                Julian Epstein, Minority Staff Director
                                 ------                                

                 Subcommittee on Immigration and Claims

                      LAMAR SMITH, Texas, Chairman

ELTON GALLEGLY, California           MELVIN L. WATT, North Carolina
SONNY BONO, California               CHARLES E. SCHUMER, New York
WILLIAM L. JENKINS, Tennessee        HOWARD L. BERMAN, California
EDWARD A. PEASE, Indiana             ZOE LOFGREN, California
CHRISTOPHER B. CANNON, Utah          ROBERT WEXLER, Florida
ED BRYANT, Tennessee


                     Cordia A. Strom, Chief Counsel
                        Edward R. Grant, Counsel
                        George Fishman, Counsel
                     Martina Hone, Minority Counsel











                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 5, 1997....................................     1
Statement of:
    Colgate, Stephen, Assistant Attorney General for 
      Administration, Department of Justice, accompanied by Dawn 
      Johnsen, Acting Assistant Attorney General for the Office 
      of Legal Counsel, Department of Justice; and Gary Ahrens, 
      KPMG Peat Marwick LLP; and Dr. Laurie E. Ekstrand, 
      Associate Director for Administration of Justice Issues, 
      General Government Division, General Accounting Office.....    30
    Meissner, Doris, Commissioner, Immigration and Naturalization 
      Service, U.S. Department of Justice, accompanied by David 
      Rosenberg, Citizen USA Program Director; Louis D. Crocetti, 
      Associate Commissioner for Examinations; and David Martin, 
      General Counsel............................................    82
Letters, statements, etc., submitted for the record by:
    Ahrens, Gary, KPMG Peat Marwick LLP, prepared statement of...    44
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia, prepared statement of..........................   134
    Barrett, Hon. Thomas M., a Representative in Congress from 
      the State of Wisconsin:
        Attachments to prepared statement........................    18
        Prepared statement of....................................     6
    Colgate, Stephen, Assistant Attorney General for 
      Administration, Department of Justice, prepared statement 
      of.........................................................    34
    Ekstrand, Dr. Laurie E., Associate Director for 
      Administration of Justice Issues, General Government 
      Division, General Accounting Office, prepared statement of.    47
    Lofgren, Hon. Zoe, a Representative in Congress from the 
      State of California, prepared statement of.................    27
    Meissner, Doris, Commissioner, Immigration and Naturalization 
      Service, U.S. Department of Justice, prepared statement of.    85
    Smith, Hon. Lamar, a Representative in Congress from the 
      State of Texas:
        Editorial from the Washington Post entitled ``Burned 
          Again''................................................   109
        Prepared statement of....................................    10








   IMPROPER GRANTING OF U.S. CITIZENSHIP WITHOUT CONDUCTING CRIMINAL 
                           BACKGROUND CHECKS

                              ----------                              


                        WEDNESDAY, MARCH 5, 1997

        House of Representatives, Subcommittee on National 
            Security, International Affairs, and Criminal 
            Justice, Committee on Government Reform and 
            Oversight, Jointly With the Subcommittee on 
            Immigration and Claims, Committee on the 
            Judiciary,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:15 a.m., 
in room 2154, Rayburn House Office Building, Hon. J. Dennis 
Hastert (chairman of the Subcommittee on National Security, 
International Affairs, and Criminal Justice) presiding.
    Present from the Subcommittee on National Security, 
International Affairs, and Criminal Justice: Representatives 
Hastert, Ros-Lehtinen, Mica, Shadegg, LaTourette, Barr, 
Barrett, Condit, and Turner.
    Present from the Subcommitte on Immigration and Claims: 
Representatives Smith, Gallegly, Bono, Jenkins, Bryant, Watt, 
Lofgren, and Wexler.
    Ex officio present: Representatives Burton and Waxman.
    Staff present from the Subcommittee on National Security, 
International Affairs, and Criminal Justice: Robert Charles, 
staff director and chief counsel; Jim Wilon, defense counsel; 
Andrew Richardson, profesional staff member; Ianthe Saylor, 
clerk; Phil Barnett, minority chief counsel; and Michael Yeager 
and Mark Stephenson, minority professional staff members.
    Staff present from the Subcommittee on Immigration and 
Claims: Cordia Strom, chief counsel; Edward Grant, and George 
Fishman, counsels; Judy Knott, staff assistant; and Martina 
Hone, minority counsel.
    Mr. Hastert. Good morning, and thank you for coming. The 
Subcommittee on National Security, International Affairs, and 
Criminal Justice, sitting jointly with the Subcommittee on 
Immigration and Claims, will now come to order.
    Today, we are holding the first of two hearings into a 
problem of enormous importance to every American citizen. After 
7 months of investigation, these two subcommittees are here to 
publicly examine what I can only describe as acts of shocking 
indifference and incompetence by an agency of the American 
Government, acts which are particularly disturbing because of 
the consequences that they have delivered upon the American 
people.
    Specifically, we are going to examine a program called 
Citizenship USA, a program which was heavily pushed by the 
White House, and which took shape roughly 1 year before the 
1996 elections, and was run by the Immigration and 
Naturalization Service, hereby referred to as the INS.
    On paper, Citizenship USA was intended to reduce the 
backlog of requests for U.S. citizenship. That aim was 
laudable. The program, however, was, in a word, hijacked. In 
1995 and 1996, the INS began to vigorously solicit new 
applications. A massive drive to naturalize roughly four times 
the number of applicants ever before naturalized in a single 
year began.
    As we have learned from the past hearings of the National 
Security Subcommittee and from many courageous confidential 
informants, basic requirements of citizenship, such as English 
and civics testing, were relaxed.
    Regulations that have long protected the sanctity of U.S. 
citizenship, regulations of all kinds, were waived. Most 
tragically, the longstanding law and requirement that every 
potential citizen be subject to an FBI background check 
apparently fell by the wayside.
    Today, we do not focus on the why of these failings, 
although there will no doubt be discussion of motivation. We 
will instead focus on the what. That is, we want to know 
exactly what has happened.
    What we will examine, in particular is the question, what 
happened that allowed thousands of felony criminals to be 
naturalized in a mad rush up to the 1996 election? What 
happened that permitted 180,000 applicants to be naturalized 
without background checks at all?
    How do we get to a point where the Attorney General of the 
United States can tell us that, if we must denaturalize 
thousands of felons, she is committed to do so? How would we 
even do that, given the legal protections which attach to 
citizenship, once it is granted? We should never, as a Nation, 
have been put in this position. As the Assistant Attorney 
General himself has said, this state of affairs could fairly be 
described as a national disaster.
    Before we move to the testimony and facts of our 
distinguished witnesses, I want to pause for one more thought. 
Today's hearing involves something almost as precious as life 
and liberty itself. It involves the gift and the privilege of 
U.S. citizenship.
    The naturalization process has long been sacred to 
Americans, and rightly so. Those among us who have friends and 
relatives who were naturalized, or who ourselves are 
naturalized, know the sanctity of this gift.
    I can only think of a janitor in a high school I once 
taught in, who became a naturalized citizen, and it was the 
proudest moment of his life.
    Citizenship is something that every naturalized citizen is 
proud of and so are their families and their friends. When the 
process is tainted by misdeeds of this kind, it cheapens the 
process and endangers the honor of every one of us. It also 
inflicts a wound upon our identity as a Nation. So the record 
is clear, let me say this as clearly as I can. We are a Nation 
that does value good moral character, and we do value the 
behavior of law-abiding citizens. We have long taken pride in 
our naturalization process, and in ourselves as a Nation of 
immigrants.
    It is therefore with profound concern but also with grave 
sadness that we have come to this problem publicly. We must 
confront it, and find out who is accountable, hold them 
accountable, and find a way as swiftly as possible to fairly 
and efficiently fix it.
    I would like to move on at this point, and let our 
witnesses lay out the details, and defend their behavior. I 
would like to note, however, that the FBI and the Department of 
Justice have been exemplary in their support of this 
investigation.
    I would like to make a closing point on procedure. This 
investigation is of the highest integrity. For the past several 
months, we have seen on the one side of the public discussion 
the U.S. Congress, the Department of Justice, the Inspector 
General, the Office of Public Integrity, the General Accounting 
Office, and the private firm brought in by Justice to 
corroborate Congress' findings. On the other side, arguing that 
the problem is not a big one, that it is not their fault, and 
it has somehow been fixed, and should not be given more public 
attention, is the INS.
    I think today is the beginning of the public awareness of 
what exactly has happened. I certainly thank you all for 
coming.
    By agreement with the minority members, we will have 
openings by the two Chairs and the two ranking members. Then 
the 5-minute rule for panels 1 and 2 followed by a 30-minute 
block of time to each of the sides, and we will proceed from 
there.
    So without any further adieu, I would now like to recognize 
the ranking member, Mr. Barrett of Wisconsin, for his opening 
statement.
    Mr. Barrett. Thank you, Mr. Chairman.
    Today's hearing will focus on the Immigration and 
Naturalization Service's Citizenship USA program. Clearly, 
there have been significant problems in the naturalization 
procedures and internal controls used by INS during the 
program.
    Naturalization law is quite explicit. Only qualified 
applicants should be granted citizenship. If persons with 
disqualifying criminal records were granted citizenship, then 
that is a problem, a serious problem that we need to 
investigate very seriously by discovering its causes and 
ensuring that it never happens again.
    I am concerned, however, about the approach apparently 
being taken by some toward the INS' problems. There appears to 
be an attempt by some to blame the breakdown in INS' procedures 
on political interference.
    I want to review the facts. They paint a very different 
picture than some in the majority would wish to paint. In 
reviewing these facts, I will make reference to several 
documents, and I ask unanimous consent that they be included in 
the record.
    Mr. Hastert. I will take it under advisement. I would like 
to look at the documents first.
    Mr. Barrett. First, it is essential to understand that 
problems with the naturalization process and criminal 
background checks are longstanding and well documented. An 
audit by an independent Inspector General of the Department of 
Justice in 1989 showed that of the cases reviewed that close to 
50 percent in 1986 and 100 percent in 1989 showed no evidence 
that background investigations and fingerprint checks were 
conducted.
    In other words, the problem of failure to complete criminal 
background investigations apparently existed as far back as the 
Reagan and Bush administrations.
    The main cause of these problems seems to have been a 15-
year-old policy first implemented in 1982 by the Reagan 
administration. Under this policy, INS assumed that if it had 
not heard back from the FBI within 60 days, that the applicant 
did not have a criminal record. The FBI would actually inform 
INS of the results of their checks only if the applicant had a 
record.
    Let me quote from the Acting Commissioner of the INS to the 
FBI in 1982. ``Therefore, effective immediately, all adjustment 
of status, asylum, and naturalization fingerprint cards 
submitted by the Immigration and Naturalization Service which 
are searched against our criminal file with negative results 
will be destroyed rather than returned to the INS. This 
procedure will apply to both legible and illegible fingerprint 
cards.''
    The second important fact is that there was a surge of 
applications for citizenship. During the 1990's, the average 
number of applications for naturalization was about 300,000. 
That number began to rise dramatically in 1995. By 1996, INS 
had 1.3 million applications. This year, INS is expected to 
receive 1.8 million applications.
    There are two main reasons for this increase. First, as a 
result of the amnesty granted under the 1986 Immigration and 
Reform Act, many immigrants began to become eligible in 1994 
for citizenship.
    Second, there was a growing concern in the immigrant 
community about the continued availability of benefits for 
aliens, sparked by the passage of Proposition 187 in California 
and the heated congressional debates.
    As a result of the sharp increase in applications, a 
backlog of over 1 million cases developed, and processing 
delays of 2 to 4 years became common. The delays caused growing 
dissatisfaction, as they rightly should have. Delays in 
naturalization of this magnitude are unacceptable in a 
democratic society. The inadequate procedures combined with the 
surge in applications was a recipe for disaster.
    The third important point is that there was bipartisan 
support for processing more applications and decreasing 
application delays. This was not just an administration policy. 
In November 1995, INS requested a reprogramming of funds to 
relieve the growing backlog by increasing staffing and other 
resources.
    In his January 16, 1996 response, Chairman Rogers states, 
``I further understand that with these additional resources INS 
intends to reduce backlogs in naturalization and status 
applicants, so that by midsummer eligible persons will become 
citizens within 6 months after applying. I am pleased that the 
INS is recognizing the significant workload, and addressing it 
in this reprogramming.'' Members of Congress from both sides of 
the aisle were well aware of this backlog, and strongly 
supported INS' efforts to reduce processing times.
    In summary, Mr. Chairman, the INS had a serious problem 
long before Citizenship USA ever began. The dramatic increase 
in applications which began in 1995 created a backlog of over 1 
million cases and unacceptably long processing delays of 2 to 4 
years in some cases.
    Faced with growing public outrage and bipartisan 
congressional concern, Citizenship USA attempted to meet its 
goal of processing 1.3 million applications by the end of 
fiscal year 1996. The result of this string of events will be 
discussed today. Our job is to correct them where we can, and 
more importantly, to make sure they are not repeated.
    Thank you.
    [The prepared statement of Hon. Thomas M. Barrett follows:]
    [GRAPHIC] [TIFF OMITTED] T1887.001
    
    [GRAPHIC] [TIFF OMITTED] T1887.002
    
    Mr. Hastert. At this time, I would like to recognize the 
chairman of the Subcommittee on Immigration and Claims, Mr. 
Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I would like to thank Chairman Hastert for co-chairing this 
hearing and for the real service that he and his staff of the 
Subcommittee on National Security, International Affairs, and 
Criminal Justice have performed by investigating the 
allegations against the administration's policies and practices 
on naturalization.
    In the waning months of the 104th Congress, when this 
investigation began, the Subcommittee on Immigration and Claims 
that I chair was occupied with negotiating the final conference 
report and securing the passage of the Illegal Immigration 
Reform and Immigrant Responsibility Act. While we provided 
assistance to the investigation, we could not be full partners.
    However, from this day forward, our oar is in the water.
    I also look forward to consideration of any statutory 
changes that may be necessary to ensure that the events that we 
examine today never occur again.
    Citizenship is the greatest honor this country can bestow. 
No award, medal, or commendation surpasses the simple dignity 
conferred when a former alien gains the privilege to say: ``I 
am a citizen of the United States.''
    This privilege is sought by millions of people around the 
world. It encompasses the right to travel freely, to hold 
almost any public office, and to petition for the immigration 
of relatives. Most importantly, it empowers the new citizen 
with the right and responsibility to vote and actually shape 
the future of our Nation.
    Among the many difficult challenges faced by the INS, none 
is more important than making sure that this honor is bestowed 
only on those who deserve it.
    Citizenship USA was the administration's initiative to 
promote naturalization and to process new applications. We are 
here today because, despite assurances to the contrary, more 
than 180,000 aliens were naturalized without having received 
complete background checks, resulting in the naturalization of 
substantial numbers of criminal aliens.
    We are here because, despite early warning signals, the INS 
failed to secure the integrity of the naturalization system 
before undertaking the naturalization of more than a million 
new citizens in a single year.
    As stated in yesterday's Washington Post, ``The failings of 
Citizenship USA have triggered one of the most damning 
indictments ever leveled at the Immigration Service, that it 
has cheapened U.S. citizenship.''
    The failures of Citizenship USA are an insult to the hard-
working and law-abiding immigrants who truly earned this honor. 
It sullies them and cheapens their achievement. These failures 
also legitimize the residency of criminals in our community and 
endanger public safety.
    There is nothing wrong with encouraging naturalization, or 
urging newly naturalized citizens to vote. There is everything 
wrong with overlooking criminal background checks, naturalizing 
criminals, endangering public safety, and then concealing the 
extent of the problem.
    The hearing today is about management. It is about 
accountability, which means responding to problems and taking 
responsibility for failures as well as successes.
    INS management now has at least three strikes against it 
when it comes to accountability and responsiveness to Congress. 
First, the very problems that created the failures of 
Citizenship USA were identified in a report by the Department 
of Justice Inspector General on February 9, 1994.
    The lost fingerprint cards, the failure to resubmit 
rejected fingerprint cards, the erroneous assumption that no 
news from the FBI meant good news regarding an applicant's 
moral character, all of that and more is detailed in the 
Inspector General's report.
    In another report 10 months later, the General Accounting 
Office found that these problems had not been addressed. The 
GAO also made specific recommendations, and the INS agreed to 
implement them. Had they been implemented, we would not be here 
today.
    Second, in a matter probed in our hearing last week, INS 
officials intentionally misled a congressional delegation at 
Miami International Airport and at the Crone Detention Center 
in Miami. Many of the same officials then failed to cooperate 
with the investigation of the Inspector General. Either 
mismanagement or negligence accounted for these incidents.
    Third, when the allegations concerning Citizenship USA were 
raised before last year's election, we heard denials and 
evasions, but little truth and no acceptance of responsibility.
    A memo sent to the Senate by Commissioner Meissner on 
October 18th, stated that only a few dozen individuals out of 
the 1.3 million applicants had been wrongly naturalized. Top 
INS officials appeared before Congress and were quoted in the 
media denying allegations regarding the mishandling of 
fingerprint checks.
    But shortly after the election, the story changed. Now the 
INS' own figures confirm that the problem was much worse than 
previously admitted. Thanks to Citizenship USA, criminal aliens 
were rewarded and not deported.
    This situation once again demonstrates the lack of 
management responsibility and accountability at the INS. The 
conditioned response to signs of trouble is to deny, to 
minimize, to deflect blame.
    Congress literally has had to extract the truth regarding 
Citizenship USA. I pledge that we will use the same oversight 
authority to instill a culture of responsibility and 
accountability at an agency that holds the key to the greatest 
honor that this Nation can bestow, that of citizenship.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Lamar Smith follows:]
    [GRAPHIC] [TIFF OMITTED] T1887.003
    
    [GRAPHIC] [TIFF OMITTED] T1887.004
    
    [GRAPHIC] [TIFF OMITTED] T1887.005
    
    [GRAPHIC] [TIFF OMITTED] T1887.006
    
    [GRAPHIC] [TIFF OMITTED] T1887.007
    
    Mr. Hastert. I thank you, Chairman Smith.
    I now recognize the Immigration Subcommittee ranking 
member, Mr. Watt, from North Carolina, for his opening 
statement.
    Mr. Watt. Thank you, Mr. Chairman.
    The last thing I want to do today is minimize the 
seriousness of the allegations that I hope we are here to 
investigate today. Additionally, I do not want to try to 
justify bureaucratic incompetence, indifference, or 
impropriety.
    But I do want to put the matter in historical context, so 
that the media and the public can evaluate how much of what 
they see and hear today is political smoke engaged in mostly 
for political advantage, and how much of it is fire.
    Let's look at the history. First, as a result of the Reagan 
administration's 1986 amnesty program, many immigrants became 
eligible for citizenship in 1994. In addition, the passage of 
Proposition 187 in California, which limited non-citizens 
access to public benefits, such as education, health care, and 
social services, led many immigrants to apply for citizenship.
    Similarly, heated debate in the 104th Congress about the 
reduction or elimination of Federal benefits for non-citizens 
culminated in the passage of the immigration reform bill, and 
also convinced many immigrants to seek citizenship.
    As a result of this sharp increase in citizenship 
applications, delays of 2 to 4 years in processing the 
applications became common, and a backlog of over 1 million 
cases developed.
    To address this backlog, the INS began developing a 
naturalization project in March 1995. During that summer, the 
INS established a goal of returning to a standard 6-month 
naturalization process by eliminating backlogs. That is a 
desirable and honorable objective that they were trying to 
achieve.
    The INS also identified the key districts to receive extra 
resources in order to achieve this goal. In August 1995, 
Commissioner Meissner announced the implementation of the 
Citizenship USA program, and INS embarked on the Citizenship 
USA program with bipartisan support.
    Now let us take the politics out of this. No. 1, 
eliminating a backlog of over a million citizenship 
applications and reducing processing time to 6 months was a 
laudable goal of the INS.
    Two, given the fact that the right to vote is one of the 
fundamen-
tal rights of citizenship, embarking on a program to naturalize 
all eligible residents prior to a national election was also 
appropriate.
    The majority concedes that the Citizenship USA program may 
have begun with the appropriate goal of eliminating the 
backlog, but asserts that this goal eventually became a smoke 
screen for an inappropriate scheme to register 1 million new 
Democrats or pro-Clinton voters prior to the 1996 election.
    Since no direct evidence exists to support the alleged 
improper political motivation, the majority resorts to 
circumstantial allegations based on the timing of the programs. 
It seems also based on the fact that many newly naturalized 
citizens are Hispanic, Asian, or other racial minorities.
    The majority further asserts that the INS' resources were 
targeted toward heavily Democratic geographic areas. However, 
the five major cities that received the bulk of INS resources 
also happened to be responsible for 75 percent of the backlog, 
and focusing INS resources on these cities was a completely 
rational policy decision that is no different from the policy 
of focusing Federal law enforcement resources on the places 
where there is high crime, which the majority has vigorously 
supported.
    Much is also made of the fact that voter registration was 
often conducted immediately after the new citizens' oath 
ceremonies. In many localities, nonpartisan voter registration 
efforts take place after the ceremonies. Since full 
participation in the electoral process is one of the most 
important rights of citizenship, immediate access to voter 
registration can hardly be criticized.
    Claims that left-leaning community-based organizations 
dominated the registration process also have not been proven. 
However, as long as these groups are properly credentialed by 
the local officials of voting, and they do not unduly try to 
influence how people register, that also would be an 
appropriate objective as to whether they were right leaning or 
left leaning.
    What about the most serious charge, the naturalization of 
criminals and felons? From the preliminary reviews, the INS has 
learned that between August 1995 and September 1996 that it 
received 1.3 million citizenship applications. In this same 13-
month period, over 1 million individuals were naturalized.
    By comparing these files to existing FBI billing records, 
it was determined that over 750,000 of these individuals had no 
FBI criminal history record and that 71,557 individuals have 
FBI records, which include not only misdemeanor or felony 
convictions, but also INS administrative actions, misdemeanor 
arrest, and felony arrest.
    So what about this 71,557 people? The INS immediately 
focused its attention on these people. The rap sheets for these 
individuals have been requested by INS and have been sent to a 
special review team. It was determined that 10,800 of these 
individuals have been arrested for at least one felony.
    But it is important to note that conviction of a felony 
does not automatically bar an individual from citizenship, 
unless it is murder or certain other aggravated assault. For 
every other felony, it must be determined whether the 
individual seeking citizenship meets statutorily defined 
residency and good moral character criteria.
    To assess and determine whether the 10,800 felony arrest 
cases were eligible to be naturalized based on this statutory 
definition, the INS assembled a special review team.
    Finally, we get down to a review of the 10,800 cases. The 
review team reviewed 9,573 of these cases and determined that 
168 cases did not presumptively meet the statutory 
requirements. In these cases, the individuals would be able to 
rebut the presumption, for example providing evidence that a 
disqualifying felony was overturned on appeal.
    Well, 168 felons is 168 felons and that is 168 too many--no 
ifs, ands, or buts about it. But 168 felons out of over 1 
million applicants, well, I think that you begin to get the 
picture.
    You can make your own evaluation whether this is as serious 
as some of my colleagues will assert, or whether some of this 
is just plain pure politics.
    Mr. Hastert. I thank the gentleman from North Carolina for 
his comments.
    I would also like to recognize the Chair of the full 
committee, Chairman Dan Burton.
    Do you have any comments?
    Mr. Burton. No, Mr. Chairman.
    Mr. Hastert. I also recognize the ranking member of the 
full committee, Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    This hearing represents the best and the worst of 
congressional oversight. The committees are meeting to look at 
and draw attention to Federal programs with major problems. We 
are doing a real public service by focusing attention on how 
the INS grants citizenship. There are very serious problems in 
this program that need oversight and need repair.
    The hearing is also an example, however, of political 
posturing. There have been assertions made that the INS 
problems were caused by political interference by the White 
House. The evidence before the subcommittee does not support 
these partisan claims. The problems at INS have existed in both 
Democrat and Republican administrations. They are national 
problems, not problems that should be exploited for political 
purposes.
    Mr. Barrett and Mr. Watt both reviewed the historical 
record. This record shows that INS has had longstanding 
problems in ensuring criminal background checks were completed 
before citizenship was awarded.
    This record also shows that a major reason so many 
immigrants were granted citizenship in 1996 was simply the fact 
that the number of applications for citizenship was 
dramatically up in that year.
    The inadequate procedures at INS combined with the surge in 
applications was a recipe for mistakes. We should examine 
whether there has been any attempt by the White House or 
anybody else to exert political influence at the INS. But in my 
view, the facts as we know them today do not support making the 
Vice President, or the President, or the White House the 
scapegoat of the longstanding problems at INS.
    I hope that this hearing will help us focus on the problem, 
and that we deal with that problem, and not try to posture 
simply for partisan political purposes.
    Thank you for recognizing me.
    Mr. Hastert. I thank the gentleman.
    In fairness to our witnesses, without objection, we will 
enter any other opening statements in the record.
    Are there any objections?
    [No response.]
    Mr. Hastert. So ordered.
    Also, I will enter into the record the four documents 
submitted by Mr. Barrett of Wisconsin, without objection.
    [No response.]
    Mr. Hastert. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T1887.008
    
    [GRAPHIC] [TIFF OMITTED] T1887.009
    
    [GRAPHIC] [TIFF OMITTED] T1887.010
    
    [GRAPHIC] [TIFF OMITTED] T1887.011
    
    [GRAPHIC] [TIFF OMITTED] T1887.012
    
    [GRAPHIC] [TIFF OMITTED] T1887.013
    
    [GRAPHIC] [TIFF OMITTED] T1887.014
    
    [GRAPHIC] [TIFF OMITTED] T1887.015
    
    Ms. Lofgren. Mr. Chairman, I would like to submit a 
statement.
    Mr. Hastert. So ordered.
    [The prepared statement of Hon. Zoe Lofgren follows:]
    [GRAPHIC] [TIFF OMITTED] T1887.016
    
    [GRAPHIC] [TIFF OMITTED] T1887.017
    
    [GRAPHIC] [TIFF OMITTED] T1887.018
    
    Mr. Hastert. I would now like at this time to ask our first 
panel to come forward. From the Department of Justice, we have 
Mr. Stephen Colgate, the Assistant Attorney General for 
Administration; and Ms. Dawn Johnson, the Acting Assistant 
Attorney General for the Office of Legal Counsel. From Peat 
Marwick, we have Mr. Gary Ahrens. And from the GAO, we have Dr. 
Laurie Ekstrand.
    If you would stand and raise your right hand. The committee 
rules require me to swear you in.
    [Witnesses sworn.]
    Mr. Hastert. Please show in the record that the witnesses 
responded in the affirmative.
    Thank you. Please proceed with your opening statements. We 
will begin with Mr. Colgate.

 STATEMENTS OF STEPHEN COLGATE, ASSISTANT ATTORNEY GENERAL FOR 
  ADMINISTRATION, DEPARTMENT OF JUSTICE, ACCOMPANIED BY DAWN 
 JOHNSEN, ACTING ASSISTANT ATTORNEY GENERAL FOR THE OFFICE OF 
  LEGAL COUNSEL, DEPARTMENT OF JUSTICE; AND GARY AHRENS, KPMG 
    PEAT MARWICK LLP; AND DR. LAURIE E. EKSTRAND, ASSOCIATE 
    DIRECTOR FOR ADMINISTRATION OF JUSTICE ISSUES, GENERAL 
         GOVERNMENT DIVISION, GENERAL ACCOUNTING OFFICE

    Mr. Colgate. I am here today to discuss our efforts to 
assist the Immigration and Naturalization Service in its review 
of 1,049,872 naturalization cases that were approved between 
September 1995 and September 1996.
    Accompanying me today are Ms. Dawn Johnsen, Acting 
Assistant Attorney General, Office of Legal Counsel; and Mr. 
Gary Ahrens, a partner of KPMG Peat Marwick.
    Last fall, the Attorney General asked me to help INS 
respond to questions raised by your subcommittees and others 
concerning whether persons with disqualifying criminal records 
were improperly granted citizenship.
    To assist INS in undertaking this massive and complex 
effort, and to avoid the questions being raised concerning its 
methodology, I recommended that an independent accounting firm 
review and certify the appropriateness of INS' revalidation 
process.
    KPMG was subsequently tasked with this project. In 
addition, KPMG was also asked to conduct internal control 
implementation reviews in INS field sites to ensure that the 
more stringent controls INS developed last fall are in place 
and working.
    I would like to describe for you the general process we are 
following as we work with INS on this issue.
    During the 13-month period, INS naturalized 1,049,872 
individuals. INS, with the aid of the FBI, is attempting to 
determine the number of these persons who had FBI records. This 
process has largely consisted of comparing FBI billing records 
with INS naturalization records. The following six categories 
have evolved.
    There have been 752,073 persons who have been identified as 
having no FBI criminal history records.
    There have been 71,557 persons who have been identified as 
having FBI records, which include INS administrative actions, 
misdemeanors, and felony arrests and convictions.
    There have been 113,126 persons who have not had definitive 
criminal history checks conducted, because their fingerprint 
cards were rejected by the FBI because their poor quality 
rendered them unclassifiable.
    For each person in this category, a subject search was done 
of the FBI criminal history data base using their name and 
other descriptive information. This type of search, while 
helpful in identifying some persons as having FBI records, it 
is not considered reliable for confirming that FBI records do 
not exist.
    There were 66,398 persons for whom it cannot be determined 
whether or not FBI records checks were ever conducted.
    There were 44,145 who were elders or minors. These were 
individuals who were either 75 years of age or older, or 14 
years of age or younger, for whom INS policy, and this is a 
longstanding policy, does not require FBI records checks. INS 
policy notwithstanding, 445 of these individuals were 
fingerprinted and found to have FBI records. These 445 are 
included in the 71,557 previously mentioned.
    There were 2,573 persons whose records checks were still 
being processed by the FBI at the time this data was produced.
    These numbers were produced by INS on January 14, 1997. I 
have used them for this testimony because they are in my 
assessment the best we have at this moment. The INS and the FBI 
continue their attempts to match their data systems in order to 
properly characterize all cases, and minimize the number of 
cases for which we have insufficient information about the 
individuals' criminal history.
    Therefore, and I cannot emphasize this strongly enough, 
these numbers will change, and in fact are changing as we 
speak, because the INS and the FBI continue to work on them. 
Their efforts will continue as long as we believe the data 
systems are capable of producing more information on these 
cases.
    While our efforts to finalize the numbers continue, we have 
made significant progress in reviewing the cases involving 
individuals with FBI records. The FBI has produced 
approximately 71,000 rap sheets for these individuals. The rap 
sheets have been sent to the INS Northern Service Center in 
Lincoln, NE where they have been separated by INS, under KPMG's 
supervision, into three categories.
    There are 34,700 individuals who have been arrested only 
for INS administrative violations. There are 25,500 individuals 
who have been arrested for at least one misdemeanor, but no 
felonies. Finally, 10,800 individuals have been arrested for at 
least one felony.
    These numbers are approximate, because the case review 
process in Lincoln has not been designed to produce daily 
accounts. Furthermore, as I said previously, these numbers are 
likely to change as more cases involving persons with FBI 
records are identified.
    So far, the focus of the case review in Lincoln has been on 
the 10,800 felony arrest cases. INS has assembled a 
Naturalization Review Team, consisting of skilled INS 
adjudicators, to review the case files, and independently 
determine whether the applicants were eligible to be 
naturalized based on statutorily defined residency and good 
moral character criteria.
    KPMG, as the assurance provider, is providing quality 
control and validation during the entire review process. KPMG 
will validate and document the procedures used during the 
conduct of the review.
    At the request of the Attorney General, the Department's 
Executive Office for Immigration Review is also assisting in 
this process by providing an independent validation of the 
decisions the NRT is making.
    As of February 27, 1997, a total of 9,573 case files have 
been reviewed. The results of the review are as follows. In 
6,605 cases, which represents 69 percent, the NRT adjudicators 
have found that the statutorily defined residency and good 
moral character criteria were met.
    In 168 cases, which represents 2 percent, the NRT 
adjudicators found that the statutorily defined residency and 
good moral character criteria were presumptively not met. This 
category of cases has been deemed presumptively not met, 
because it is possible that an affected individual could 
produce documentation that could render the original decision 
as improper, such as evidence that an otherwise disqualifying 
felony conviction was overturned on appeal.
    In 2,800 cases, which represents 29 percent, the NRT 
adjudicators found that they could not validate that the 
statutorily defined residency and good moral character criteria 
were met based on the information contained in the case files 
the NRT has in Lincoln.
    This category of cases is problematic in that files must be 
returned to the appropriate INS field offices in order to 
gather necessary information and documentation, such as 
obtaining court-ordered disposition records on a felony arrest.
    In addition, some of these cases contained no evidence of 
arrests for any statutorily disqualifying crimes, but they 
require further review regarding potential intentional 
misrepresentations by the applicants regarding other crimes. 
This effort could take months before we know whether the 
original decisions can be validated or not.
    As we conclude the review of cases involving persons with 
felony arrests records, INS, with KPMG's oversight, will review 
a stratified random sample of the 1,049,872 naturalization 
cases approved during the period in question. This review is 
being conducted at the Department's direction in order to 
assess whether INS procedures were correctly followed 
throughout the naturalization adjudication process, not just 
limited to the process for checking an applicant's criminal 
history.
    In addition to overseeing the case review process, the 
Department has also tasked KPMG to conduct an internal control 
implementation review in INS field offices.
    On November 29, 1996, INS instituted new naturalization 
quality procedures covering seven key enhancements, including 
standardization of work process, fingerprint check integrity, 
enhanced supervisory review, instructions regarding temporary 
file use, implementation of a standardized quality assurance 
program, guidance regarding revocation proceedings, and 
requirements for increased monitoring of outside English and 
civics test sites.
    To ensure that these procedures are being implemented 
correctly, KPMG is conducting implementation reviews at all 
four INS service centers, each of the five major Citizenship 
USA sites, and 15 other district offices, all of which account 
for more than 90 percent of the naturalization workload. These 
reviews are also assessing whether adequate training has been 
provided to INS field personnel.
    The last task that I want to talk about is that the 
Attorney General has asked JMD to conduct a procurement, and 
bringing in a firm to do a whole business process re-
engineering of the naturalization process. We should announce 
the selection of that firm this week. We believe in looking 
forward, and it is critical that we go out and select a quality 
firm to take a look at the whole process. We will commence that 
shortly.
    Mr. Chairman, and members of the committee, I am available 
to answer any of your questions. Thank you very much.
    [The prepared statements of Mr. Colgate and Mr. Ahrens 
follow:]
[GRAPHIC] [TIFF OMITTED] T1887.019

[GRAPHIC] [TIFF OMITTED] T1887.020

[GRAPHIC] [TIFF OMITTED] T1887.021

[GRAPHIC] [TIFF OMITTED] T1887.022

[GRAPHIC] [TIFF OMITTED] T1887.023

[GRAPHIC] [TIFF OMITTED] T1887.024

[GRAPHIC] [TIFF OMITTED] T1887.025

[GRAPHIC] [TIFF OMITTED] T1887.026

[GRAPHIC] [TIFF OMITTED] T1887.027

[GRAPHIC] [TIFF OMITTED] T1887.028

[GRAPHIC] [TIFF OMITTED] T1887.029

[GRAPHIC] [TIFF OMITTED] T1887.030

    Mr. Hastert. Thank you, Mr. Colgate.
    Ms. Johnsen and Mr. Ahrens, you are here for legal advice, 
and you do not have something to add to the record, is that 
correct?
    Ms. Johnsen. That is correct.
    Mr. Hastert. Dr. Ekstrand, please give your testimony.
    Dr. Ekstrand. Mr. Chairman, with your permission, I will 
submit my written statement for the record and just provide a 
short oral statement now.
    Mr. Hastert. Fine. Thank you.
    Dr. Ekstrand. As you know and have just heard, Peat Marwick 
under contract to the Department of Justice has three distinct 
tasks in relation to determining the extent to which aliens 
were improperly naturalized.
    These are first, supervision of a review by INS 
adjudicators of the current files of aliens with felony 
charges, to determine whether these files contain any 
information that would disqualify the alien from 
naturalization.
    Second, supervision of a subsequent review by Immigration 
judges of a thousand of these felony and other naturalization 
cases to help substantiate INS' adjudicatory review.
    Third, selection of a random sample of about 6,000 files 
from among those files of the 1.05 million who were naturalized 
during the time period to develop a broader picture of INS' 
procedural steps in its original adjudication.
    Our role in assisting the subcommittees will be to review 
Peat Marwick's methodologies to carry out these tasks, and its 
plans to implement those methodologies. As the work progresses, 
we plan to provide comments to Peat Marwick, DOJ, and your 
subcommittees on an ongoing basis.
    To this end, we have been meeting with your subcommittees 
to fully understand the most important questions you want to be 
addressed. We have also met with Peat Marwick's staff to 
discuss methodological and sampling issues. Next week, we will 
visit INS' Nebraska service center to observe the review of 
files of aliens with felony charges.
    With regard to the sampling of the universe of cases, the 
third task, we will review Peat Marwick's sampling plans, and 
comment on the degree to which these plans correspond with the 
subcommittee's need for information. Specifically, we will 
comment on the extent to which these plans will provide 
information about two groups that are of interest to the 
subcommittee.
    These groups are, first, the aliens whose fingerprint cards 
were rejected by the FBI because the cards were unclassifiable. 
That is about 113,000 aliens. Second, the aliens for whom the 
FBI said that it did not receive fingerprint cards for criminal 
history checks. That is about 66,000 aliens.
    We have agreed to provide the subcommittee with our overall 
comments shortly after the completion of our review of Peat 
Marwick's work. To date, both DOJ and Peat Marwick have been 
very cooperative in response to our requests for information 
and receptive to our comments.
    That concludes my oral statement. Of course, I would be 
happy to answer any questions.
    [The prepared statement of Dr. Ekstrand follows:]
    [GRAPHIC] [TIFF OMITTED] T1887.031
    
    [GRAPHIC] [TIFF OMITTED] T1887.032
    
    [GRAPHIC] [TIFF OMITTED] T1887.033
    
    [GRAPHIC] [TIFF OMITTED] T1887.034
    
    [GRAPHIC] [TIFF OMITTED] T1887.035
    
    [GRAPHIC] [TIFF OMITTED] T1887.036
    
    [GRAPHIC] [TIFF OMITTED] T1887.037
    
    [GRAPHIC] [TIFF OMITTED] T1887.038
    
    [GRAPHIC] [TIFF OMITTED] T1887.039
    
    [GRAPHIC] [TIFF OMITTED] T1887.040
    
    [GRAPHIC] [TIFF OMITTED] T1887.041
    
    [GRAPHIC] [TIFF OMITTED] T1887.042
    
    Mr. Hastert. Thank you, Dr. Ekstrand.
    Would you go over those numbers again; 166,000 applications 
were not accompanied by fingerprint cards, is that correct, is 
that what you said?
    Ms. Ekstrand. Well, we had 66,000 that there was no 
evidence that an FBI check was requested.
    Mr. Hastert. All right.
    There were how many cards?
    Ms. Ekstrand. 113,000.
    Mr. Hastert. 113,000?
    Ms. Ekstrand. Yes, that were rejected as unclassifiable by 
the FBI.
    Mr. Hastert. So in that case, was there or was there not a 
check done?
    Ms. Ekstrand. Our understanding is that there was a name 
check done. But, of course, a name check is not as definitive 
as a fingerprint check.
    Mr. Hastert. There could be aliases and all types of things 
in that situation?
    Ms. Ekstrand. That is correct.
    Mr. Hastert. Dr. Ekstrand, I had asked Commissioner 
Meissner, who has been telling the American people that only 
168 people with criminal records, felony records in this case, 
were incorrectly granted citizenship under the Citizenship USA 
program.
    Is that a good estimate in your opinion?
    Ms. Ekstrand. Well, not enough work has been done yet to 
determine what a good estimate is. There has only been a look 
at and a decision made on about 6,600 of the 10,800 alien 
applications that have been identified to have a felony charge. 
So there are about 4,000 of that group alone still to go.
    In addition to that, there are other groups of cases that 
will be very difficult to look at. One group is that 113,000 
that did not have the fingerprint check. Another is the 66,000 
that we know were not checked at all, or at least there is no 
evidence that they were checked at all.
    But also within the 752,000, there could be felons who 
substituted someone else's fingerprints for their own, and 
therefore were not adequately checked.
    Mr. Hastert. Let me make sure that I understand this. It 
was said that there is a number of people, only 168 people, who 
were actually deemed persons out of the 6,000 who have been 
screened, who were not fit to be citizens.
    Yet, there is a large number of people who have not had the 
ordinary submission of fingerprints, plus a large number of 
people not yet determined that have had a large number of 
fingerprints, because of shoddy workmanship or whatever on the 
fingerprints, that were not usable, is that correct?
    Ms. Ekstrand. Well, of the approximately 180,000 people who 
have been identified as either having an unclassifiable print 
or else no evidence that a check was requested at all, there is 
an unknown number of people who might have been disqualified 
because of a felony charge.
    Mr. Hastert. That is a different situation. The point I am 
trying to make is that it is a different situation.
    Some of the referrals here, that we heard this morning, is 
if the FBI does not give a reply back in 60 days, they did not 
have the information to give replies back in this situation, is 
that correct?
    Ms. Ekstrand. Well, they might have gotten the fingerprint 
cards back, and had the opportunity to submit a new card with 
fresh fingerprints, or complete the top part, the biographical 
information on the card, and resubmit it. My understanding is 
that these would represent cards that were not resubmitted. 
Otherwise, they would have fallen into one of the other 
categories.
    Mr. Hastert. Is the Attorney General personally involved 
and concerned with what you have previously called a national 
disaster and a nightmare?
    Ms. Ekstrand. I am sorry, I do not really know the extent 
of her involvement.
    Mr. Hastert. Mr. Colgate, can you comment on that?
    Mr. Colgate. Yes. The Attorney General is briefed at least 
weekly by me on the status of this review. She takes this very 
seriously. Actually, in some cases, it is even more than 
weekly. When new information or new events come to my 
attention, I will immediately bring them to the Attorney 
General's attention.
    Mr. Hastert. Can you expand on the Attorney General's 
statement yesterday that she may reconsider an independent 
counsel request?
    Mr. Colgate. No, sir. I think that was in connection with 
campaign finance, I believe. I attended that appropriations 
hearing, and I am not qualified to expand on that, sir.
    Mr. Hastert. Has the Attorney General said that she would 
denaturalize thousands if necessary?
    Mr. Colgate. She will do whatever it takes to get this 
corrected. When we have completed our work, she will take 
whatever the necessary action is.
    Mr. Hastert. Ms. Johnsen, would you care to comment on 
that?
    Ms. Johnsen. Only to say that the INS sets forth very 
specifically the circumstances under which someone can be 
denaturalized. As I understand, that includes people who have 
been convicted of aggravated felonies in some cases. The 
Supreme Court has emphasized that the terms and conditions set 
forth by Congress must be strictly complied with and where they 
are not, the person can be denaturalized.
    Mr. Colgate. Mr. Hastert, I just would want to add and 
assure the subcommittee that the Attorney General has given me 
a blank check as far as this review, to take it wherever it 
goes, to do whatever is necessary. She is taking it seriously, 
and she has given me absolutely whatever I have needed to 
undertake this assignment.
    Mr. Hastert. We appreciate the Attorney General's concern, 
and your good work.
    I now recognize Mr. Barrett from Wisconsin.
    Mr. Barrett. Mr. Chairman, Congresswoman Lofgren has a 
markup going on. So I would pass at this time, and ask Mr. Watt 
to pass, so that she could use her time.
    Mr. Hastert. Without objection.
    Ms. Lofgren. Thank you very much.
    I am concerned, frankly, about this hearing in some 
regards. Because I am aware of how sharply divided the country 
has become among new citizens and people who had the good 
fortune to be born here. I think that it is important that at 
least one of us say that to the extent that facts, figures, and 
rhetoric may lead some to look askance at our newest Americans 
who are naturalized, that we should encourage American citizens 
not to do that.
    I am one who has been to naturalization hearings, and I can 
recall really people raising their right hand to take the oath 
with tears streaming down their faces, how happy they were to 
be citizens of this country.
    I think that it is important that we honor that and not 
allow any inquiry to tarnish that in our eyes, or in the eyes 
of anyone here in America.
    Having said that, I think that to some extent, although we 
do need to review this whole situation, having this hearing 
today may be slightly premature.
    Is it my understanding, Doctor, that the Peat Marwick 
report will be due on April 30th of this year, is that correct, 
do you know?
    Ms. Ekstrand. I understand from Mr. Ahrens that is correct.
    Ms. Lofgren. So we will have a lot more information when 
that report is submitted than we do at this time, just because 
you have not finished it yet, is that correct?
    Mr. Ahrens. Yes.
    Ms. Lofgren. I would suggest, although certainly every 
member of either committee has a right and obligation to ask 
questions, that we ought to keep in mind that the facts are not 
yet in evidence and that we might want to defer the heavy 
questioning until after that report is received, and that we 
are dealing with facts and not maybes.
    I would also like to talk to Mr. Colgate. As you know, from 
last week's hearing, that the issue of fingerprint delays is a 
serious one in the country.
    I am wondering if you can address how big is the backlog in 
fingerprint clearances at the FBI right now, do you have a 
timeframe, how long does it take to get it done?
    Mr. Colgate. The last time I looked at these statistics, 
and I will provide for the record our most up to date 
information, we divide FBI backlogs into two categories, 
criminal, a backlog of criminal prints, and civil.
    Ms. Lofgren. On the civil side, what is the backlog?
    Mr. Colgate. My understanding of it, and I will give you 
the precise figures, the last time I looked at it, because this 
is something that we are tracking in the department, my 
understanding is that it is about a 45 day backlog.
    Ms. Lofgren. I am surprised to hear that. Because I have 
run into adoptive parents who are waiting 6 months or more to 
get their fingerprints cleared.
    One of the things that I am eager to pursue in terms of 
making this better is to improve the way that we collect 
fingerprints and screen them for positive ID. Part of the 
problem that we have addressed here today is the issue of the 
smudge cards that cannot be readable.
    I am wondering why the Department of Justice, and 
specifically the FBI, has not moved into the computer 
fingerprint charts that are used in some local governments, for 
example, the city of San Jose, which are clean and more 
accurate.
    Actually, we did a little analysis in local government, and 
found that it paid for itself very quickly, because of the 
personnel time not involved, and the accuracy rate, and the 
like.
    Why have we not got remote terminals in immigration offices 
around the United States to avoid this problem?
    Mr. Colgate. As part of this whole process, the Attorney 
General has also asked me to chair a committee of both INS and 
FBI officials to look at this very issue. We believe that there 
can be improvements made both by the Immigration Service as 
well as the FBI.
    I must say that I was very pleased with the response that I 
got from both the INS and the FBI just 2 weeks ago. In another 
2 weeks, we are going to have our next meeting where we are 
going to lay out major milestones on how we are going to try to 
accomplish this, as well as an exchange between the parties to 
understand each other's work better.
    Because we do want to build on both the work that INS has 
done as part of its IDENT system, and what the FBI has done as 
part of its IAFIS system, to see how we can one, improve and 
streamline the process, but actually improve the internal 
control mechanisms and the quality control issues that will 
benefit both the FBI and the INS. You raise a very good point, 
and we are moving on it aggressively.
    Ms. Lofgren. Prefacing the second question, my district in 
San Jose, CA is actually within the San Francisco office. And 
no one in the Bay area or I think anywhere on either side of 
the aisle around the country wants the INS to do anything less 
than to enforce the law as written.
    However, I understand how awful it is to have these delays. 
Last fall, we had people camping out in front of the Federal 
Building all night long, in the hopes that they might be able 
to get in the door to submit an application. If you call the 
INS, you will get a busy signal for 8 hours. You cannot get 
through. Over 70 percent of the calls to my congressional 
office are INS related, because people are tearing their hair 
out. They cannot get information, and they cannot get 
responses. There is over a 9-month delay for naturalization 
right now, and getting worse rapidly.
    With that background, how much may the INS or another 
Federal agency take advantage of the offer of help, money, 
resources, and the like from another level of government?
    For example, the county of Santa Clara has offered to buy 
some cash registers so the office will have three instead of 
one, and people can actually get through the door, rather than 
waiting for 6 hours to turn in their $90 check. They have 
offered to do fingerprint charts with their computers for 
positive ID, and then hand off the criminal record check to the 
FBI.
    Can the Justice Department accept that from another 
government?
    Mr. Colgate. As of October 1st, we have now received gift 
authority, and we are in the process of issuing our internal 
regulations in order to accept gifts. Anybody in the Department 
of Justice, if somebody has a better mouse trap, we want to 
hear about it. I am a firm believer that many State and locals 
have a better mousetrap.
    Ms. Lofgren. Well, that is good to hear. Because yesterday, 
I met with the chair of the board of supervisors of the county. 
He was advised in his meeting with INS last week that all of 
those offers of help had been rejected.
    Mr. Colgate. I will followup on it.
    Mr. Hastert. I thank the gentlelady from California. If you 
would like to work with us, I will make sure that we have 
another hearing in April.
    At this time, I would like to recognize Chairman Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Dr. Ekstrand, I have a number of questions about the 1994 
GAO report. But before I get to those, I would like to take 
another look at the numbers that we are looking at today.
    Mr. Colgate, let me direct my initial questions to you. But 
before I do that, let me try to simplify and paint the picture 
here. During the year in question, and I am rounding off these 
numbers, we are talking about a million individuals who were 
granted citizenship. Of those million individuals, about 
250,000, one quarter of the total, were allowed to become 
citizens without the INS knowing for certain whether they were 
eligible to become citizens or not.
    Let us look first at that 250,000 and within that 250,000, 
you have really three figures that are important. You have the 
113,000 individuals, who had their fingerprint cards rejected, 
because they were smudged or for some other reason were not 
accepted by the FBI.
    You have 66,000 individuals who did not have their 
fingerprints checked at all. Then you have the 71,000 
individuals who had some kind of criminal background. I want to 
look at each of those three categories before we go on.
    First of all, in regard to the 113,000 individuals who had 
their FBI cards returned, is it not likely, and I will start 
off with Mr. Colgate, is it not likely that a number of those 
individuals, and I am not asking you to predict how many, but 
is it not likely that a number of those individuals were 
ineligible to become citizens? If you are more comfortable with 
my asking Dr. Ekstrand that question, I will be happy to.
    In other words, the number is not zero. A number of those 
individuals are likely to be ineligible without saying how 
many.
    Mr. Colgate. I just do not know how many of them will be.
    Mr. Smith. I will turn to Dr. Ekstrand. I know you cannot 
predict.
    Mr. Colgate. OK.
    Mr. Smith. Dr. Ekstrand, common sense would suggest that at 
least some of those individuals would be ineligible, is that 
right?
    Ms. Ekstrand. I think that it is likely, although a number 
would be.
    Mr. Smith. Likely is all I am looking for right now.
    So of the 113,000, we have a number of individuals who are 
likely to be ineligible.
    Of the 66,000, they did not receive any kind of fingerprint 
check at all, Dr. Ekstrand, is it not likely that a number of 
those individuals would be ineligible?
    Ms. Ekstrand. Again, it is likely.
    Mr. Smith. Now let me get to the 71,000 that had the 
criminal background checks, and return to Mr. Colgate.
    Mr. Colgate, as I understand it, you have broken down those 
71,000 with the criminal backgrounds into three categories.
    The first category are 34,000 individuals, who have 
administrative violations, but we do not know for sure whether 
that would make them ineligible for citizenship, is that right?
    Mr. Colgate. That is correct. That is something that we are 
doing some additional research on.
    Mr. Smith. Dr. Ekstrand, is it not likely that some of 
those 34,000 would be ineligible?
    Ms. Ekstrand. That is a little bit more difficult, if they 
have been identified with specific administrative violations.
    Mr. Smith. Administrative would be, for instance, that they 
have a deportation order against then, which would make them 
ineligible for citizenship.
    Ms. Ekstrand. It is possible that there are some.
    Mr. Smith. Or even likely that some of those 34,000 would 
be ineligible for citizenship, is that right?
    Ms. Ekstrand. Yes.
    Mr. Smith. Then the next category of this 71,000 is the 
25,000 who have at least one misdemeanor in their record. Now 
we know that that is a little bit of a subjective decision, 
which is to say that the individual reviewing that file has 
discretion, and there are guidelines. For instance, if you have 
five misdemeanor convictions in the last 5 years, you are not 
eligible to become a citizen. So it is also likely, and I will 
not prolong this, it is also likely that a number of the 25,000 
are not eligible to become citizens.
    That takes us to the last 10,000 who had convictions of at 
least one felony.
    Mr. Colgate, as I understand it, there you have found that 
about 6,000 were eligible to become citizens, but there were 
about 3,000 who were either ineligible or whom you do not know 
one way or the other whether they were eligible to come 
citizens, is that correct?
    Mr. Colgate. It requires further review. We have to send it 
back to get information on dispositions and the like.
    Mr. Smith. My point here, and lets go back to Dr. Ekstrand, 
is that there is absolutely no basis for thinking that the 
extent of the problem is limited to a few hundred people.
    In fact, there is every reason to believe that the problem 
probably involves thousands and not hundreds, based on the 
common sense deductions that we have just gone through, and the 
likely number of individuals in all of those categories, who 
are possible or likely to become ineligible, would you agree 
with that?
    Ms. Ekstrand. Well, it is likely that the final number will 
be higher.
    Mr. Smith. Likely is all I am looking for. Because when you 
add up the likelies in all of these categories, you get into 
thousands and not hundreds.
    Again, I do not want anybody to be misled today, and that 
is why I have taken the time to look at these figures. That the 
problem is far more extensive than might be implied when we 
talk about very low numbers. The problem, common sense would 
tell us, as you just said, is likely to be a lot higher, in the 
thousands.
    Let me make a final point here. Regardless of what the 
numbers, whether it is 1,000, or 10,000, or 30,000, what to me 
is just as inexcusable is the fact that the INS did not know 
one way or the other whether one-quarter of the people 
naturalized were eligible or not.
    It does not matter what the numbers are. That is either a 
sign of mismanagement, or it is a sign of negligence, neither 
of which is acceptable.
    Dr. Ekstrand, let me turn to some of my questions about the 
1994 GAO report. The GAO issued a report to Congress in 1994, 
which of course is now over 2 years old, about INS 
fingerprinting of aliens.
    That report was in response to the Inspector General's 
report, and both reports were critical of the INS conduct in 
handling the alien fingerprints.
    Is it not true that many of the same areas of criticism 
that the GAO noted in 1994 are the exact same areas that we are 
concerned about here today?
    Ms. Ekstrand. That is the case.
    Mr. Smith. One of the Inspector General's critical findings 
was that the INS did not know in every case that the 
fingerprints being submitted actually belonged to the alien, is 
that correct?
    Ms. Ekstrand. That is correct.
    Mr. Smith. Now that goes to the 750,000?
    Ms. Ekstrand. That is correct.
    Mr. Smith. That the INS has said are eligible, but in fact 
those 750,000 might not be eligible, because we do not know for 
a fact where those fingerprints fit the individual, is that 
accurate?
    Ms. Ekstrand. That is correct, yes.
    Mr. Smith. Another problem is that the INS failed to timely 
send fingerprint cards to the FBI.
    That problem was true in 1994, and it is true today, is it 
not?
    Ms. Ekstrand. I cannot speak for today, but it could have 
been true during the time period that we are talking about.
    Mr. Smith. 1994, and it is true of the year in question?
    Ms. Ekstrand. We do not have any evidence that the problem 
was fixed.
    Mr. Smith. What?
    Ms. Ekstrand. We do not have any evidence that delays in 
sending the cards to the FBI was fixed during the time period 
that we are talking about today.
    Mr. Smith. I think Mr. Colgate has that. I know that we are 
talking about the 1994 GAO study on that.
    Ten months after the IG's report, did the GAO not find that 
the INS had not timely submitted fingerprints, and that the INS 
was still not requiring resubmission of fingerprints that had 
been rejected?
    Ms. Ekstrand. That is correct, in the offices that we 
reviewed.
    Mr. Smith. Furthermore, the INS permitted adjudication to 
go forward if the application had been on file for 60 days, 
even if the INS itself had filed to timely submit those 
fingerprints to the FBI.
    As a result, did not the GAO also conclude that aliens with 
criminal histories were in fact approved for naturalization?
    Ms. Ekstrand. We concluded that. But actually, that was 
based on the IG evidence.
    Mr. Smith. But that was your conclusion?
    Ms. Ekstrand. Yes.
    Mr. Smith. The GAO makes several recommendations. First, 
that the INS monitor its--I see that my time is up, Mr. 
Chairman. I will complete with this question.
    The GAO made several recommendations. That the INS monitor 
its districts more closely to ensure that the fingerprints were 
submitted on a timely basis. That new fingerprint cards be 
submitted in cases where cards had been rejected by the FBI. 
And that the INS obtain the results of all fingerprint checks, 
and make the results available to adjudicators before hearings.
    Your report reflects that the INS agreed with these 
findings, and that the INS said that they would implement these 
findings.
    Did the INS implement those findings?
    Ms. Ekstrand. Well, I am afraid that the information that 
we are talking about today, the 113,000 and the 66,000, seems 
to indicate that at least some of the problems were not solved.
    Mr. Smith. So you are not aware of any specific steps that 
the INS took before the summer of 1996 to implement the 
recommendations that you made?
    Ms. Ekstrand. No, I am not aware of any.
    Mr. Smith. Thank you, Dr. Ekstrand.
    Thank you, Mr. Chairman.
    Mr. Hastert. Mr. Barrett.
    Mr. Barrett. Thank you, Mr. Chairman.
    Dr. Ekstrand, in 1982, Nick Epstein, the Assistant Director 
of the Identification Division, wrote a letter to Alan Nelson, 
the Acting Commissioner of the Immigration and Naturalization 
Service, dated February 3, 1982, and talked about the 60-day 
presumption.
    Are you familiar with that letter; are you familiar with 
that policy?
    Ms. Ekstrand. I have heard it discussed. I have not 
specifically seen the letter.
    Mr. Barrett. What is your understanding of that policy?
    Ms. Ekstrand. Well, just that. That there is a presumption 
at the end of 60 days, if no reply has been received, that in 
fact the results were negative.
    Mr. Barrett. That was a policy that was in effect, I 
understand, through September of last year. So, for basically a 
14-year period.
    During that period, is it possible that there were people 
who were granted citizenship, even though they should not have 
been, because the 60-day presumption test was not met; in other 
words, the INS did not receive information prior to 60 days?
    Ms. Ekstrand. Well, it is possible, and in fact that is 
what the IG concluded in their February 1994 report.
    Mr. Barrett. That report covered what period?
    Ms. Ekstrand. I believe that the data was from 1992 and 
1993.
    Mr. Barrett. Could you talk a little bit about the earlier 
analysis? There was an analysis done, I understand, in 1986, of 
fingerprints that were submitted.
    What do you know about that?
    Ms. Ekstrand. I am sorry, I have very little information on 
that.
    Mr. Barrett. Are you aware that in 1989 that an analysis 
was done that showed that maybe in 100 percent of the cases 
that the FBI did not receive fingerprints?
    Ms. Ekstrand. I have heard that discussed. I have not seen 
the analysis itself.
    Mr. Barrett. Do you know whether this problem on a 
percentage basis has become more severe, or were there problems 
during this whole decade?
    Ms. Ekstrand. I think that there is no way to tell really 
whether there has been a change in the severity of the problem.
    Mr. Barrett. What is your gut feeling?
    Ms. Ekstrand. I do not know. Do we have more felons today 
than we had 10 years ago?
    Mr. Barrett. I think as a percentage of applications, you 
would be able to at least have a guesstimate as to whether it 
is a more serious problem. Clearly, we all know that the number 
of people who are applying for citizenship has risen 
dramatically over this period. What I am trying to determine is 
whether the problem has gotten more serious in the numbers.
    I agree with those who have spoken earlier, that even if 
you have one or two people who have slipped through the cracks, 
and become citizens who should not be, that is a serious 
problem.
    What I am trying to uncover, and maybe you can help me with 
your GAO report, or the report that you have been involved 
with, is whether the problem has gotten more serious, or if it 
is just a reflection of a larger number of applicants?
    Ms. Ekstrand. Well, it seems that the internal control 
issue that caused the problem has remained the same. It did not 
get fixed.
    Now in terms of whether it is a bigger problem now, even if 
the number of disqualifying felons who are applicants, if that 
percentage remained the same cross the time period, but the 
gross number of applicants for naturalization went up, you 
know, then that proportion would go up as well.
    Mr. Barrett. If you were to give us one recommendation, as 
we look to the future, as to how to make sure that this does 
not happen again, what would be your recommendation?
    Ms. Ekstrand. Well, I think that what INS is now trying to 
do, with a 100 percent policy of having the information in the 
record at the time the person is approved for naturalization, 
is the right way to go.
    Mr. Barrett. Again, I look at the information that we have 
received that showed that in 1986 that this was not done under 
President Reagan, and in 1989 that this was not being done 
under President Bush.
    So it seems to me that now for the first time in over a 
decade that we are doing it the way that you think it should be 
done, is that correct?
    Ms. Ekstrand. Well, it seems like this is a step toward 
removing the problem.
    Mr. Barrett. Mr. Colgate, are you familiar with the 1989 
analysis that showed that there were problems at that time?
    Mr. Colgate. I am familiar with the IG's 1994 report.
    Mr. Barrett. If you were going to make a recommendation to 
us as to what should be done in the future to make sure that 
this does not occur again, what recommendation would you make?
    Mr. Colgate. I would agree with the General Accounting 
Office. I think that procedures that we implemented on November 
29, 1996, where we require an absolute documentation in a file 
that this criminal history check had been done and the results 
are posted, is the type of thing that is absolutely necessary, 
as well as the other policy change that took effect, to my 
understanding, on March 1, 1997, where we have set up certain 
certified individuals in order to take the fingerprints, are 
key internal control mechanisms that I think are just 
absolutely necessary. I applaud the Service for doing it.
    Mr. Barrett. I would like to turn now to the number of 
people, and the figure we have heard is the 168 people.
    Those are people who have not met the presumptive criteria, 
is that correct, Mr. Colgate?
    Mr. Colgate. I am sorry.
    Mr. Barrett. The figure we have heard is 168 people.
    Mr. Colgate. Are you talking about the 113,000?
    Mr. Barrett. No, the 168 felons.
    Mr. Colgate. Oh, I am sorry. I am sorry.
    Mr. Barrett. There are a lot of numbers here today. I 
understand.
    Mr. Colgate. I am sorry. I usually think of millions and 
billions.
    Mr. Barrett. OK.
    Mr. Colgate. The 168, we view those as presumptively 
ineligible.
    Mr. Barrett. They would possibly even be able to meet the 
criteria themselves, would they not?
    Mr. Colgate. Yes. They will be turned over to the Service. 
The individual could bring in documentation that we currently 
do not have in the A files that would clear up the issue.
    Mr. Barrett. So it is possible that the number is even 
lower than 168?
    Mr. Colgate. The one thing I want to say to everybody is 
that I do not speculate. We are basically dealing with a 
snapshot here. I have given the committee the figures as of 
February 27, 1997. I have learned in this process that the 
numbers have changed over time. I do not want to mislead 
anybody.
    Mr. Barrett. I appreciate that.
    But it is legally possible to be less than 168, because 
legally they could provide the information?
    Mr. Colgate. That is correct. This is my understanding.
    Mr. Barrett. Thank you.
    Mr. Hastert. Just in passing on this question, I would like 
to interject on this.
    Either Dr. Ekstrand or Mr. Colgate, it has been said that 
in 1986 and in 1990 that there are possibilities that there 
were people without these background checks.
    Do we know that the INS brought people who had felony 
records, or were not eligible, and granted them citizenship, is 
that something that we know?
    Ms. Ekstrand. I do not have personal knowledge of that. I 
have heard that there are these reports, but I have not seen 
them myself. We would be glad to review them, and provide your 
staff with information.
    Mr. Hastert. Mr. Colgate.
    Mr. Colgate. I think that from a systemic standpoint that 
internal control weaknesses in not being able to positively 
identify the person who provided the card, as well as an 
exception reporting system, is a systemic weakness that would 
allow certain individuals to gain a benefit that they were not 
eligible for.
    Mr. Hastert. Was there any time that felons were 
naturalized in the past?
    Mr. Colgate. I cannot give you personal knowledge. I was 
just speaking from a systemic standpoint.
    Mr. Hastert. Thank you.
    Mr. Jenkins, do you have any questions?
    Mr. Jenkins. Mr. Chairman, I do not have any questions at 
this time.
    Mr. Hastert. I would then pass to Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Colgate, back to these figures here. You have 71,557 
being identified as having FBI records which include INS 
administrative actions, misdemeanor and felony arrests and 
convictions, is that correct?
    Mr. Colgate. That is correct.
    Mr. Mica. Do you have a breakdown of those by felony or by 
administrative actions, or can you give me some estimate?
    Mr. Colgate. Yes, sir, I can give you an estimate. Of the 
71,000 FBI IDENTs, 34,700 were administrative violations; 
25,500 were misdemeanors; and 10,800 were felonies.
    Mr. Mica. So we have that category of 10,800 felons?
    Mr. Colgate. It would be felony arrests.
    Mr. Mica. Was that group naturalized or rejected?
    Mr. Colgate. That comparison, that 71,000, is within the 
subset of 1,049,872 that were naturalized.
    Mr. Mica. So 10,800 felons were naturalized that we know 
of?
    Mr. Colgate. The 10,800 represents individuals with felony 
arrests.
    Mr. Mica. They were naturalized?
    Mr. Colgate. That is correct.
    Mr. Mica. We had 113,126 that we really did not conduct 
complete fingerprint checks on, is that correct? I am just 
reading your testimony.
    Mr. Colgate. There were 113,126 where we had not completed 
it.
    Mr. Mica. So we would not know how many really had felony 
records, would we?
    Mr. Colgate. There was a name check that does give you a 
barometer or indicator, but it is not a complete criminal 
history check. Only the fingerprint can give you the level of 
specificity that we need.
    Mr. Mica. You have another 66,398 for whom it cannot be 
determined whether there was even a check of the FBI records. 
Again, this is your testimony submitted to this subcommittee.
    Let me ask you a question. In September, I participated in 
a hearing on this subject. We had an individual by the name of 
Louis Crocetti, who is going to be a witness here. He testified 
in September that the number was 60 for the entire 
naturalization program that he felt might have some criminal 
background or some problem that got naturalized.
    How would his testimony compare with what you found? How 
could anyone come before a committee of Congress and tell us 
that it was 60 for the entire naturalization program that had 
some problem, do you think that is a little bit off base?
    Mr. Colgate. I think that it was probably made before the 
benefit of this review that we are conducting.
    Mr. Mica. Let me ask you too. As I understand it, there is 
a history in the past of denaturalizing folks or taking back 
their citizenship, if they gained citizenship. In the past, 
that has been limited to about 12 or 15 folks say on an 
annualized basis. We could be dealing with thousands of people 
who fraudulently obtained their citizenship.
    What are we going to do in this case, would anyone like to 
respond, is there any kind of program to go back and look at 
these folks, or are we just going to ignore it and let it go?
    Mr. Colgate. We will pursue it. It is my understanding, and 
I am not a lawyer, that we now have an administrative 
revocation process that will assist the Department as far as 
dealing with these individuals that we did not have before.
    Mr. Mica. I have a question for the gentleman from Peat 
Marwick. It is a little bit unrelated to this. But the 
Government Reform and Oversight Committee dealt with the White 
House office firings. It is my understanding that Peat Marwick 
changed its findings in some of their review there, because of 
pressure from the White House.
    Has Peat Marwick instituted any safeguards to make sure 
that this does not happen in the future, what is happening with 
your review process?
    Mr. Ahrens. I was not a part of the engagement that you are 
referring to. However, I can assure you that all work that we 
are currently doing with respect to the review for Justice is 
being done in conjunction with GAO yellow book standards for 
audit and review.
    Mr. Mica. The Department of Justice again, let me go back 
to this. It is my understanding that the IG and the Department 
of Justice is looking to expand the Citizenship America 
program.
    Is that correct, is that on the agenda now, are you aware 
of that?
    Mr. Colgate. You are talking about the Inspector General, 
sir?
    Mr. Mica. Yes.
    Mr. Hastert. The Inspector General is a full partner in 
this process with unfettered access as GAO, and they are 
expanding certain aspects of their review.
    Mr. Mica. Of the review.
    But what about the program itself, do we know if INS has 
plans to expand this Citizenship America, a speed up of the 
naturalization process?
    Mr. Colgate. I am sorry, you prefaced it. At first, I 
thought you said the IG. I am sorry.
    Mr. Mica. All right.
    Mr. Colgate. I think that the Immigration Service is trying 
to deal with the ever increasing level of workload. It is my 
understanding that they are looking at, for fiscal year 1997, 
about 1.8 million people who are requesting this benefit.
    Mr. Hastert. I thank the gentleman for his testimony.
    Mr. Mica. Excuse me, Mr. Chairman. Could he repeat that?
    Did you say for fiscal year 1997-1998, you are looking at 
1.8 million?
    Mr. Colgate. That is my understanding of the projected 
workload, sir.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Hastert. I thank the gentleman.
    Mr. Watt.
    Mr. Watt. Thank you, Mr. Chairman.
    Mr. Colgate, my chairman, Mr. Smith, who has left, asked a 
series of ``is it not likely'' questions, and I want to go in a 
slightly different tack. Because I practiced law for 22 years 
before I came to this body. So if my questions sound a little 
bit more factual rather than speculative, I hope you will 
respond to them.
    First of all, is it not a fact that you are a career 
employee rather than a political appointee?
    Mr. Colgate. That is correct.
    Mr. Watt. Is it not a fact that you started your analysis 
with 1,049,872 naturalizations during the relevant review 
period?
    Mr. Colgate. Those are the statistics as of January 14th.
    Mr. Watt. Is it not a fact that of the 1,049,872 reviews 
that you have made, that you have found that 168 of those are 
presumptively ineligible because of felony convictions?
    Mr. Colgate. I would like to say that the 168 is a subset 
of the 9,573 reviews that we have completed regarding felony 
arrests.
    Mr. Watt. Is it not a fact that as of February 27, 1997, 
that the only ones that you have determined that are 
presumptively ineligible out of this whole population is 168?
    Mr. Colgate. That is all that we have found to date.
    Mr. Watt. Is it not a fact also that of that 168, that some 
of them may also be eligible for citizenship despite their 
felony convictions?
    Mr. Colgate. That is correct. They require further review, 
and the individual may be able to produce documentation that 
was not contained in the file. This review is based on the 
review of the file material that we have presently.
    Mr. Watt. Is it not finally also a fact that Peat Marwick 
is supposed to complete its review and give us some more 
factual information about these other people, that Mr. Smith 
has asked you to speculate about under his ``is it not likely 
questions,'' by March 30, 1997?
    Mr. Colgate. April 30th.
    Mr. Watt. April 30, 1997.
    Mr. Colgate. This is work in progress.
    Mr. Watt. But based on what we have got right now, the only 
thing that we have been able to identify is 168 presumptive 
ineligible felons out of over 1 million applications, that is 
based on what we have right now?
    Mr. Colgate. Based on the review as of February 27, 1997.
    Mr. Watt. Mr. Chairman, I do not think that I have any 
further questions.
    Mr. Hastert. At this time, I would like to ask Ms. Ros-
Lehtinen if she has questions.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    My own subcommittee is going to be meeting in just a few 
minutes, and I might not be here to listen to Commissioner 
Meissner's statement. So I want to make my own statement about 
the type of positive leadership that I believe that Doris 
Meissner has been providing to INS and to our country.
    I believe that she has been doing an extremely good job in 
very difficult circumstances. She has been efficient, and she 
has been responsible. She has been straightforward and honest 
with our committee and with every committee with whom she has 
dealt.
    We know that she takes her job seriously, and she takes her 
responsibilities seriously. I have never seen her shy away from 
her duties and her responsibilities. She acknowledges that 
mistakes have been made. She has been cleaning up the agency, 
and she has been cooperating in the review.
    I think that the panelists that we heard today, no one 
there said that INS was not cooperating, that they are not 
willing to get to the bottom of this.
    The chairman had pointed out that Janet Reno has been 
cooperating in this review, and so has Doris Meissner. She met 
with us as members of the Hispanic caucus when she first 
assumed this job, and she said that she wanted to put the ``N'' 
back in INS, the naturalization aspect of it.
    Those of us who are naturalized Americans, as I am, and I 
have my certificate here, and I am very proud of this 
certificate. As Denny pointed out, he has been a fair chairman, 
Congressman Hastert, as well as Congressman Smith, they been 
very fair, to listen to my views. This certificate is very 
meaningful to me, as it is to every one of my constituents who 
are also naturalized Americans.
    We were glad that INS said we are going to put the ``N'' 
back in our agency. I think that we are trying to throw the 
baby out with the bath water. Investigations are needed. We 
understand that reforms have to be in place. I think that INS 
starting from Doris Meissner down, they want to cooperate, and 
they want to clear up any mistakes.
    Because any criminal scum bag, who has one of these 
naturalization certificates, that person should be prosecuted, 
and that person should be stripped of that certificate. Because 
any criminal who has this, it cheapens and it demeans the 
meaning of my certificate.
    So I want to make sure that you do not misrepresent my 
remarks as being a person who believes that we do not need to 
review this problem, and that we do not have to rectify it. We 
do.
    Let me tell you, in my district, there is not a month that 
goes by that people do not literally die trying to get this 
certificate. In the straits of Florida between Cuba and Miami, 
how many hundreds of bodies are there, people who wanted to 
come to this country, because of what this country stands for, 
freedom, democracy, and liberty.
    So I want to make sure that this certificate continues to 
stand for those principles. I know that in my area of Miami, 
and that is the only area that I feel comfortable talking 
about, I do not think that Citizenship USA was soliciting 
applicants. Some people have used that word in part of the 
opening statements that were made. There was no solicitation 
needed in my area. We have hundreds and thousands of people who 
want to be naturalized Americans.
    That the fraud has been a natural disaster, another phrase 
that was used here. Well, another disaster is having U.S. 
residents have to needlessly be twisting in the wind months, 
and months, and months, delaying needlessly this naturalization 
process of these very anxiety ridden individuals.
    It is hard to become a U.S. citizen. Maybe some Members of 
Congress believe that you just go up, that it is like going to 
the supermarket and buying a dozen eggs. First of all, it costs 
$95. You may chuckle. That may not be much in your wallet. But 
for the residents that I represent, for those individuals, $95 
is quite a financial commitment.
    After paying that and filling out the form, which is not an 
easy form to fill out, for many of these individuals in my 
district, none of them have English as their native language. 
After doing that, they have to study for the exam.
    Let me give you some of the questions that you have to 
answer correctly. How are Federal and State governments 
divided? If you watch Jay Leno, like I do, just 2 weeks ago, he 
went out on the street, and he asked 20 people to name the 
three branches of government. There was not one person who 
could give him the right answer.
    These are people who were born in this country. What do the 
three branches of government do? What President was impeached? 
How many of you know that answer? By whom was the Declaration 
of Independence written? When was peace declared in World War 
I? Bill Clinton could not get this one. Whose words are ``of 
the people, for the people, and by the people?''
    Who wrote the Constitution of the United States? Where was 
the Constitution written and when? How is an amendment to the 
Constitution passed? How many amendments to the U.S. 
Constitution are there? What officers assist the President in 
the execution of laws? How many of you could answer those? How 
about this one, name the 13 original States?
    Now imagine that you are 75 years old, and you have come 
from a different country, and you do not understand the English 
language well enough. You have been here 7 years and these are 
a few of how many questions that they have to study.
    In my district, the classes are full of people who want to 
learn the English language. You cannot get into another class. 
The civics classes are full. They have a year waiting list. On 
top of this, they have to wait, and wait, and wait for the 
naturalization process.
    I believe that everyone should have their criminal 
background carefully screened. But I think that now INS is 
going to be so cautious, so extremely cautious and nervous 
about this process, that they are in a paralysis.
    In my congressional district, we have not had one 
naturalization ceremony in October, in November, in December, 
in January, in February. In March, how many are scheduled? 
None. No one has been able to become a naturalized American in 
my congressional district.
    Now do you think that is fair? They are going from one 
extreme to the other. These investigations are needed, and 
these congressional hearings. I am all for them.
    I have nothing but praise for Congressmen Hastert and Smith 
for the way that they have been handling them. But I want this 
committee to understand the kind of effect that they are having 
on the naturalization process.
    My constituents want to be naturalized, and are perfectly 
willing to be screened. They are anxiously studying their exam 
questions. They are ready, willing, and able. Please, if you 
want to help this process along, why do you not help INS 
streamline the process, and help people to become naturalized 
Americans.
    Not everyone who is applying for citizenship is a criminal. 
As we have just heard from the previous questions, that out of 
the 930,000 people who were screened in one way or another by 
the FBI for criminal backgrounds, how many were there that were 
found to be criminal? I believe that the answer is something 
like 168.
    So it is a problem, as we understand it? Dorothy Meissner 
understands it. She is cooperating. But let us understand that 
also we need to make sure that naturalization is a process that 
is going to work for all of us.
    Mr. Hastert. I think you bring up some good questions. I 
thank you.
    Ms. Ros-Lehtinen. Thank you, Denny.
    Mr. Hastert. You know, we did naturalize a lot of people on 
September 30th. I think that is a good question, why have we 
not done any since September 30th? I appreciate that.
    Now I would like to turn to the gentleman from Texas, Mr. 
Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Colgate, I know that in your efforts to review the 
numbers, the group that you chose to begin with was the group 
that had at least one felony, is that correct?
    Mr. Colgate. One felony arrest.
    Mr. Turner. I take it that group that you sought to begin 
your review with is actually on its face the group or the 
category that would likely have the highest number of 
ineligible applicants, because you are talking about felons, is 
that correct?
    Mr. Colgate. That was our assumption.
    Mr. Turner. In that group thus far, you have found 168. I 
believe you earlier mentioned that you looked at about 6,000 of 
the 10,000 in the category of one convicted, having at least 
one felony, is that correct?
    Mr. Colgate. Actually, we have looked at 9,573 of the 
approximately 10,800 felony arrests.
    Mr. Turner. All right.
    So in the category of the worst of the worst, you have 
found 168?
    Mr. Colgate. As of February 27th.
    Mr. Turner. I was just doing a little calculation, and I 
know that you have probably not gone through this. But my 
figures would reveal that if all of the other categories that 
you mentioned, that is the group where fingerprints were 
deficient, and the group where there were no fingerprints, if 
it turned out that all of those numbers there also had the 
approximate same number of individuals with at least one 
felony, that you would end up, when you looked at the total 
number that you might discover had some problem with them and 
would have been ineligible, that it would represent less than 
one half of 1 percent of the total 1 million who were granted 
citizenship.
    Now to say that there were mistakes made in one half of 1 
percent of the applicants, of course, is only half of the 
story. Because, as has been mentioned on numerous occasions, by 
other Members here today, even one mistake is too many.
    The question that I have for you, and I hope that you can 
shed some light on it, is why is it that through three 
successive Presidential administrations, that we have had 
tremendous backlogs of applicants for citizenship, and even 
today that backlog continues to rise?
    It seems to me that it is our obligation as Members of 
Congress and the obligation of the INS to be sure that we do 
not have a backlog. That if the law allows individuals to be 
eligible for citizenship under the law, that we should proceed 
with diligence to be sure that that citizenship is granted.
    In your view of this matter, what has been your 
determination as to why we continue to carry such a tremendous 
backlog of applicants, creating situations were efforts are 
made to eliminate the backlog and in the process some mistakes 
are made, why do we have a backlog?
    Mr. Colgate. It is my understanding that the backlog that 
we are now faced with is the result of the asylum period in the 
mid to late 1980's, as well as such things as welfare reform 
and Proposition 187, where individuals because of those 
initiatives are now seeking this benefit in record numbers.
    Mr. Turner. Is it not apparent then that we need better 
staffing at INS to be sure that we are able to allow that 
agency to comply with the law, and to review the applicants in 
a timely fashion?
    Mr. Colgate. Sir, my view as a public administrator, 
especially in light of the fact that this program is a fee 
funded program, it is important that we be responsive. When you 
are dealing with situations of 18 months to receive a lawful 
benefit, that is a public administration program that is not 
working correctly.
    I am a firm believer that we need proper internal controls. 
But I do find it problematic that when somebody pays a fee for 
a government benefit that they are entitled to, that it takes 
them over 18 months to receive that.
    Mr. Turner. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hastert. I would recognize Mr. Bono.
    Mr. Bono. Thank you, Mr. Chairman.
    Mr. Colgate, I just want to recap this. The numbers that 
you have given us have all been reviewed by your office, is 
that correct?
    Mr. Colgate. It is a cooperative review between the 
Immigration Service and the FBI. This is our latest snapshot as 
of January 14th. We are still refining it further, sir.
    Mr. Bono. So the determinations that you have given us as 
far as 168 criminals, that is rock solid, that is in granite 
now, that we now know that no more than 168 felons have entered 
this country on that program, is that correct?
    Mr. Colgate. No.
    Mr. Bono. It is not correct?
    Mr. Colgate. That is a snapshot as of February 27th.
    Mr. Bono. Then why are we talking about it like it is an 
axiom? Everybody is throwing these numbers around as factual, 
as I understand.
    They are not factual?
    Mr. Colgate. Well, the review had produced 168 individuals 
who have a presumptive ineligibility.
    Mr. Bono. I understand all of that. All I want to determine 
is whether these are facts or are they not facts? I hear facts, 
and I hear reviews, and I hear further reviews. So I do not 
understand when we say that something is factual when the 
process has not been completed.
    Mr. Colgate. The process has not been completed. This is a 
snapshot of where we are.
    Mr. Bono. Then we have a snapshot, the facts are actually a 
snapshot at this point?
    Mr. Colgate. That is correct.
    Mr. Bono. OK. Who takes the fingerprints, who takes the 
fingerprints for the INS?
    Mr. Colgate. It is my understanding that those 
fingerprints--are you talking about this review period?
    Mr. Bono. Yes. Evidently, the fingerprints are taken and 
supplied to the FBI, is that right?
    Mr. Colgate. It is my understanding that it is the 
individual responsibility of the applicant.
    Mr. Bono. The applicant takes his own fingerprints?
    Mr. Colgate. They would go to a facility that would have 
the capability to take those prints for them. As of March 1st, 
as far as dealing with the internal control issue identified 
earlier, the individuals have to have those prints taken from 
an eligible, certified facility. That is my understanding.
    Mr. Bono. When is that?
    Mr. Colgate. That process was implemented March 1, 1997.
    Mr. Bono. Up to then, the applicant could go anywhere and 
take a fingerprints wherever they wanted to, is that correct?
    Ms. Johnsen. That is correct.
    Mr. Bono. If someone did not really want to disclose their 
fingerprint, they could have gotten another fingerprint?
    Mr. Colgate. That was one of the internal control 
weaknesses identified previously.
    Mr. Bono. So now we have another uncertainty as far as the 
fingerprints that you have viewed, is that correct? We do not 
know that all of those fingerprints are by the people who say 
they represent, is that correct?
    Mr. Colgate. That is my understanding.
    Mr. Watt. I am wondering if the gentleman would yield.
    Mr. Bono. I will yield in a minute. I just want to finish 
this. The last time I yielded to you, it was one of the nicest 
insults that I have ever had.
    Now did the FBI and the INS talk to each other when they 
were going to go on this massive program to clean up the 
backlog? Was there ever a discussion that we are going to go 
into this exceptionally massive program right now to clean up 
this backlog, so your work load is going to be excessive?
    Was there ever any discussion between the two agencies?
    Mr. Colgate. It is my understanding that there was 
discussion at the staff level. I think, though, in retrospect 
that there should have been a higher-level dialog, which is 
currently going on right now.
    Mr. Bono. There should have been a higher level?
    Mr. Colgate. That is my understanding.
    Mr. Bono. Because it seems that when you launch a campaign 
of this type and of this magnitude that you are going to clean 
up this entire backlog, then it is far more excessive than it 
is under normal circumstances, and that would place burdens on 
everybody in the INS.
    I think that Chairman Meissner said that she put on an 
additional 700 or 900 employees. So she was preparing for a 
much bigger workload.
    Were you advised to prepare for a bigger workload when you 
had to give a turnabout on the fingerprints for 60 days?
    Mr. Colgate. First, I am involved in the review process.
    Mr. Bono. I mean was the FBI?
    Mr. Colgate. I really cannot say.
    Mr. Bono. We do not know.
    Mr. Colgate. I do not know.
    Mr. Bono. OK.
    Mr. Colgate. But I would want to point out though that it 
is my understanding that even with this increased workload, 
that the FBI, if my recollection is correct, did complete about 
94 percent of the prints submitted within the 60 day or less 
time period.
    Mr. Bono. Now we know that we can never go back and get 
some of the fingerprints that we need to get. That would appear 
to me to be an impossibility.
    Let us forget the political portion of this, but to launch 
a program like this.
    Right now, you are in a clean-up process, is that correct, 
is the Justice Department in a clean-up process currently?
    Mr. Colgate. I use the term review process.
    Mr. Bono. Review process, OK.
    How much is this review going to cost us?
    Mr. Colgate. We are dealing with estimates.
    Mr. Bono. Give me just one broad number, ball park.
    Mr. Colgate. The review, which does not include the re-
engineering--when the Attorney General testified yesterday, we 
are estimating when we were taking a look at the additional 
time that the FBI has for fingerprint review; in comparison, if 
we are taking a look at the Inspector General as well as the 
KPMG cost for the review, we are estimating between $4 and $6 
million.
    Mr. Hastert. The gentleman's time has expired.
    The gentleman from California, Mr. Condit.
    Mr. Colgate. I would like to give some breakdowns in more 
detail later.
    Mr. Bono. I just thought that I heard the Attorney General 
say possibly in excess of $10 million.
    Mr. Colgate. That included the business process re-
engineering portion of it.
    Mr. Hastert. I thank the gentleman.
    The gentleman from California.
    Mr. Condit. Thank you, Mr. Chairman.
    I would like to go, if I may just for a moment, to the 
review.
    Is the review the study that is due in April sometime, are 
we talking about the same thing?
    Mr. Colgate. That is one aspect of it, yes.
    Mr. Condit. Can you tell me the parameters of the study or 
the review, whichever it is, what are you actually looking at 
in terms of the review or the study?
    Mr. Colgate. We are doing several things. We are looking at 
a review of all of the felony arrests, as well as a sample 
review of the whole 1,049,872. Those would be people who had no 
criminal histories as well as these other categories. We think 
that the statistical sample will give us indicators.
    KPMG tasks also include them going out into the field, and 
they are doing that right now, doing internal control reviews 
to ensure that the new procedures, which were adopted on 
November 29, 1996, have actually been implemented. Those are 
the corrective actions that the Service has come up with. So it 
is multi-faceted, sir.
    Mr. Condit. Mr. Chairman, may I ask, are we then going to 
take another look at this once this report comes out in April?
    It seems that what we are talking about today, they are 
going to put in writing, in written form, April 30th, is that 
correct?
    Mr. Hastert. It seems like there is a great deal of 
interest. If the gentleman would yield, there is a great deal 
of interest in this, and we intend to come back and take 
another look at it.
    Mr. Condit. The corrective matters, is one of those where 
we depend on inter-agencies, the FBI or whoever, to help us do 
background checks on people, has there been some looking at 
that to see whether or not we are teaming up together in 
agencies, is that part of the study, or do you have some 
response to that today, is that working out well or not?
    Mr. Colgate. As far as the fingerprint aspect, it is really 
twofold. One, the agency has changes to their procedures, so we 
have an absolute yes or no involving the criminal history being 
completed, so the adjudicator has that information. That is 
part of the November 29th procedures.
    We are also working between the FBI and INS to ensure that 
we can look for ways of improving the processing of 
fingerprints between these two agencies. The first guarantees 
us that all of the internal controls and safeguards are met. 
The second ensures a more timely response.
    Mr. Condit. Well, I am actually finished. I would be 
interested in the review or report that comes out in April. It 
seems to me that it might respond to some of the concerns that 
we have. It also may give us some new interest in asking some 
additional questions.
    But I would also like to identify myself with some of the 
comments that my colleague from Florida made. I think that we 
ought to focus on expediting citizenship. People who are 
interested in being citizens, we ought to try to figure out a 
way to expedite that, and not make that a long drawn out 
affair, and crack down on some of the other problems we have 
with INS illegals, et cetera.
    Whatever we can do, Mr. Chairman, to encourage people to 
become citizens, and make sure that there are safeguards in 
that, I think we ought to do that. I commend you for holding 
the hearing, and hope maybe that the report that comes out in 
April will offer some solutions to the problems we have.
    Mr. Hastert. I thank the gentleman from California.
    The gentleman from Tennessee, Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman.
    I, too, would add my desire that we see to it that people 
who want to become citizens can do so in as expeditious a 
fashion as possible under the law. But I want to stress that we 
have a duty to enforce the law. Granted, I do not know all of 
the facts, and I do not know all of the spins and 
interpretations that have been put on this.
    But when I see what happened last year, and I am reading 
about some of the comments that the administration is making in 
the newspaper about this, it makes me very concerned, and it 
makes my constituents back in Tennessee very concerned, that 
perhaps the proper qualifications in the laws were not being 
followed, and they were simply thrown aside during an election 
year to buildup the voter rolls in various States.
    Just looking at the 185,000 people who were not 
fingerprinted for whatever reason, if you divided those up 
among the 50 States, Tennessee would have 3,600 of those people 
right now. We really do not know if they have criminal 
backgrounds or not.
    There is no excuse for that. I am looking at Mr. Colgate, 
and he is not to blame for this. But I think the administration 
is to blame for this. There is no excuse to forego the law. To 
take that risk of bringing in people who are not qualified 
because of criminal records just to expedite the process, and 
even worse to get voters on the rolls regardless of how they 
might vote.
    I think it is much easier, the old saying is an ounce of 
prevention is worth a pound of cure, it is much easier to maybe 
be a little slower on the front end, and take the care to 
follow the law, and make sure that the people are qualified, 
than to just wholesale massively bring in groups of people in 
the interest of making them citizens, and take a chance that 
there are not too many criminals in that mix.
    Then to have to go back after the fact and spend huge 
amounts of money to denaturalize. If you can find these people. 
Unfortunately, you are not going to find a lot of these people 
until they are rearrested, and hopefully for not violent 
crimes.
    To hear people say well, we do not want to politicize this, 
the Republicans are politicking here and trying to score 
points, how can you not take this interpretation when you read 
in the paper e-mail messages, and this is from administration 
people in the White House or the Vice President quoted in the 
Washington Post yesterday, ``Unless we blast INS' headquarters 
loose from their grip on front line managers, we are going to 
have too many people still waiting for citizenship in 
November.''
    In a memo to the Vice President on her assignment to look 
at the citizenship backlog, Kay Martin said that ``Only if the 
INS processes citizenship applicants 7 days a week up to 12 
hours a day, can we hope to make a significant enough dent in 
the backlog that will show up when it matters.''
    Now it does not take a rocket scientist to determine what 
they are talking about there when it matters. We are talking 
about the election. Again, it just upsets me that for the 4 to 
5 years prior to this, that we averaged about 300,000 
naturalizations a year and then go up to over a million, just 
coincidentally during the election year and get into this, 
where we have to have hearings and spend money to do this, and 
trying to undue mistakes that were made.
    I am beginning to wonder if the motto of this 
administration is no mistakes were made. Because we keep 
hearing that over and over, not just here, but across the 
board. We certainly see the envelope being pushed as far as it 
can be pushed in all instances I have seen. Then to come back 
later and say well, mistakes were made, what do we do now?
    You know, I for one am tired of trying to pick the pieces 
and undo the mistakes that were made. I think that our folks, 
particularly the INS, need to do a much better job in terms of 
enforcing the law, and it may take a little longer. You maybe 
can only average with the assets you have got 300,000 a year. 
Maybe that is what we should do. But I think that we should do 
that, rather than just wholesale over a million people in, that 
it looks like a good portion of which would not be qualified.
    I think that I have probably made my statement in the form 
of a soap box, and really do not have any questions beyond 
that.
    I again thank all of you for taking your time to come in 
and testify before us today.
    Mr. Hastert. The gentleman from Arizona, Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman.
    I want to first commend you, Mr. Chairman, for holding this 
hearing. I think that most of what needs to be brought out has 
been brought out. But I guess that I would like to add a few 
comments and associate myself with the comments of my 
colleague, Mr. Bryant, from Tennessee.
    First of all, Mr. Colgate and each of you here today, I 
commend you in the work that you are doing. I think that it is 
vitally important. There has been some discussion about well, 
it is only this number, that out of what we have done we have 
only found so many people who should not be here to begin with.
    Anyone applying to become a citizen of the United States 
has a right to understand the process, and to have the process 
function in a proper fashion. But there are two sides to that 
coin. Not only should people applying for citizenship not be 
forced to undergo improper delay or inexcusable delay, but by 
the same token, every American citizen already in this country 
and every citizen who has gone through the naturalization 
process and done it the right way has a right to expect that 
the system will operate properly.
    I think that Mr. Bryant's comments are well taken. I look 
forward to reviewing very carefully the work that you are 
doing.
    Mr. Colgate, I commend the Justice Department for examining 
these issues closely. It troubles me greatly as a 
representative of a border State, the State of Arizona, where 
we in fact have a serious problem with the issue of who should 
properly be a citizen of the United States. In our State system 
of welfare, and in our State school system, to look at the 
numbers I see kicked around the paper, and to say well, we did 
not even try to apply the rules to this category of people; and 
then with this category of people, we applied the rules, but we 
did it in a sloppy fashion.
    I guess that the only point that I would like to make, to 
add to what has been said here today, is I believe what you are 
doing in terms of trying to get to the bottom of this whole 
scandal, and I think it is a scandal, of not following the law.
    The U.S. Government not being able to properly administer 
its laws, to not be able to perform a background check on 
people who want to become citizens, that is indeed a scandal.
    To discover that numbers of immigrants have gotten in and 
are now citizens, when you look at the fact that it is unlikely 
that any significant number of those people who have criminal 
records will in fact be denaturalized, I think it is a scandal.
    I would urge you in going forward from this point, to do 
your job thoroughly. I think you owe that to the American 
people. I think that we owe it to the American people to get to 
the bottom of each of these questions that are raised today and 
not to kind of minimize it, and say well so far we know it is 
only this number.
    The process ought to work in both fashions. It ought to 
work for those seeking citizenship, so you can become a citizen 
in a timely fashion. But it also ought to work for all 
Americans to assure that if you do not comply with the rules, 
if you are in fact a criminal, you are not granted citizenship.
    So I commend you, Mr. Chairman, for holding the hearing and 
I commend each of the members of the panel for their work. I 
look forward to having you back here again, and looking at the 
final results and then to try to put in place procedures which 
make sure that nothing like this happens again. Thank you.
    Mr. Hastert. I thank the gentleman.
    I also want to recognize the gentleman from California, Mr. 
Gallegly, for any comments or questions that he might have.
    Mr. Gallegly. Thank you very much, Mr. Chairman.
    I apologize for walking in here in the middle of the 
hearing. I had a bill on the floor, and had another markup at 
the same time. Rather than me stepping in in the middle and 
being redundant with some of the questions, I will hold my 
remarks for later. Thank you, Mr. Chairman.
    Mr. Hastert. I thank the gentleman.
    We are going to dismiss this panel.
    I would like to call forward the second panel. The second 
panel from INS will please come forward. It will be composed of 
the Honorable Doris M. Meissner, INS Commissioner; Mr. David 
Rosenberg, Citizenship USA Program Director; Mr. Louis D. 
Crocetti, Associate Commissioner for Examinations; and Mr. 
David Martin, General Counsel.
    If you folks would please stand and raise your right hand. 
The committee rules require me to swear you in.
    [Witnesses sworn.]
    Mr. Hastert. Let the record show that the witnesses have 
responded in the affirmative. Thank you.
    I would ask Commissioner Meissner to please proceed with 
your opening statement.

  STATEMENTS OF DORIS MEISSNER, COMMISSIONER, IMMIGRATION AND 
NATURALIZATION SERVICE, U.S. DEPARTMENT OF JUSTICE, ACCOMPANIED 
BY DAVID ROSENBERG, CITIZENSHIP USA PROGRAM DIRECTOR; LOUIS D. 
 CROCETTI, ASSOCIATE COMMISSIONER FOR EXAMINATIONS; AND DAVID 
                    MARTIN, GENERAL COUNSEL

    Ms. Meissner. Thank you, Chairman Hastert, and Chairman 
Smith, Mr. Barrett, Mr. Watt, and other members of the 
subcommittee.
    My name is Doris Meissner. I am joined today by Louis 
Crocetti, who is our Associate Commissioner for Examinations; 
David Rosenberg, our Director of Program Initiatives; and David 
Martin, the General Counsel at the Immigration Service.
    The naturalization program is of enormous importance to the 
Immigration and Naturalization Service, and to the Nation. The 
grant of citizenship is the most important benefit that the INS 
can bestow. Unfortunately, this program had suffered from 
serious problems for many years.
    Therefore, as I said it would be at my confirmation hearing 
in 1993, that one of my primary goals as Commissioner has been 
to give the naturalization the attention it had lacked for so 
long--in other words to put the ``N'' back into INS.
    Let me be clear about the origins of Citizenship USA. 
Neither politics nor electoral considerations influenced the 
design, the implementation, or the operation of Citizenship 
USA.
    We created Citizenship USA in order to address 
unprecedented increases in citizenship applications, to 
eliminate unconscionable backlogs, and to return to our 
historical 6-month standard for processing applications.
    Citizenship USA achieved its goal of backlog reduction and 
timely processing by hiring an additional 900 employees, 
opening 9 new offices, and automating certain parts of the 
process, not by lowering standards or by fostering a rush to 
citizenship.
    At the same time, the volume of applications that we have 
handled and continue to receive strained already outmoded 
procedures that have let us to make four critical changes in 
the system.
    First, we have eliminated the possibility that 
naturalizations can occur before we have received the results 
of the FBI's fingerprint check. That is to say that we now 
confirm in 100 percent of the cases whether any fingerprint 
record exists with the FBI.
    Our new procedure, effective in November 1996, replaces the 
fingerprint policy that had been in place since 1982. That 
policy called for waiting 60, and then 120 days, and then 
proceeding when we had received no report from the FBI.
    Second, we have instituted a quality assurance program to 
ensure that the procedures are being followed completely and 
uniformly in all INS offices. The quality assurance measures 
involve random monthly checks of every INS office, and 
documented proof that all steps are being followed.
    Third, the Department of Justice has contracted with the 
management consulting and accounting firm of KPMG Peat Marwick 
to oversee a comprehensive audit of all naturalization cases 
from last year, and to review the implementation of the new 
quality assurance procedures. We will take swift action to 
revoke the citizenship of any persons found to have been 
wrongfully naturalized.
    Finally, the Department of Justice is letting a contract 
for a complete redesign of the citizenship process to take 
place over the next 2 years. We expect this effort to help us 
replace our paper-based processes with modern, reliable, 
automated procedures.
    Before 1992, we received about 300,000 naturalization 
applications yearly. I think that as you can readily see from 
the charts that we provided, particularly the first chart on 
the left, our applications have quadrupled in the intervening 
years. We expect 1.8 million applications this year.
    The increases have resulted from a variety of factors, 
including the near equality in cost of replacing a green card 
to applying for citizenship, eligibility for citizenship of 
those legalized following Congress' 1986 reform legislation, 
anxieties among immigrants about measures such as Proposition 
187, and now most recently the effects of welfare reform 
legislation on legal immigrants.
    By 1995, we had a backlog of 800,000 applications. Some 
applicants were waiting 2 to 4 years. This was unconscionable. 
We had an obligation to process their cases.
    The goal of Citizenship USA was to reduce backlogs and 
achieve timely adjudication of naturalization applications. At 
no time did political or electoral objectives guide the 
creation or the implementation of Citizenship USA.
    INS first briefed staffers from the National Performance 
Review in February 1996, 11 months after the program was 
conceived, and 6 months after it was publicly announced and 
begun.
    We did not pursue any suggestions made to us that would 
have relaxed or waived the legal requirements for citizenship 
or otherwise have undermined the integrity of the 
naturalization process. On the contrary, we strengthened and 
improved our citizenship program.
    We received bipartisan congressional support for our 
efforts to keep up with increased applications, to reduce 
backlogs, and to return to the historical 6 month processing 
timeframe.
    Our efforts in Citizenship USA have taught us some hard 
lessons. We had aimed for a balance, to divide our effort 
between meeting the growing workload, and moving forward with 
necessary progress reports. In hindsight, it is clear our reach 
exceeded our grasp.
    Our policies and procedures were written in a different 
era. Our system, paper driven, and supported by outmoded 
hardware and software was not built to handle the extraordinary 
demands being placed upon it.
    Despite the many improvements that we did make, we were 
still relying on a presumption that no FBI record existed, if a 
FBI response was not received within 60 days. That presumption 
masked other weaknesses in the handling of fingerprints, which 
are now apparent.
    We solved a set of chronic problems that had plagued the 
naturalization system by accepting applications by mail, by 
centralizing the handling of fingerprints cards, by increasing 
automated support, and by developing a certification program 
for fingerprint takers.
    In retrospect, however, it is clear that the core weakness 
was the 60 day fingerprint policy. I regret that we did not 
address it earlier. We have now changed our policy and 
practice, and can prevent such errors from occurring in the 
future.
    It is important, very important, that Congress and the 
American people have confidence in the integrity of the 
naturalization process. The number of applicants continues to 
increase. We expect 1.8 million this year, 50 percent greater 
than last year.
    The mistakes that INS made resulted from relying on 
outmoded practices to meet urgent and overwhelming demands. We 
have corrected those mistakes, and have put into place a series 
of new measures to prevent them in the future.
    I have always been committed to an immigration policy that 
makes the most long-term sense, not one that serves temporary 
expedience. In that vein, I look forward to implementing the 
improvements that will further strengthen naturalization.
    Thank you for the opportunity to appear before you today. I 
am pleased to answer your questions.
    [The prepared statement of Ms. Meissner follows:]
    [GRAPHIC] [TIFF OMITTED] T1887.043
    
    [GRAPHIC] [TIFF OMITTED] T1887.044
    
    [GRAPHIC] [TIFF OMITTED] T1887.045
    
    [GRAPHIC] [TIFF OMITTED] T1887.046
    
    [GRAPHIC] [TIFF OMITTED] T1887.047
    
    [GRAPHIC] [TIFF OMITTED] T1887.048
    
    [GRAPHIC] [TIFF OMITTED] T1887.049
    
    [GRAPHIC] [TIFF OMITTED] T1887.050
    
    [GRAPHIC] [TIFF OMITTED] T1887.051
    
    [GRAPHIC] [TIFF OMITTED] T1887.052
    
    [GRAPHIC] [TIFF OMITTED] T1887.053
    
    Mr. Smith [presiding]. Thank you, Commissioner Meissner.
    Let me announce to the members of the panel that it is my 
understanding that there has been agreement for either side to 
take their 30 minutes at this time. The majority will start off 
with its 30 minutes, and then we will yield to the minority for 
its 30 minutes. I will begin the questioning and then yield to 
others in just a minute.
    Commissioner Meissner, in a letter to Senator Al Simpson in 
October 1996, you said, ``Preliminary indications are that only 
a few dozen individuals out of the more than 1.3 million 
naturalization applicants processed this year have been wrongly 
naturalized.''
    Then last September, Alex Aleinikoff, who was the Deputy 
Associate Commissioner for Programs at INS, appeared on 
National Public Radio. He said in reference to the wrongful 
naturalization of criminal aliens that ``We discovered perhaps 
40 or 50 cases nationwide out of 1.2 million cases that we will 
adjudicate this year.''
    Last September, Louis Crocetti, who is here, said that the 
number was 60 for the entire naturalization program.
    Now we already know today that out of a sample of about 
2,000, we have a couple hundred that were wrongly naturalized. 
If you go to 250,000, you are going to end up with many times 
that amount. So the question is no longer whether the figures 
were correct, but they were clearly wrong.
    It seems to me, and would you not agree, that this is a 
clear case of Congress being misled on the basis of those 
numbers?
    Ms. Meissner. I would not agree to that. The numbers that 
you were given in testimony in the fall were based on a survey 
of our field offices in which we queried how many cases they 
knew about at that time. They were not based on the audit which 
is presently before you.
    Mr. Smith. I understand that, and I am not suggesting that 
you knew the exact numbers. I do not know that we will ever 
know the exact numbers. We will have a better feel come May. 
But you did know about the earlier IG investigation in 1994. 
You did know about the GAO report in 1994. You knew that the 
fingerprint problem was likely to be serious, because of 
advance notice.
    You knew that you were dealing with, as you testified 
repeatedly, huge numbers of individuals, three to four times 
the number of individuals ever processed before.
    It seems to me that at the very minimum that you had 
constructive knowledge of the problem, but you did not have 
actual knowledge. If that is the case, there was either 
deception or there was negligence. I do not know, and I will 
let you establish that.
    Either is inexcusable, but it had to be one or the other 
for you not to have known the extent of the problem, and not to 
have known that there were sizable numbers of individuals who 
were being naturalized. You are welcome to respond, if you want 
to.
    Ms. Meissner. I will respond. We were in good faith 
testifying on what was clearly incomplete information. There 
was no effort to willfully mislead or to misrepresent. What we 
have now is an audit, which is a total survey of the activity 
for that year. The testimony that was given in the fall was 
based, as I said, on a series of queries to field offices as to 
the cases that they had before them at that time. They are 
apples and oranges.
    Mr. Smith. Let me go on to my next question. I will go back 
to the words that you just used, that there was no effort to 
intentionally mislead or willfully mislead. I will take you at 
your word, but that still leaves open the whole question of 
negligence and mismanagement, which has to be there for the 
problem to occur.
    Problems just do not occur by themselves. Somebody is 
ultimately responsible. In this case, you were the head of the 
organization that was overseeing this process.
    Let me read some more quotes to you, this one from some e-
mails that your employees were sending each other in 1996. ``I 
do not think 30 days is enough time to give up on a file. I 
suggest that we keep the current 6 months, or we will be 
naturalizing axe murderers and Nazi war criminals.''
    There is another e-mail, ``It does not take a pessimist to 
realize that one of these days, probably in the near future, 
the Eastern region of the INS is going to naturalize an axe 
murderer, child rapist, or a person with an outstanding Federal 
warrant,'' and so forth.
    Another one, ``Some folks have been naturalized already, at 
least one rapist and one murderer so far,'' and so on.
    It seems to me that there was widespread knowledge within 
the INS that Citizenship USA was not working, and something 
terrible had gone wrong. I know that you have said in the past 
that you were not aware of this. But it seems to me that you 
knew the potential for the naturalizing of criminals. 
Certainly, if your staff did, or your district directors did, 
if the members were there, it seems to me that you had 
constructive knowledge of what was going on.
    You are welcome to respond.
    Ms. Meissner. We have been aware of the possibility that a 
system that operated on the presumption, on the 60-day 
presumption, as has been explained, has potential weaknesses. 
But we have taken a whole series of steps that were suggested 
both in the GAO and in the IG report to address that, and there 
is a full record of them.
    For instance, when we asked for the reprogramming of the 
funds that staff Citizenship USA, half of those people were 
clerical staff. That had never been done before by the 
Immigration Service. That was for the purpose of timely 
submission of having the staff that was required to make timely 
submissions of fingerprints, and to handle the rejected cases. 
We set up a fingerprint contact person in every district 
office.
    Mr. Smith. I am not talking about the improvements that you 
made after the problem came out. You just used the phrase, and 
excuse me for interrupting you, that there were potential 
weaknesses. These weaknesses were not potential. They were 
structural, and they were ongoing. We can go into all of the 
details that you want to go into about the mishandling of the 
fingerprints.
    But these were not potential. Potential refers to something 
that might occur in the future.
    These weaknesses were present within the organization 
during the years in question, were they not?
    Ms. Meissner. They are systemic weaknesses, to which we 
were applying a variety of solutions. What I am saying, and it 
is terribly important, is that the issue was being addressed. 
The responses to the weakness clearly have not been sufficient. 
But it was not a question of inattention or inattentiveness to 
a problem. The solutions were simply not up to the problem.
    Mr. Smith. There is no question in my judgment, and I think 
the judgment of most objective observers, that the fingerprint 
process used by the INS was an unmitigated disaster. You had 
113,000 people who were naturalized, whose fingerprint cards 
were rejected by the FBI. You had another 66,000 who were 
naturalized without any record of any FBI check. You had 71,000 
naturalized that had some form of an arrest record. And then 
finally, you had an unknown number of aliens who had no 
criminal history, but may have submitted to fingerprints of 
another person. That is 750,000 people.
    There is a glaring omission here. No one will take the 
blame. Top staff, and that includes you, say that they were 
shocked by the extent of the problem. Yet the very people who 
were shocked were in fact in charge of the program.
    You have said, Commissioner, that the chief mistake that 
you made was to, ``Apply outmoded practices to urgent and 
overwhelming demands.'' But those are the same outmoded 
practices that were criticized by the IG in 1994, and 
criticized by the GAO in 1994. It was a mistake to continue to 
apply what you had to be on notice were bad practices that were 
going to result in the mistakes that occurred.
    Someone had to make a conscious decision not to fix the 
problem before Citizenship USA was implemented, but no one is 
taking responsibility for that decision despite the year 
advance notice of the problems.
    Do you not think that you should have taken some steps 
after the GAO report of 1994 to fix the problem before you 
undertook a massive program to naturalize three and four times 
the number that were studied under the GAO report?
    Ms. Meissner. Mr. Chairman, let me begin my answer by 
saying that I absolutely take responsibility for this issue and 
for the problems that occurred under the issue. I have been 
very clear in this testimony, with this subcommittee, and with 
the subcommittee that you chair, and I have been clear with the 
appropriators.
    We recognize that there were weaknesses here. We recognize 
that we were balancing a historic increase in applications and 
a need to be responsive with a system that required reforms. We 
put a whole set of reforms into place that dealt with both the 
fingerprint issues and other deficiencies in handling these 
applications.
    As a response to the 1994 OIG report, we created the 
designated fingerprint capability around the country. We have 
trained thousands of people around the country to take 
fingerprints properly. That was actually the focus of that 
report, to be sure that the fingerprints themselves were 
reliable, and could be read, so that it reduced the numbers of 
unclassifiables. We set up a fingerprint clearing center.
    Mr. Smith. Ms. Meissner, let me interrupt you, because you 
have more than answered at least part of my question. I am very 
much aware of all of the improvements that you have made after 
the fact, but I was glad to hear you say earlier that you did 
accept responsibility.
    Is there any excuse for not having implemented the 
recommendations of the GAO report in 1994 that you said that 
you were going to implement?
    Ms. Meissner. I am not attempting to make excuses. I am 
saying that we took a series of steps which we believed were 
responsive. Under the crush of the workload that we have been 
dealing with, they have not been adequate to the task. But they 
were an effort to deal with what was recognized as a weakness.
    Mr. Smith. Thank you, Commissioner Meissner.
    Mr. Martin, let me address my next series of questions to 
you, and this is in regard to the denaturalization process.
    Congress gave the INS the authority in 1990 to denaturalize 
citizens through an expedited administrative process, rather 
than going through the courts. It took the INS 6 years until 
last October to issue the rules on the administrative 
denaturalization process. I assume that the regulations were 
finally issued when the INS knew how many individuals were 
being wrongly naturalized under Citizenship USA.
    Ever since concerns have surfaced over Citizenship USA and 
the INS, you have assured us, and Commissioner Meissner did 
twice in her testimony, that the criminals wrongly naturalized 
will be denaturalized.
    Deputy Commissioner Chris Sale issued a memorandum in 
December 1996. This, of course, is immediately after the 
election stating that the administrative denaturalization 
proceeding ``should be initiated immediately in all cases where 
there is clear evidence of a disqualifying criminal 
conviction.''
    A couple of preliminary questions here.
    One, when you move to denaturalize those individuals who 
should not have been naturalized, are you going to move against 
these individuals who not only committed some of the more 
serious felonies, but also the individuals who are ineligible 
because of not having good moral character?
    Mr. Martin. The process is under way, and it addresses the 
full range of issues. The initial focus, of course, has been 
those cases where there is a clearly disqualifying criminal 
conviction, but we have not ruled out any of the other ones.
    Mr. Smith. So you intend to denaturalize both individuals 
who had disqualifying crimes, as well as those individuals who 
are not eligible because of not having good moral character, is 
that right?
    Mr. Martin. If it meets the standards, and we can prove it 
according to the standards, and the regulations, and the 
Supreme Court decisions.
    Mr. Smith. You say you have begun the process.
    How many people have you moved to denaturalize as of right 
now?
    Mr. Martin. As of right now, there are 36 people who have 
been served with notices of intent to revoke that we are 
pursuing on through. There are another 75 that are in the 
counsel review process.
    Let me just point out that it is separate from the Nebraska 
review process, the process that Mr. Colgate spoke about. When 
that is at a point with the final review by Peat Marwick and 
others, there will certainly be others coming out of that.
    Mr. Smith. Is it the intention of the INS to denaturalize 
every single individual who is found to be ineligible, and who 
is wrongly given citizenship?
    Mr. Martin. Yes. If they were ineligible, it is our 
intention to proceed with those proceedings.
    Mr. Smith. Now there is a 2-year statute of limitations in 
place, as we speak. You are aware of that. So no individual is 
going to escape being denaturalized, because of the INS missing 
that 2 year statute of limitations, is that right?
    Mr. Martin. Well, let me be clear. There are two separate 
processes that are available for denaturalization. The 2 year 
period applies to the administrative process and under 
regulations, that took effect in October. We are moving ahead 
in a serious way with that review.
    After that period of time, there is not a broad statute of 
limitations on denaturalization. It can be pursued in a 
judicial posture.
    Mr. Smith. Let us make it clear that if you do not adhere 
to that 2 year statute of limitations and go through the 
administrative process, and instead go through the judicial 
process, the likelihood of success is going to decrease, and 
the time involved is going to increase.
    Of course, even with the administrative procedures that are 
subject to the 2 year statute of limitations, you have got 
three layers of appeal. This is not going to be an easy 
process.
    Now I am not going to ask you to speculate as to what 
fraction of the individuals that you moved to denaturalize will 
actually be denaturalized, but I think that it should be clear 
for everybody that this is a long, tedious process. It will be 
a pleasant surprise to those of us who are concerned, if in 
fact the INS is successful in denaturalizing even a majority of 
those individuals who should be denaturalized.
    But I take it from your response today that one, you are 
aware of the statute of limitations and you are not going to 
miss it; two, you are moving against everybody who was 
ineligible to become a citizen.
    That is correct, is it not?
    Mr. Martin. There is a judgment process in reviewing each 
of the cases as to whether they meet the criteria. But we are 
moving ahead with a serious review process on every one of 
those. The 2-year period, of course, applies to the time when 
the notice of intent is served. So if the appeal process goes 
any longer, it is not a problem.
    Mr. Smith. I thought you said awhile ago that anyone who is 
ineligible to become a citizen, that you were going to move 
against them, and attempt to denaturalize.
    Is that a fair statement?
    Mr. Martin. Yes.
    Mr. Smith. Thank you, Mr. Martin.
    I am going to yield now to the gentleman from Arizona, Mr. 
Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Mr. Crocetti, I would like to begin with you.
    How long have you been with the INS?
    Mr. Crocetti. Nearly 22 years.
    Mr. Shadegg. So this is a career for you?
    Mr. Crocetti. Yes, it is.
    Mr. Shadegg. Are you in charge of the citizenship program, 
this is your overall responsibility?
    Mr. Crocetti. That is one of my programs, yes.
    Mr. Shadegg. Are you the head of the program within the 
INS?
    Mr. Crocetti. The Citizenship USA program itself, David 
Rosenberg is the Director of Citizenship USA.
    Mr. Shadegg. Is he working for you, or are you working for 
him?
    Mr. Crocetti. Initially, he had been contracted by me to be 
the Citizenship USA coordinator.
    Mr. Shadegg. So in that circumstance, he would be working 
for you, right?
    Mr. Crocetti. Yes.
    Mr. Shadegg. Was he your selection?
    Mr. Crocetti. Yes. I decided to contract him. He had 
already been contracted by another program, and I extended that 
contract for Citizenship USA.
    Mr. Shadegg. Did you continue to feel that you were running 
the Citizenship USA program throughout this time period?
    Mr. Crocetti. It was not my primary responsibility to 
direct that particular initiative. But being related to 
naturalization, which is one of the branches that I am 
responsible for, it would ultimately fall within my area of 
responsibility.
    Mr. Shadegg. Do you feel that you were able to control the 
program?
    Mr. Crocetti. Control?
    Mr. Shadegg. Yes. In other words, were you able to make 
sure that the things you wanted to get done within the program 
or the way it ran was the way that you thought it should run?
    Mr. Crocetti. That is not really how we do business.
    Mr. Shadegg. OK. Who was responsible for running the 
program?
    Mr. Crocetti. David was the Director of the Citizenship USA 
program. We had another branch chief responsible for the 
naturalization program. Now, that person is Terry O'Reilly. 
Terry reports directly to me.
    Mr. Shadegg. When you testified before this committee 
before, you indicated, or in fact you stated directly in 
response to a question by me, that you had maintained, that the 
INS had maintained the integrity of the naturalization process 
through all of the Citizenship USA.
    At that time, I believe you testified also, or Mr. 
Rosenberg testified, that there had been a grand total of 
perhaps 60 people, who had gone through and become citizens, 
but who probably were not eligible.
    Mr. Crocetti. Yes.
    Mr. Shadegg. At the same time, Mr. Rosenberg also testified 
that he felt that they had not only maintained the integrity of 
the process, but improved it.
    We have now seen rather dramatic numbers that indicate that 
a lot more than 60 people became citizens without complying 
with the law, correct?
    Mr. Crocetti. Yes. If I could address each of those issues.
    Mr. Shadegg. Sure.
    Mr. Crocetti. Primarily, the number 60 was reported by me. 
As the Commissioner pointed out, at that particular time, we 
were canvasing the field as to the number of cases where they 
received a late fingerprint record, where there was a criminal 
record that resulted in disqualification, and that perhaps 
would warrant revocation proceedings.
    At that particular time, the number that had been reported 
halfway through the review of the cases was in the 25 area. So 
being halfway through, I reported that it should not be any 
more than 60.
    But those numbers are separate and apart from the numbers 
that we are talking about today, that is a direct result of an 
extensive search of the FBI's criminal data bases, and a review 
taking place of the Citizenship USA program by our people, and 
KPMG Peat Marwick.
    Mr. Shadegg. So you are saying that your projection at that 
time that looked like it may have been 60 people who were 
granted citizenship that probably should not have been----
    Mr. Crocetti. At that time.
    Mr. Shadegg. At that time, that was accurate?
    Mr. Crocetti. Yes.
    Mr. Shadegg. I presume that is the basis upon which you 
said you maintained, and Mr. Rosenberg said, that you had 
improved the integrity of the process.
    My question of you now is this, we have seen that 
dramatically more people than that obtain citizenship either 
having found a criminal record where they should not have been 
naturalized or, and there is a much larger category of these, 
where no criminal background check was ever performed.
    You would agree with me, would you not, that suggests that 
at least with regard to that issue that the integrity of the 
system broke down?
    Mr. Crocetti. It certainly raises the issue as to whether 
we did weaken the integrity. But I do believe, even though I 
cannot recall making the statement, I do believe that at that 
time that we truly thought that the current fingerprint process 
would have worked.
    Because traditionally, the reason why it did not work is 
because the staff was overwhelmed with the volume, and they did 
not have the staff to do the processing. Even in the OIG 
report, you will take note that not every office was able to 
perform their fingerprint responsibilities.
    In some respects, it was not only resource related, but it 
was performance related. We felt that by proceeding in a 
progressive way, where we would increase the resources and 
improve the process, particularly as it relates to progressive 
automation, that we would in fact be able to sustain that 
workload without sacrificing any integrity.
    Mr. Shadegg. I understand that at the time you gave that 
testimony, you thought that you were going to be able to 
maintain the program integrity, and indeed you thought that you 
had maintained the integrity of the program, right?
    Mr. Crocetti. Absolutely.
    Mr. Shadegg. Now it appears that at least with regard to 
the fact that many people came through the system without 
having had any criminal background check performed at all, the 
integrity of the system was not maintained?
    Mr. Crocetti. That is more true than false, but let us keep 
the numbers in focus and a lot of numbers have been shared 
here. They are either not being interpreted properly, or they 
are being exaggerated.
    We are talking about a number of 66,000 that we have not 
been able to locate a record. When it gets down to percentages, 
less than 5 percent of the people who had applied and had been 
naturalized may not have had the record check and that is 
likely to be even less. Because when the FBI receives the 
fingerprint cards, if they reject it at the front end of the 
process, they do not even key it into the system.
    We also found out that we located thousands of cases that 
initially were not in their initial tracking system. Because if 
you do not have a FBI identifier number, you will not locate 
the case easily. So then you have to do name checks and with 
foreign names, you can imagine how you have to manipulate the 
data bases in a variety of ways.
    So what I am saying is, the number that truly needs to be 
focused on is the 66,000 and then you cannot even say that the 
fingerprint cards were not submitted. But you can say that we 
have not been able to find a record that establishes that they 
have been submitted and completed.
    Mr. Shadegg. Well, I think it is not a productive use of 
our time here today to debate the numbers, because the numbers 
are complete. What I am trying to get at is the process, and 
whether or not we maintain the integrity of the process.
    I would submit that given the numbers that we have seen so 
far, that we do not maintain the integrity of the process. I 
guess that is where my questioning of you went.
    I want to ask you some questions about your own e-mails. 
There were e-mails that went back and forth that we now have 
copies of, which raise this issue beginning in November 1995 
where you sent e-mails indicating your concern with the 
process.
    Then by July 1996, you sent an e-mail to Mr. Mike Aytes 
saying, ``What in the world is going on here? This is a time 
bomb.''
    Do you have a copy of that e-mail?
    Mr. Crocetti. I am familiar with it.
    Mr. Shadegg. You are familiar with it. OK.
    What was Mr. Aytes' response, and are you satisfied with 
the way that issue was handled to this point in time? You said 
that it is a time bomb.
    Mr. Crocetti. As you can see, there are a series of e-
mails. Without discussing the followup e-mails, particularly 
how I responded immediately to every one that I was copied on, 
what we found almost without exception is that for each e-mail 
the emotion was triggered for a specific reason.
    For example, the axe murderers, I believe that was 
triggered as a result of one of our contractors in a service 
center during the initial transition inappropriately was 
routing fingerprint cards.
    The e-mail that was triggered that I reacted to, that this 
is a time bomb, actually proved not to be directly related to 
the fingerprint process, but rather the biographical 
information and other agency check process, for which we 
determined that was not the problem that particular staffer 
thought there was, and he later acknowledged that.
    Mr. Shadegg. So you really do not have a problem with your 
earlier testimony, you do not think that the integrity of the 
process was compromised, and you think that these e-mails were 
over-reactions?
    Mr. Crocetti. No. I think that the fingerprint process, as 
pointed out by the IG, had deficiencies that needed to be 
addressed. As I stated a few minutes ago, the combination of 
resources and progressive improvements, and pointing out to the 
field and educating them as to what they need to do, and then 
having them do it, and giving them the tools to do it, would 
have fixed that process.
    What we later found is that still was not happening and 
then as the workload started increasing and the processes 
started to come down, we started to see a conflict. They 
started to overlap, which is why we started to see some late 
hits. We then took immediate action.
    Mr. Shadegg. Were you in on the decision to reduce the 
amount of time that would be allowed for the fingerprint check 
to come back, was that your decision?
    Mr. Crocetti. To reduce?
    Mr. Shadegg. Right.
    Mr. Crocetti. Increase.
    Mr. Shadegg. No, reduce the time. There came a point in 
time when you reduced--Commissioner Meissner, is that correct--
from 60 days to 30 days the amount of time?
    Ms. Meissner. No, absolutely not. Absolutely not. The rule 
since 1982 based on the FBI's own standard for their processing 
time, the processing time that they required, the rule since 
1982, which we simply continued, was the 60 day rule. That is 
to say that the fingerprints would be at the FBI for 60 days, 
and we would hold the file for 60 days. If we did not hear, we 
would proceed.
    When we began last summer to receive some late reports from 
the FBI, post-60 day reports, we changed the rule to 120 days 
in September. In other words, we doubled the amount of time 
that we waited.
    Mr. Shadegg. No files were processed and no one was granted 
citizenship after a 30 day waiting period?
    Ms. Meissner. The 60 days has been the rule. We hold the 
file.
    Mr. Shadegg. I understand that 60 days has been the rule, 
but that is not a response to my question. You are saying that 
no one was naturalized and no one was granted citizenship after 
waiting less than 60 days?
    Ms. Meissner. Not to my knowledge.
    Mr. Shadegg. It is my understanding that was a policy 
decision that was in fact made. I would like to know if Mr. 
Crocetti was in on that process.
    Ms. Meissner. If that occurred, it was against 
instructions. The policy was 60 days until it was doubled to 
120 days in September.
    Mr. Shadegg. Mr. Crocetti, do you know if that ever 
occurred, people being naturalized without allowing 60 days for 
the file to come back?
    Mr. Crocetti. No, I do not. I officially became the 
Associate Commissioner 2 years ago February 1995. So I was not 
aware of prior policies.
    Mr. Shadegg. This would have been since then.
    My time is expired. Thank you very much, Mr. Chairman.
    Mr. Hastert [presiding]. Thank you, Mr. Shadegg.
    I would like to recognize Mr. LaTourette.
    Mr. LaTourette. Thank you very much, Mr. Chairman.
    Mr. Crocetti, if I may, I would like to followup where Mr. 
Shadegg started. He asked you a series of questions about your 
contract with Mr. Rosenberg, and who worked for who. I would 
like to reference a second series of e-mails that have come to 
our attention. One on March 19, 1996, and a second one that 
occurred on June 12, 1996.
    The first one just begins, apparently it was sent by you to 
Alex, ``Alex, why is David still out of town? I never seem to 
know where he is, why, or what he is doing. Despite my ongoing 
efforts, you seem to know much more about David than I or 
anyone else does, so I thought I would ask.'' It goes on for 
two more paragraphs in the same vein.
    The second e-mail apparently talks about Mr. Rosenberg and 
the trip or trips to Capitol Hill that apparently also were 
made without you being informed ahead of time that it was going 
on.
    In both, you get the sense that Mr. Rosenberg through his 
contract with you, and then later members of the Vice 
President's staff, begin traveling all around the country to 
the five targeted cities with the largest backlogs. Apparently, 
that caused some complaints or concerns.
    Is it a fair observation that you received communications 
from the directors of those offices in some of those five 
cities that were being visited by Mr. Rosenberg, Mr. 
Farbrother, and other members of the Vice President's staff 
relative to the Citizenship USA project, is that a fair 
observation that you would hear from your folks in the field?
    Mr. Crocetti. Yes.
    Mr. LaTourette. As I understand it, and I do not want to do 
any more than there needs to be done, but it appears to me, at 
least as I reviewed the materials, to have been some tension 
between the Citizenship USA Director, the contractor, Mr. 
Rosenberg, members of the Vice President's office, who were 
anxious to apparently have 1.3 million people registered by 
election day, and you, and the Commissioner who wanted to 
follow the rules.
    Is that a fair reading of where we were maybe in 1995 and 
1996?
    Mr. Crocetti. That is fair. I addressed this issue, at 
least the first e-mail, at the last hearing. That was an 
emotional reaction of frustration. One who knows me knows that 
I am a hands-on manager. It was difficult for me not to know 
what was going on in some of my programs that I am responsible 
for.
    Mr. LaTourette. At the last hearing to go on, because you 
take pride in what you are doing, and you have been with the 
agency for 22 years, you made the observation at the last 
hearing that the Citizenship USA efforts are nonpartisan and 
absolutely not politically motivated.
    I am certain from listening to you this morning, and I have 
had a chance to see Commissioner Meissner testify before the 
Appropriations Committee yesterday, and was impressed by that 
testimony, it does not leave much doubt in my mind that that 
was the feeling of the career officials in INS.
    I guess that I am more concerned about the political 
appointees, who may have come to INS during 1994, and 1995, and 
1996. Let me ask you this in that line of questioning.
    Who are the political appointees at INS in high level 
positions today, are you aware of any?
    Ms. Meissner. I think perhaps I can be more helpful with 
that.
    Mr. LaTourette. That would be great.
    Ms. Meissner. I am obviously a political appointee.
    Mr. LaTourette. I knew you were.
    Ms. Meissner. The Deputy Commissioner is not. The Deputy 
Commissioner is a career Government employee. We have a number 
of political appointees. One is our director of congressional 
relations and another is the general counsel. Another is the 
Deputy Associate Commissioner for policy. There are a couple of 
special assistants.
    Mr. Rosenberg is not a political appointee.
    Mr. LaTourette. He is a contractor.
    Ms. Meissner. Mr. Rosenberg is a contract appointee.
    I want to be clear on this point of tension. The extent to 
which there was tension, it was between us as the INS 
leadership group involved in Citizenship USA and NPR. It was 
not NPR, Mr. Rosenberg, and the rest of the staff at the INS. I 
thought that there was maybe a little suggestion of that.
    Mr. LaTourette. I understand and I appreciate that. I am 
glad that you brought that up. I do not like to attribute 
things to people, unless they want to have them attributed. One 
of the correspondence that we received, let me just flip to it, 
so I have the quote directly.
    In one of the e-mails that has been circulated and 
discussed, there is an observation, and apparently this was 
coming from the NPR office, the Vice President's staff, ``INS 
Commissioner Doris Meissner warns that if we are too aggressive 
at removing the road blocks to success, that we might be 
publicly criticized for running a pro-Democrat voter mill, and 
even risk having Congress stop us.''
    Was there such tension and pressures being put upon you as 
the Commissioner of the INS that led you--first of all, did you 
voice that concern in those words, to your recollection?
    Ms. Meissner. As I testified yesterday, if you heard the 
testimony, we were certainly open to suggestions for ways to 
improve our work processes. We were absolutely not prepared and 
would not have in any way compromised the overall standards of 
the program. The impulses for the program are right there on 
those charts. They are applications that came to us, and an 
effort to do our work effectively.
    I constantly expressed those goals and those objectives, 
and did not see this as a program that was political, or should 
be viewed through a political prism.
    Mr. LaTourette. I heard you say that yesterday, and I 
appreciate you saying it again today.
    But my question is, did you as the Commissioner and did 
you, Mr. Crocetti, in your position, resist suggestions from 
NPR or other officials within the administration that perhaps 
you should do other than what you just described?
    Ms. Meissner. We did, we did.
    Mr. LaTourette. There was an observation that at one point 
there was a request made that perhaps it would be a good idea 
if the President of the United States could send an 
individually addressed letter to each new citizen. I understand 
that was something that was explored and was rejected.
    Would that be an example of that type of observation or 
request that was made of you that you rejected in an attempt to 
maintain the integrity of the naturalization process?
    Ms. Meissner. Presidents have traditionally, of both 
parties, sent letters to new citizens. It always says, ``Dear 
New Citizen.'' But there is a particular format that is used 
and a particular method. We simply insisted that that be done 
in the way that it has always been done.
    Mr. LaTourette. My understanding of the way that it has 
always been done is that at the ceremony they had handed out a 
``Dear New Citizen'' letter.
    Ms. Meissner. That is right.
    Mr. LaTourette. The request that was made by someone in the 
administration for a list with addresses, so a letter that does 
not say, ``Dear Citizen,'' but ``Dear Mr. Smith'' would arrive 
at Mr. Smith's house sometime after the naturalization 
ceremony.
    Would that be an example of the requests that were made of 
your department by the administration that you rejected, 
because it did not comport with the smooth running or the 
proper running of the naturalization process?
    Ms. Meissner. We maintained the practice as it had been 
used before. Sometimes one needs to educate people about what 
those practices are, and that is what we did.
    Mr. LaTourette. Thank you, Commissioner.
    Mr. Crocetti, if I go back to you for just a moment. The 
Commissioner was kind enough to tick off the positions of those 
who are political appointees within the INS.
    Based upon your 22 years with INS, is that the traditional 
level, the traditional number of appointees, who have been in 
INS, or that smaller or larger than you experienced with 
previous administrations?
    Ms. Meissner. It is actually smaller. Having been with INS 
before, in the 1980's, I was particularly cognizant of the 
issue of political appointees. I made it one of my objectives 
to reduce the number of political appointees in the Immigration 
Service, and have done so.
    Mr. LaTourette. Mr. Crocetti, back to you, and back to the 
e-mails that I began my questioning with. Obviously, there was 
some concern, at last based on your written communications, of 
your notification of Mr. Rosenberg's activities, and then later 
what the NPR staff, Mr. Farbrother and others were doing in 
other parts of the country.
    When there were policy meetings concerning Citizenship USA, 
and I note from the materials that there were apparently a 
number of those ongoing during the course of the year, were you 
included in those, and were you able to participate in those 
policy strategy sessions, or were those conducted by Mr. 
Rosenberg, Mr. Farbrother, and people from NPR, who were 
interested in reinventing government in the naturalization 
process?
    Mr. Crocetti. I had absolutely no contact with the NPR 
people. In fact, the names mentioned, I would not even 
recognize them if they walked in the door. So I did not attend 
any of those meetings.
    Mr. LaTourette. Let me interrupt you, since my yellow light 
is on. There are a ton of documents here that indicate that NPR 
was going around the country specifically talking about 
Citizenship USA.
    Are you telling us based on your position at INS that you 
never met these folks, or had any contact with them at all, and 
did not know why it was that they were meddling in your 
program?
    Mr. Crocetti. Well, there is a two part question there.
    Mr. LaTourette. It is about a three-parter actually.
    Mr. Crocetti. The first part, no. The second one with 
regard to meddling, it was always my understanding that it was 
part of a National Performance Review Project. We have over a 
dozen different NPR projects going on. I have several NPR 
projects within my own inspection program as well. So at times, 
I was aware of certain visits, and some of the meetings, but I 
was not privy to it.
    Ms. Meissner. Let me help here. The NPR contact was first 
made with me, I believe. I asked the NPR staff to work with 
David Rosenberg and with Chris Sale, my Deputy. Those were the 
main contact points within INS.
    Mr. LaTourette. If I could beg the Chair's indulgence just 
to followup on that.
    Mr. Hastert. Yes, one more question.
    Mr. LaTourette. Somewhere in the e-mails and materials from 
Mr. Farbrother, who is an NPR individual, there was a 
suggestion made I think to the NPR headquarters that he replace 
your Deputy, because of dissatisfaction with her performance, 
Chris Sale.
    Were you aware of that?
    Ms. Meissner. I was not aware of that.
    Mr. LaTourette. Thank you for your indulgence, Mr. 
Chairman.
    Mr. Hastert. Thank you, Mr. LaTourette.
    Let me say to the members of the subcommittees, as well as 
to the witnesses, that a series of votes have been called. So 
we are going to recess until about 2, after which Mr. Barrett 
of Wisconsin will be recognized for 30 minutes. So we will 
stand in recess for a little less than an hour, and look 
forward to resuming the questions at 2.
    [Recess.]
    Mr. Smith. The subcommittees will reconvene.
    Without objection, I am going to insert into the record an 
editorial from today's Washington Post entitled ``Burned 
Again.''
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T1887.054
    
    Mr. Smith. With that, I am going to yield 30 minutes to the 
gentleman from Wisconsin, Mr. Barrett.
    For the record, I would like to say that I am willing to 
bet that after Mr. Barrett begins, it is very likely that the 
gentleman from North Carolina, Mr. Watt, will speak. I will 
predict that the likelihood will ripen into a fact. With that, 
I will yield to Mr. Barrett.
    Mr. Barrett. Thank you, Mr. Chairman. We appreciate you 
holding these hearings today.
    Commissioner Meissner, and others here, I want to welcome 
you all. Particularly Commissioner Meissner, because you have 
ties to the State of Wisconsin. The Meissner family is 
certainly known for its public service both in Wisconsin and 
here in Washington, DC. So it is nice to have you and the other 
panelists before us.
    What I would like to do in maybe my 10 minutes is sort of 
reconstruct some of the problems that have been in existence in 
INS over the last decade and a half. The reason for me to do 
this is I find this in many ways to be an ironic hearing.
    We have a situation here where there is a government 
service, and the government service has not been provided on a 
timely basis. If one were to blindfold the people in this room 
or look at the political rhetoric, I think you would hear 
members from the majority party, the Republican Party, crying 
about the inefficiency of government, and how people should not 
have to wait to be served, and that we should be moving this 
process along quicker.
    Clearly, that is exactly what Citizenship USA is all about 
or was all about.
    At the same time, I think all of us, and we have heard many 
Members here today, talk about the unacceptability of having 
anyone slip through the cracks in this program. Citizenship is 
one of the most coveted gifts that we have in this Nation and 
for people to receive this gift when they do not deserve it is 
simply wrong, and is something that we should make sure does 
not happen again.
    But what I would like to do, and maybe, Commissioner 
Meissner, you can help me, as I started learning about this 
process, and in particular learning about the role of sending 
information over to the FBI, the fingerprints, I was frankly 
somewhat surprised to learn that there was a policy that dated 
back to 1982, and it was instituted as I understand by the FBI, 
that in essence said that if you do not here from us, 
everything is OK.
    Can you tell us about that policy, when it started, and why 
it started?
    Ms. Meissner. Mr. Congressman, thank you for your kind 
remarks first of all. It is nice to see somebody from 
Wisconsin.
    The 1982 policy on fingerprints is, as we have testified, a 
policy that was established at that time in conversation with 
the FBI. It is an INS policy. It was based on what we called 
the FBI standard, which is the FBI is able to and has been able 
to process fingerprints within a 60-day period.
    At that time, as I understand it, again with the heavily 
paper laden processes, the idea of operating on an exception 
only basis was an idea that was based on the confidence that 
each agency had in the FBI's ability to turn these fingerprint 
reports around, and do the search within 60 days.
    The effort, of course, was one of giving us an answer when 
we needed it, but not showering us with paper in the vast 
majority of the cases where there was no information.
    That was, as I understand it, a business practice sort of 
decision that was made at that time and as has been pointed out 
here, it has carried forward ever since.
    Now there have been references made to the GAO report and 
the OIG audit in 1994 that pointed out weaknesses in that 
system. Indeed, not only did those reports do that, we have 
been aware that there are weaknesses in the system. When I used 
the word potential weaknesses, I used it, because if a system 
where you have a 60-day notice period is working fully, then it 
is serving your needs.
    It by and large, I believe, served INS' needs when we had 
backlogs. Because when you have backlogs, and chronically the 
Immigration Service has had backlogs, particularly in this 
category of applications, whether or not the 60 days is met, 
you are holding on to the case for a year, or a year and a 
half, or 2 years before you get to it.
    Even though the 60 days is not met, you are going to get a 
report from the FBI even in the small percentage of cases where 
they might not meet the 60 days. So for us, where it ultimately 
became an actual operational weakness is when we became timely, 
in other words when we were processing applications within 6 
months, which was the goal which we had set for ourselves, 
which had also been our longstanding standard.
    That point arrived during the summer, in July and August. 
Now I want to back up a little bit in time also though to say 
that the 1994 OIG and GAO reports on the inherent weakness in 
the 60-day process was not something that would be ignored.
    We took a series of steps. When Congressman Smith asked me 
about this earlier, I think that he understood me to be 
referring to steps that have been taken since November. That 
was not what I was trying to point out.
    I was trying to point out that since 1994 when those 
reports were given to us, a whole set of improvements had been 
made and were continuing to be made to manage that fingerprint 
process as effectively as possible.
    Those steps included, as I said, a very, very high 
percentage of the hiring of clerical staff. More than half of 
the staff that we hired, and the design that we created for 
Citizenship USA, was done for the purposes of creating the 
administrative support that we needed to handle fingerprints, 
and the other paper that was involved in this process.
    We set up single points of contact in all of the offices 
through which to channel the fingerprint work, so that we were 
certain that it was done on a timely basis.
    We had developed the regulations and the concept for these 
designated fingerprint services, in order to overcome what had 
been established in the OIG report as a weakness, which is no 
good reliability on the fingerprints themselves without the 
proper training for the people who were taking them.
    So we were in the process of not only putting the 
regulation into place, but creating an entirely new mechanism 
for registering and training fingerprint takers.
    Mr. Barrett. Let me interrupt you there, if I could, 
because Congressman Bono had a question about that. I think 
that his concern was that you may have private businesses now 
that are doing this just to sort of paint a picture.
    If I and my brother came here, and I had a record and my 
brother did not have a record, what safeguards are in the 
system now to make sure that I do not use my brother's 
fingerprints?
    Ms. Meissner. The fingerprint takers are all security 
cleared by us. They are all trained. They sign a basic set of 
agreements with the Immigration Service to verify identity when 
they take the fingerprints and there is a considerable 
procedure and set of requirements.
    Mr. Barrett. But they can be taken privately, right?
    Ms. Meissner. Yes.
    Mr. Barrett. Just for my own benefit, what is the going 
rate for having your fingerprints taken? Maybe Mr. Rosenberg 
would know that.
    Ms. Meissner. I do not know the answer to that. We can find 
out.
    Mr. Barrett. I was just curious.
    Ms. Meissner. Ultimately, as I said, early in 1996, we set 
up what we called a fingerprint clearinghouse, a fingerprint 
coordination center, through which all fingerprints from our 
district offices were submitted to the FBI, and then received 
back from the FBI either in the form of the arrest record, or 
in the form of rejected prints that might have to be sent 
again.
    All of these things preceded any of the difficulties that 
have arisen now over the last several months that are apparent 
in this audit. As I say, they were not answers, we can see at 
this point, that were up to the task, but they were an effort 
to improve and make reliable a system that had been in place 
for 15 years as we were doing a series of other major reforms.
    Let me just say that now in terms of going to the 100 
percent policy, we have not only gone to the 100 percent 
policy, but we have a much healthier and more vigorous 
interaction with the FBI on how to transfer this process. In 
other words, we are going to electronic capture of 
fingerprints. We are beginning to pilot those methods of 
scanning and electronic applications and usages this spring, so 
we are not dealing with these people.
    Mr. Barrett. Let me go on, if I can. Because some of my 
colleagues on the other side of the aisle label this a scandal 
or a severe problem. I have the audit report, the U.S. 
Department of Justice, Office of the Inspector General audit 
report, dated February 1989, which was a special audit of the 
Immigration and Naturalization Service.
    In it on page 27, it states, ``In our 1986 audit of the 
adjudication process, we found that in the 349 cases reviewed, 
that 163 disclosed no evidence of the required background 
investigations being conducted. In our current review, we 
examined 51 cases, and found that virtually 100 percent of the 
cases also showed no evidence that background investigations 
and fingerprint checks were conducted. As a result, unfit 
persons may be allowed residency.''
    When you took control of this agency, were you aware of 
these failings in the past?
    Ms. Meissner. Those specific items, I was not aware of. But 
I certainly was aware of the 1994 OIG and GAO reports. It is 
clear in the e-mail traffic and other documents in the agency, 
that we have all been concerned about the fingerprint issue.
    I wish that we could have been more prophetic about it. I 
wish that we had been able to realize that the whole approach, 
the whole premise, for the way in which we were doing 
fingerprints needed to be turned on its head. We were not that 
prophetic. We tried to make improvements to an existing 
process.
    Mr. Barrett. Do you feel confident now that the changes you 
made have been successful?
    Ms. Meissner. I believe that they are the proper changes. I 
believe they will be successful. I think that we heard from the 
earlier panel that both GAO and the Justice Department believe 
that this is the proper concept and the proper premise to use. 
As I said, we will quite quickly now be moving into electronic 
methods for doing that.
    Mr. Barrett. I will yield to Mr. Watt.
    Mr. Watt. Thank you.
    Commissioner Meissner, there have been a substantial number 
of allegations, about politics being involved in this effort to 
get the backlog down. I just wanted to inquire about another 
element of politics that has also been alleged, and see if you 
can tell us what if anything you know about it.
    According to the information that I have been provided, in 
October 1996, you helped to furnish two congressional 
committees with confidential FBI files on about 50,000 of the 
naturalized citizens in response to a congressional subpoena.
    I understand that these files contained sensitive personal 
information, and that you went to great lengths to ensure that 
personal identifying information was redacted before the files 
were released. Of course, I want to commend you for that. You 
have to respond to a subpoena, but there are certain privacy 
rights that you must honor.
    There have been allegations that these files were then 
reviewed by inexperienced interns, and even by Republican 
National Committee staffers. There are allegations that in fact 
what these people were looking for was maybe an immigrant Willy 
Horton for purposes of this past political campaign.
    In the course of the review, it has been alleged that 
sensitive data and information was released to the press in key 
States, key States being ones that were in play politically, 
and the Republicans were making an extra special effort to win 
those States, just before the election when this information 
was released.
    Could you confirm all or any part of what I have just said? 
Because at this point, all I know is the allegations that I 
have read in the newspapers. I do not want to prolong this, if 
those allegations are unsubstantiated. But if there is 
substantiation of it, I think that we need to put that into the 
record, so that we can make it clear that if there was 
politics, that it was not only on one side that was going on.
    Ms. Meissner. We did receive a subpoena, the Director of 
the FBI and I were both subpoenaed, the same subpoena, to 
produce, I believe this was in September, the criminal history 
records of all people naturalized under Citizenship USA, 
criminal records where they existed for people naturalized 
under Citizenship USA.
    Criminal history information, FBI records, are private 
records. They are sensitive, and private records. So that was 
an unprecedented request. Now those records are under the 
responsibility of the Director of the FBI. They are not the 
Immigration Service's records. They are the FBI records.
    So the decision in terms of turning them over and the 
method by which they were turned over, and the ways in which 
the redactions were done, et cetera, were a matter between the 
FBI and the Justice Department.
    That work was done on a very fast time table as a matter of 
fact. The redaction was done for the purposes that you pointed 
out and they then came to the Government Reform Committee.
    Now let me just say, because it is very important, for the 
purposes of this inquiry and for the purposes of the people who 
are involved in this issue, that an FBI rap sheet, or as we 
call it in our audit now an FBI IDENT, or an FBI criminal 
history report, those are all terms that describe the same 
thing, is generally only an arrest record.
    Typically, those arrest records do not include conviction 
or disposition information. The vast majority of them, as I 
understand it, do not include information on the disposition of 
the case. They are difficult to read, and very difficult to 
decipher, because of various codes that are used, et cetera.
    I for the first time saw rap sheets as a result of this 
subpoena in September, and I will confess to you that I cannot 
read one. I cannot make sense out of one.
    It is very important in terms of the statistics that we 
have given you here, and important in terms of understanding 
what we are doing in Lincoln, and in the audit here, because we 
have arrest records. One is not barred from naturalization----
    Mr. Watt. Commissioner, I know that you do not want to 
accuse anybody of doing anything, but I want to find out 
whether there is any basis for that allegation that those rap 
sheets or that information was leaked and accessed by some 
improper persons.
    Ms. Meissner. All I know is that we turned them over to the 
committee, as we were asked to. I saw a picture in the 
Washington Post several days later of a hearing room like this 
is with boxes all over it that presumably was a picture of 
people going through them. The boxes were labeled A through H 
or something. I know that we did not supply them in 
alphabetical form, because that is not the way that they came 
to us. That is all I know.
    Mr. Watt. So you do not know whether they leaked them or 
not?
    Ms. Meissner. No.
    Mr. Watt. I am not trying to get you to say something that 
you do not know.
    Ms. Meissner. That is all I know.
    Mr. Watt. I just want to know whether there was any basis 
for the allegation, as far as you know.
    Ms. Meissner. But again in reading them, whoever might have 
read them, it would have been difficult if not impossible to 
determine who was not qualified to be naturalized as a result 
of reading that rap sheet. One simply would not be able to tell 
that. One would have to go back to the file and talk to the 
applicant.
    Mr. Watt. Let me get to a more germane issue in this 
hearing that I want to be clear on. I am running out of time. 
So I am going to ask Mr. Martin, the legal counsel, if he can 
just give me a quick capsule on this.
    The denaturalization process, apparently we have got 168 
people who are presumed to be in this country illegally now as 
a result of the audit that has already taken place, and the 
possibility that some others could possibly occur, is likely to 
occur, as the chairman says.
    What is the denaturalization process, and how quickly can 
we determine that they are ineligible, and get them back out of 
the country, denaturalized?
    Mr. Martin. Traditionally, the process of denaturalization, 
like the process of naturalization, was judicial. That was 
changed in 1990, and became an administrative process 
primarily, to naturalize, and also open up the possibility of 
administrative revocation. That is the process we are embarked 
on under the regulations that were adopted in October.
    It depends really on the response of the individual. The 
notice under the administrative process, the notice of the 
intent to revoke, goes out by personal service. If the 
individual does not respond within 60 days, or chooses to admit 
during that time, that is deemed an admission, and that can 
become the basis of a revocation. If they choose to contest, 
then other things will happen, and there is an appeal process, 
and judicial review.
    I am glad to have a chance to clarify a little bit, because 
there may have been some misunderstanding in my earlier 
exchange with Mr. Smith. The process overall focuses, our 
process has been focusing on people who are disqualified by 
reason of a felony conviction.
    There are cases like that which are really very clear. I 
cannot imagine why someone would want to contest. We would have 
the conviction records, and it will be clear that they are 
disqualified.
    That comes under the heading, in the way that the statute 
is written, that comes under the heading of good moral 
character. So when I addressed your question earlier, I was 
focusing on those issues. There are a number of other statutory 
provisions having to do with good moral character, and we will 
be looking at each one of those. Others may apply as well.
    But what I want to be clear about is that there are some 
circumstances in which a crime clearly renders one ineligible 
to naturalize. There are other circumstances in which a crime, 
for example, outside of the 5 year required residency period, 
may be taken into account, but is not absolutely disqualifying. 
It is up the examiner to decide.
    We are not in a position to second guess an examiner's 
decision in those circumstances. My answer was addressed to 
those cases of clear ineligibility based on the felony 
conviction that we have documented.
    Mr. Smith. Would the gentleman yield?
    Mr. Watt. I will yield. I feel like I am kind of treading 
on Ms. Lofgren's time, though.
    Mr. Smith. Any time I take will be added to the time of 
that side.
    Mr. Watt. Thank you.
    Mr. Smith. Mr. Martin, I want to followup here, because it 
seems to me that you may be shading some differences. The 
question that I asked you earlier was intended to elicit from 
you the response of whether or not the serious types of 
felonies, or whether or not you had an instance where there may 
be several misdemeanors committed in the last 5 years that 
would fall under the category of an individual having bad moral 
character, that in either case that you were going to attempt 
to denaturalize those individuals.
    Is that the case?
    Mr. Martin. What I want to be clear about is what our 
process is focused on. The Nebraska process is focused so far 
on the felony cases. We are getting information through the 
other process that I mentioned.
    Mr. Smith. There are two categories of individuals who are 
not eligible to become citizens. One are the individuals who 
are disqualified by the nature of the felony. There is another 
gray area of individuals, who are disqualified because of the 
subjective decision made that they do not have good moral 
character. It might be the number of misdemeanors in the last 5 
years, for example, and who therefore are not eligible for 
citizenship.
    Are you going to attempt to denaturalize both categories of 
individuals, or just the hardened criminals, or the individuals 
who are disqualified by the nature of the crime itself?
    Mr. Martin. I have to be precise about this, because the 
actual language of the statute that sets the standards that 
does not break down neatly by felonies and misdemeanors.
    Mr. Smith. The question is are you going beyond just the 
individuals who by the nature of that specific crime is 
disqualified from being a citizen, are you going beyond that?
    Mr. Martin. If your question means that it is a situation 
where the examiner could have, at the time of deciding on 
naturalization, decided negatively, but was not mandated to do 
them.
    Mr. Smith. Correct.
    Mr. Martin. And went ahead and issued a positive decision. 
No, we are not going to go back and look at that, because our 
reading of the statutory and case law standards does not permit 
us to do that.
    Mr. Smith. That should be more important, because the 
number of individuals who are denaturalized, the percentage of 
individuals who are not eligible to become citizens on the 
basis of that serious felony conviction, is a very small 
fraction of the total universe of individuals who are not 
eligible to become citizens.
    You are saying today that the vast majority of individuals 
who are not eligible to become citizens, you are not going to 
try to denaturalize.
    Mr. Martin. No, no. If it was a case of clear 
ineligibility, that is the case that we are going ahead with. 
If it was a case of discretionary judgment, so that the 
examiner at the time of the examination could have found a lack 
of good moral character, but was not required to, that is what 
we are not going to go back and look at.
    Mr. Smith. That category, do you agree, is a lot larger 
category than the individuals who have been convicted of 
serious felonies?
    Mr. Martin. I do not know what the group is. What I want to 
emphasize----
    Mr. Smith. Historically, that category is a heck of a lot 
larger than just the individual who has committed the serious 
felony.
    I thank the gentleman for yielding. I will yield back to 
Mr. Watt, and you can answer him if you want to.
    Mr. Barrett. Ms. Lofgren.
    Ms. Lofgren. Just getting into this, there is case law on 
who can be denaturalized and who may not. I do not believe that 
you have the right as an administrative agency of the Federal 
Government to violate the laws relative to denaturalization.
    Obviously, there are some gray areas where judgment is 
being made. For example, if you have someone who is 24 years 
old and just got their Ph.D., but as a teenager they had a 
conviction for a drug offense 5 years beyond their current 
time. There is discretion to make some different judgments 
about whether this person currently possesses good moral 
character.
    I think, if I am hearing you correctly, what you are saying 
is that the individual examiner in cases such as that reaches a 
determination after reviewing all of the evidence following an 
interview, which is the way that this has always worked, and I 
would suggest the way that it should continue to work.
    I do want to go into another item. As I mentioned this 
morning, I think it is regrettable in a sense that we are doing 
this today instead of after April 30th when the report is done, 
and we actually have some information instead of guesswork 
before us.
    But there is an up side to whatever errors were made in 
this whole thing. If I am hearing the Commissioner correctly, 
there is a new interest in automation in the agency, which I 
think is well overdue, and certainly not new with your tenure, 
Commissioner. In fact, I think you have done a lot more than 
your predecessors to bring automation to the agency.
    I remember that years ago, I think in 1972, when I went to 
San Francisco, then district director Dave Ilker took me up on 
the second floor of the building on Sampson Street, and there 
was an entire city block of paper files by number. If you 
misfiled a piece of paper, you would never find it again, never 
in a million years.
    Actually, it is not that much better today than it was 
then. I would just encourage you to automate as quickly as 
possible, and to identify resources that might be required by 
your agency to do so.
    We are always reluctant to invest funds in things that over 
the long run will save us money. But there is clearly an area 
where if we had made the investment in technology 10 years ago, 
or 5 years ago, that should have been made. That we would not 
be sitting here today with all of the time and effort that is 
going to be put in by Members of Congress, and our staff, and 
the Justice Department, and you and your staff, because this 
would have worked very smoothly.
    Ms. Meissner. I could not agree with you more, and it is my 
favorite topic. I would just say a couple of things in 
response. As you know, the Service has been receiving 
unprecedented levels of resources in the last several years. We 
have grown by an extraordinary amount. In each of those budgets 
that we have submitted, over half of the money that we have 
asked for, and happily have been given, has been in technology 
and technology improvements, in order to modernize the agency.
    Unfortunately, those technology improvements have not 
arrived at the naturalization doorstep as early as this flood 
of applications arrived at the naturalization doorstep. We have 
been using the technology first and foremost at the border in a 
variety of other of our enforcement activities, because those 
were the first priority for the administration, as well as for 
the Congress.
    However, in the process of delivering technology to our 
agency, which by the way, our employee base has grown by 7,000 
in the last 3 years, so it has been running uphill just to stay 
in place in this connection, but two-thirds of our employees 
have automation on their desks that they did not have 4 years 
ago. So there is enormous and immeasurable progress here.
    However, where it bears on citizenship and where it bears 
on the FBI record question is in the area of fingerprints, 
because we have been using an automated fingerprint system at 
the border. It is a system called IDENT. We are not only today 
using it at the border, but in our detention centers, and in 
our asylum offices.
    It deals only with 2 prints, but its the same technology 
that can be used for 10 prints. We are now, and in the next 
several months, integrating that into our work with the FBI, or 
integrating that technology into our work with the FBI where 
fingerprints are concerned. That is to say the front end 
capturing of fingerprints will be able to be done through 
scanning mechanisms, and that will increase reliability and 
efficiency, and it will be less labor-intensive.
    Ms. Lofgren. What I would like to do, not at this hearing, 
but maybe in conjunction with other members of the committee, 
and yourself, and the State Department, is to explore the use 
of technology in a much broader sense.
    Today, you can take a fingerprint, a thumb print, and put 
it on a little strip at the bottom of a credit card, and it is 
the same data that you would have from the actual print itself.
    I think that we need to take a look the pulling together 
technologies, so that we have positive identification on 
passports, and on permanent residence cards and that you can 
transmit this information in real time on line. We are not 
there yet. If we could be there, none of this would have 
happened, and we would have saved a lot of money.
    One final question, and then I know that we have to yield 
back. There have been discussions in the press I think 
primarily about people registering to vote. I think that a lot 
of people did register to vote this last year. I know that in 
California that people who had not thought about becoming a 
citizen for years and years, and the passage of 187 and the 
welfare debate here got people to thinking why had they not 
done that.
    Thousands of people decided to throw their lot in formally 
with this country, something they had done in an unexamined way 
for years. Now the Catholic Church has been the biggest 
promoter of naturalization, and I would say also registration 
back in my district, along with the League of Women Voters.
    I am not aware that the Immigration Service played any role 
in voter registration or anything of that nature, but maybe it 
did elsewhere in the country.
    Is that something that the agency did?
    Ms. Meissner. Voter registration is the responsibility of 
States and of State registrars. It is not a responsibility of 
the Immigration Service. Obviously, I am responsible for 
administering the immigrations laws. Voter laws are entirely 
separate from that.
    There has been a long tradition of voter registration 
opportunities being made available at naturalization 
ceremonies.
    Ms. Lofgren. I have seen that. The League of Women Voters 
has taken a lead.
    Ms. Meissner. Exactly. The League of Women Voters, the DAR, 
the Veterans of Foreign Wars; there are many organizations that 
often come to naturalization ceremonies to encourage voter 
registration. We encourage that.
    Ms. Lofgren. It is sort of like good government, here are 
the forms type of thing?
    Ms. Meissner. Exactly. Obviously, we would hope. One of the 
great benefits of citizenship is the ability to vote. We would 
hope that new citizens and existing citizens obviously take 
advantage of that. But it is not something that we are 
responsible for.
    Generally, the naturalization ceremonies themselves are 
under the aegis of Federal judges. It is really the Federal 
judges that set the terms for what is going to be allowed on 
the site where the naturalization ceremony takes place. Most of 
them are very welcoming of voter registration efforts. We 
facilitate that, but we do not in any way do it.
    Ms. Lofgren. Just in terms of the dynamic of voter 
registration, because I do think that it is important that we 
outline what has happened in certain key States, and I can 
speak about California but not for the rest of country, and 
explain that this is not some evil plot.
    What I have observed, and there are different immigrants 
from different parts of the world who historically had tended 
to be in one party or another or not in any party, and there 
are these patterns that were broken after 187 appeared on the 
ballot in California.
    People who had always been a member of one party stood up 
and said I do not think I am in that. People did not feel 
valued. There were people who felt that they were hated, 
because they were not native born Americans. There was a big 
political change that went on that I found actually very 
surprising.
    There was also a real effort among people who had had that 
awakening to go out and become a participant in the electoral 
process. That is a natural phenomenon of rhetoric and 
perceptions about who is on whose side, not a campaign 
activity, because you could never utilize that as a campaign 
activity.
    Ms. Meissner. I think that it is really instructive to look 
at the second chart in relation to that point, because there 
are two steep inclines. There is a reasonable level of 
applications, which has been our longstanding backlog, that has 
slowly increased. But the sharp increase has come during the 
fall of 1994 when Proposition 187 was on the ballot in 
California. The second sharp increase comes after August of 
this past year when welfare reform was enacted.
    Those are clearly external circumstances that generated a 
response among eligible immigrants, that simply could not have 
been predicted by as much good work as we did try to do. We 
knew and were able to predict the hump that the legalized alien 
population eligible for naturalization was likely to create in 
these years. It happens to be exactly in this period as well.
    We also know that the green card replacement program that 
we went through, in which we are trying to upgrade the 
documents of people who are longstanding holders of green 
cards, that generated naturalization applications, because the 
fee was almost the same. So many people simply applied for 
naturalization in place of replacing their green card. That is 
the left side of that yellow chart. The other big increases are 
these external events.
    Ms. Lofgren. I would just conclude that I thought that 
speeding up the process was a good thing to do. None of us 
wanted something where all of the bases were not touched and 
that is unfortunately what happened in some of these cases. But 
to do things quickly and expeditiously is important compared to 
having people wait for years. It is so frustrating.
    Hopefully, we will be able to be efficient, and get these 
applications processed promptly again in the future, while 
making sure that all of the things that we need to do are in 
fact done. But even if there is a delay, we have a huge 
increase of people still, at least in my area, and I think 
throughout California, who are going to apply to be 
naturalized, who under law have a right to be naturalized, and 
will be naturalized.
    I think to the extent that we let anyone believe that we 
are calling our new citizens criminals, then we are encouraging 
them to be alienated from the political processing a way that 
is not healthy, and we ought to be very cautious about that.
    Ms. Meissner. Could I just pick up on the speeding up 
though? What we have been looking for always and will continue 
to look for even with, as you say, the steep increase that we 
are receiving now this year, we are looking for a timely 
process. We did not speed up for the sake of cutting corners or 
creating shortcuts. We were simply trying to meet our 
responsibilities to process in a timely way.
    Right now, we believe that is a 6-month process. We hope to 
be able to return to that standard when we get over the 
readjustment that is involved in putting these new procedures 
into place.
    We are going to have a very hard time doing that with the 
1.8 million applications that we get this year, but we will try 
very hard to stick close to the 6-month processing time 
consistent with the integrity of the new process. But it is not 
really speeding up. It is just handling the work in a timely 
fashion.
    Ms. Lofgren. Maybe using speeding up was not a good word. 
But my observation is this. I will just use San Jose, because 
it really just drives me up a wall as to what is going on there 
which is huge backlogs, and getting worse daily. No one can get 
even to the office. You cannot get answers on the phone, 
because no one will answer the phone, and it is always busy.
    We are calling, because someone's mother needs this, 
because she has to go to the funeral and wherever. The 
problems, we are calling. They are having to deal with us, and 
they are getting further and further behind. Because being 
delayed leads to other problems.
    You have this tidal wave of people who are applying right 
now. The Catholic Church has had signs up on posts saying 
Citizenship Today, Vote Tomorrow. They are out signing up a lot 
of people. They are running English classes, and citizenship 
classes. The county is helping, and other do-gooder 
organizations.
    I just think that unless something breaks through and there 
is a lot of additional staff swarmed on this problem, they are 
just going to get buried.
    Ms. Meissner. Well, let me say that we now, just last week, 
had a major reprogramming of funds approved by the Congress, 
both the Senate and the House. That has been pending since 
November and December and it has been the critical piece in 
order to deal with this 1.8 million.
    We are now going to be able to assure our staff that they 
will be able to stay in their jobs. We will be able to fill in 
places where we have had attrition. We have the funding now 
that we need. We are, as I say, in the throes of implementing a 
whole range of new procedures, which are detailed here, and 
which are taking some time to adjust to. But we are doing 
everything that we can to cope with it and we will do 
everything we can to be sure that these processing times are 
managed as effectively as they can be.
    Mr. Smith. Thank you, Ms. Lofgren.
    We will revert to the 5-minute rule. I have a couple of 
questions, and I know that Mr. Barrett has a couple of 
questions, and other Members do as well.
    Mr. Martin, I want to go back to you. I cut you off, and I 
want to give you the opportunity to clarify who would be 
subject to deportation. I am not trying to trip you up, but I 
am trying to get to the truth here. So let me ask you a series 
of questions to try to define exactly who will be in fact 
denaturalized.
    First, if the person committed a crime that would make them 
ineligible under statute or regulation, you are going to seek 
their denaturalization, is that correct?
    Mr. Martin. That is correct.
    Mr. Smith. The second question. If the audit shows that a 
person lied or misrepresented the truth during the process, 
which normally would disqualify them, or make them ineligible 
to become citizens, are you going to seek the denaturalization 
of those individuals?
    Mr. Martin. That is among the cases that we are looking at. 
The issue arises because of the standards out of the Supreme 
Court decisions. The question about whether we have to 
establish that is material under one of the definitions in the 
Kungys case of a few years ago to proceed with that.
    Mr. Smith. I understand that. If the individual did in fact 
lie or not tell the truth, you are going to try to denaturalize 
them, if you so determined they lied?
    Mr. Martin. In every one of these cases, I want to 
emphasize that we have to have sufficient evidence that will 
meet the clear and convincing evidence standard. That is 
exactly what we are looking at. But those cases are among those 
that we are looking at for those purposes. Those will be harder 
to establish within the Kungys standard than the one where 
there is a clear conviction record and statutory ineligibility.
    Mr. Smith. What I am driving at here is under normal 
procedures if someone has been disqualified for those reasons, 
you are going to try to denaturalize them?
    Mr. Martin. I am not quite sure that I know what you mean 
by those reasons there.
    Mr. Smith. Under the normal audit, under the normal 
procedures, where they are interviewed and asked questions, and 
if they lie about the answers, that normally is grounds for 
disqualification for ineligibility.
    Mr. Martin. The only reason I am having trouble, and I am 
also not trying to evade an answer here, is the standards for 
that may differ. A person can be denaturalized for willful 
misrepresentation or concealment of a material fact and we are 
looking at those cases to establish that. There is also a 
framework in which it can be done as part of false testimony.
    Mr. Smith. Let me yield to the gentleman from North 
Carolina, and I will come back and followup.
    Mr. Watt. I think that Mr. Martin may be misunderstanding 
your question. I do not think that Chairman Smith is trying to 
find out whether you are going to win the case. The question is 
whether you are going to try to denaturalize under those 
circumstances. I would assume that the answer to that question 
is yes, that you are going to try it. But because of the 
standards, it may be problematic whether you can succeed.
    Mr. Martin. That is right. But there is a judgment process 
initially as to which cases are worth beginning that process. I 
need to decide about how we need to respond.
    Mr. Watt. If somebody has lied to you, if there is a 
substantial allegation, and you have got some proof that they 
have lied, I assume you are not just going to say well, that is 
OK.
    Mr. Martin. No, we are not going to say that.
    Ms. Lofgren. If the gentleman would yield.
    Mr. Watt. It is his time.
    Mr. Smith. I have got the time, and I would be happy to 
yield.
    Ms. Lofgren. It is a judgment call. For example, under the 
code, if you are a habitual drunkard, you are not eligible to 
be naturalized. So let us say that the applicant is asked how 
much does he drink and he says well, you know, maybe a beer 
every other week and in fact, it is more than that, he has a 
whole six pack with his brother-in-law at the football game.
    Is that material to his application, does it make him a 
habitual drunkard? I mean there are some judgments. If it does 
not fall within the parameters of what the court has outlined, 
you do not want to bring a case that you should not bring.
    I think the question is for cases that really fall within 
the parameters that the court has set, do you intend to 
vigorously pursue them? I would hope that the answer is yes.
    Mr. Martin. Yes, that is right.
    Mr. Smith. Thank you all for your contributions. I think 
that did clarify the issue.
    The next question I have is under Section 318 of the 
Immigration and Naturalization Act, that section bars the 
naturalization of any person who has a pending deportation 
against them.
    Are you going to seek deportation of those individuals?
    Mr. Martin. When we have evidence of that, that is also one 
where we are going to go forward. We have to have the 
information. I do not want you to think that the Nebraska 
process is specifically targeting that. The Nebraska process is 
focusing now on the felony cases, and we will see where else it 
proceeds.
    But it is certainly among those that the guidance covers, 
that was issued in December. If the district office has 
information of that, that a mistake was made, that is within 
the regulations, that a mistake was made because there was a 
pending deportation proceeding, that is one which they are to 
write up and refer for general counsel review.
    Mr. Smith. Are they instructed to notify you of those cases 
as well?
    Mr. Martin. The way that the process operates under the 
guidance, the field operations staff and the district 
director's staff identifies those cases, prepares it, and then 
refers the proposed notice of intent to revoke to the district 
counsel's office for legal sufficiency review.
    Mr. Smith. I am hearing, I think, generally that you are 
going to try to denaturalize those individuals, whether it be 
that they allegedly violated good moral character, or committed 
felonies, or deportation orders, is that correct?
    Mr. Martin. That is right. The point that I was trying to 
make earlier. You used the term serious felonies, and there are 
other crimes there. The good moral character standards are 
complex. There are eight different subcategories, and habitual 
drunkard is one of them.
    We are not confining our review to aggravated felonies. We 
are looking at other crimes involving moral turpitude and other 
possible grounds there. But some are easier to prove than 
others. So we have to make judgments.
    Mr. Smith. I understand that. I think you answered my 
question by saying that you are not limiting it to the serious 
felonies.
    Mr. Martin. That is right.
    Mr. Smith. Mr. Watt pointed out awhile ago that I am not 
necessarily asking you to win the case, but I am asking you to 
try the case. That is what you say you are going to do.
    My last question is in addition to the cases that we have 
just discussed, you have 180,000 individuals whose fingerprints 
were never checked.
    Will we ever be able to get fingerprints from those 
individuals to identify who were qualified or not qualified to 
be citizens?
    Mr. Martin. Well, there may be ways in which we can request 
it. We are not able to subpoena that, if the people have been 
naturalized, under a Supreme Court precedent.
    Mr. Smith. The only way to get those fingerprints is if the 
individuals themselves are willing to come forward upon request 
and supply those fingerprints, which I think leads to the 
reasonable conclusion that if we have somebody who should not 
have been naturalized, they are not going to voluntarily come 
forward, is that your assumption as well?
    Mr. Martin. Well, there is a wide variety of people within 
this case load. I think that until the review is concluded, 
that it is not useful to generalize about that. There may be 
other ways in which we would have a fingerprint card available 
from the previous file.
    Mr. Smith. Is any effort going to be made to get 
fingerprints from those 180,000 people?
    Mr. Martin. We cannot call them in and compel them to do 
that. We are reviewing other possibilities as to how we might 
deal with that class of cases.
    Mr. Smith. The only way to get those fingerprints is to ask 
them to voluntarily supply them, is that correct?
    Mr. Martin. Unless it is available from some other source. 
But from the individual, yes, that is right.
    Mr. Smith. Are you going to ask any of those 180,000 people 
to voluntarily supply fingerprints, is a letter going to go out 
to them?
    Mr. Martin. With regard to those particular categories that 
you are talking about, there are a variety of possibilities of 
how those can be addressed. I have not been involved deeply in 
those discussions, but those are being considered right now as 
to precisely how we proceed with addressing those categories of 
cases.
    Ms. Meissner. If I could just help here, and say that it is 
true that we have not reached a decision yet on how we are 
going to treat those.
    Mr. Smith. Have you at least made the decision that you are 
going to attempt in some way to get those fingerprints?
    Ms. Meissner. We are attempting. That is part of the 
ongoing review. We are attempting a variety of ways of dealing 
with these issues and the 180,000 is not the 180,000 per se, as 
113,000 of them have had a name check. So they are different 
from the 66,000. But we have not reached a final conclusion on 
how to deal with it.
    Mr. Smith. As you know, they are not entirely reliable.
    Ms. Meissner. They are not as reliable, but they give us a 
much stronger indication of that population than of the 66,000.
    Mr. Smith. Thank you, Mr. Martin.
    Thank you, Commissioner Meissner.
    The gentleman from Wisconsin is recognized for 5 minutes.
    Mr. Barrett. Thank you.
    Mr. Martin, in your testimony today when you talked about 
habitual drunks, you gestured toward Ms. Lofgren.
    Mr. Martin. That was only because she raised the point 
earlier, sir.
    Mr. Barrett. Not that she fit that category.
    Mr. Martin, we will stay with you. It was Mr. Colgate's 
testimony that 113,000 cases were returned to INS by the FBI as 
unprocessable, and did receive the name check only.
    How definitive is the name check, if we can talk about that 
for a second, how accurate is that?
    Mr. Martin. I am not an expert on the name check process.
    Mr. Barrett. Maybe one of the other panelists would be, or 
who feels comfortable answering that question, if anybody?
    Ms. Meissner. I feel guardedly comfortable concerning that 
question. I can stop after about two sentences.
    That process is a process that is used. The name check 
process is used for many law enforcement purposes. It is used 
to implement the Brady bill. It is used by local and State 
police. It is the NCIC system that is used regularly by State 
and local law enforcement officials.
    It is a legitimate tool for determining criminal background 
and criminal history information. It is not as reliable as the 
full fingerprint check.
    Mr. Barrett. Do you know what percentage of people who show 
up in the two categories, what percentage of people can you 
check, do you have any idea?
    Mr. Rosenberg is there shaking his head. Is that because 
you cannot answer the question?
    Mr. Rosenberg. I believe from the research so far that we 
have not found a definitive statement that people felt 
comfortable with as to a scientific correlation between the 
two. There are different studies of different populations and 
looking at correlations. So there are different opinions on 
that that have been done over the years.
    Mr. Barrett. That is fine.
    As we have listened to the testimony here today, clearly 
there have been problems with INS. I think that everyone in 
this room recognizes that. There are charges that go back and 
forth as to whether there is political pressure being placed on 
the agency.
    I, as a politician, I certainly understand where a 
politician may want people that he or she thinks would vote for 
them based on public policies that have been undertaken, that 
would want to encourage or want to discourage people from 
voting.
    I think that your agency has done a very good job in 
withstanding any type of pressure from both parties in doing 
that. I want to encourage you to do that in the future.
    But in my district, the issue that comes up is not how much 
INS has been involved or what types of pressures have been 
involved in naturalizing citizens. My pressure comes from 
people who want to become naturalized, just as it does I think 
in Ms. Lofgren's district.
    What we as politicians are trying to do is respond to that. 
If I have anyone coming to me dealing with any government 
agency and says it is going to take me 2 years to get a 
response from a government agency, I am going to be upset by 
that.
    So I would sort of like to move to the future. I look at 
that graph, and I am nervous. I am nervous, because I see that 
sharp incline, and I do not know when that incline is going to 
turn around. I do not know how much higher it is going to go.
    So what should I be telling my constituents, who call our 
office and are very frustrated, what message do you want me to 
take to them?
    Ms. Meissner. Well, the message that I would leave with you 
and would invite you to take to them is that naturalization and 
effective citizenship processes remain a top priority for the 
Immigration and Naturalization Service. We have been attempting 
and we believe have had some considerable success in putting 
the ``N'' back into INS. That is a long term proposition which 
we are going to continue.
    We will work with the Congress in whatever ways we possibly 
can to achieve that goal. We have had a shared bipartisan 
commitment from the Congress over the past 2 years where 
funding is concerned to support an effective naturalization 
process.
    This is a fee-based program, as you know. It is not 
appropriated funding. But even though it is fee-based, the 
levels of spending still must be approved by the Congress. So 
we work very closely in order to be able to resource the 
program.
    We are, as I said, with Ms. Lofgren now on a very, very 
positive track with the FBI from the standpoint of electronic 
methods to deal with the fingerprint issues. We are continuing 
to introduce automation as quickly as we can, again consistent 
with the good practices, and with safe procurement, and 
internal controls, et cetera, to introducing automation as 
quickly as we possibly can.
    The re-engineering that will now take place, for which an 
outside firm that should be as expert as the business community 
can provide, is another major step forward, in that we look to 
them to provide us with ideas and with the past technology that 
can substantially reform the process.
    So this is a long-term undertaking. There is no reason to 
believe, I do not want anybody to believe, that we will be 
vanquished by this level of interest. We have a problem right 
now in bringing in everything.
    No matter what you did, with that kind of an increase, 
between the final blue line and the yellow line on that first 
chart, any organization, even the most crack outfit, would have 
a hard time adjusting. That is simply too steep a rise. That is 
50 percent in 1 year as opposed to 2 years of 50 percent 
increases.
    That is an enormous amount of work to handle. But we are 
committed to handling it effectively, and we will continue to 
have it as a top priority.
    Mr. Barrett. Thank you very much.
    Mr. Smith. Thank you, Mr. Barrett.
    The gentleman from California, Mr. Bono, is recognized.
    Mr. Bono. Commissioner Meissner, I hope that your second 
priority would be that you will put the ``I'' back in 
``illegal.'' It seems like that is right up there with the job, 
or I hope that is the attitude of the INS, that the illegal 
aliens be a big portion of the operation as well.
    Ms. Meissner. Absolutely. The work that we are doing to 
combat illegal immigration, and the amount of effort that we 
have put into defending the border, and the investment that is 
being made in removing deportable aliens, and the technology 
that has gone on to support those processes.
    As we said earlier, one of the reasons that we have 
struggled so with the naturalization program is because our 
major technology investments have been in those enforcement 
activities. The naturalization caseload hit us before we were 
able to get to it.
    Mr. Bono. OK. Thank you.
    With this program Citizenship USA, I guess you went from an 
average of about 300,000 annually in 1996 to a million, is that 
correct?
    Ms. Meissner. That is the change in the numbers of 
applications filed, that is correct.
    Mr. Bono. I am sure you heard my comments that to have a 
project this big and to have those kinds of numbers and not 
work it out with the other operating forces, that it was a 
surprise to the FBI as well, and it surprises me.
    On the other hand, rightly so, you have a concern about the 
backlog of people waiting to get in, but what about the 
concerns of the counties, and cities, and governments that get 
this tremendous infusion of people, and are totally not 
prepared for it. So then you have the hospitals to deal with 
it, the jails to deal with it, and the crimes.
    Was there any effort made in that direction to sort of let 
them know what was coming, that there was going to be this 
major infusion of naturalization?
    Ms. Meissner. Well, the people who have applied for 
naturalization are long-term residents of the United States. 
The people in this caseload are people who have been here at 
least 5 years.
    Mr. Bono. What percentage would that be of the million?
    Ms. Meissner. The ones who have been here at least 5 years 
as compared to longer than that, I would have to get some 
numbers for your. I do not have them with me.
    Mr. Bono. Is there sort of a ball park on that?
    Ms. Meissner. Actually, the people who are applying for 
naturalization today are far longer term residents than just 5 
years. What we are finding, as Ms. Lofgren said, is that people 
who have been in this country for 15 or 20 years as lawful 
permanent residents have decided to apply for naturalization.
    Mr. Bono. Was that the bulk of the naturalizations then, 
would you say?
    Ms. Meissner. The bulk of the naturalizations have been 
people who have been here longer than the minimum.
    Mr. Bono. So it would not be an additional burden?
    Ms. Meissner. These are people who have lived and have been 
a stable part of our population for quite some years.
    Mr. Bono. OK. Thank you.
    Just recapping here, I just want to see if I can get 
clarity on this.
    If somebody files for naturalization and they are asked by 
the INS if they committed a felony and they say no, is that a 
lie?
    Mr. Martin. If in fact they had committed one.
    Mr. Bono. I am sorry. If they say no, and they have, would 
that be a lie, or does their nose have to grow, I mean is that 
not a lie?
    Mr. Martin. It would be a lie, yes.
    Mr. Bono. OK. That is what I asked you.
    Then if it is in fact a lie, then is that a condition for 
de-naturalization?
    Mr. Martin. Yes. In that case, it would be. It would be a 
willful misrepresentation of a material fact.
    Ms. Meissner. If they had been convicted.
    Mr. Martin. You are assuming they had been convicted?
    Mr. Bono. We have a preliminary figure of 10,000 that have 
committed felonies.
    Mr. Martin. No. The 10,000 figure was felony arrests 
showing up on the FBI criminal history record. A substantial 
number of those did not result in a conviction.
    Mr. Bono. We do not know what percentage that would be?
    Mr. Martin. We will. The process is developing those 
numbers.
    Mr. Bono. But the ones who did of the 10,000 were lying?
    Mr. Martin. You see, a great many of those people in that 
group would have, I am sure, revealed that. They said yes, I 
committed such and such an offense and if it was outside of the 
5-year period, it may very well not have been disqualifying.
    Mr. Bono. I understand that the form asks for all criminal 
offenses.
    Mr. Martin. The form asks for all arrests.
    Mr. Bono. For the most part, you are saying they give that 
up?
    Mr. Martin. Yes, a great many people do. Because the mere 
fact or an arrest and in many cases a conviction during the 
time period that we are looking at is not in itself 
disqualifying.
    Mr. Bono. I have trouble when we get into yes and no. I 
have other questions, but they are going to be hard to pin 
down. I do not want to get into that game.
    I think this. Forget the political. Let us not deal with 
the political. I do not want to deal with it. But I think that 
for a program of this nature and the dependency that we have on 
the INS, that this was botched up frankly.
    I mean we have several different areas of just things that 
are outrageous. I think that America depends on you, and we 
depend on you and for us now to have to go through all of this 
after a program that in my view failed miserably is a shame.
    I hope that in the future that a goal will be to perform 
sharply, if you will, to be able to pull off what you are 
attempting to do. In the case of illegal aliens, that we get 
the number down. In the case of trying to promote these 
programs, that they are not inundated with problems and errors 
to where we have to do this clean-up process that we are going 
through. That we have to do this, and have another hearing, and 
go through all of that.
    Other than the political, which does not interest me as 
much as you operating efficiently and doing some preliminary 
work before you get into these kind of programs, so we do not 
have to go through this kind of process. So that Americans will 
have confidence in the agencies that are supposed to do their 
job accurately.
    The fact that the aliens fingerprinted themselves is 
astounding to me. But there are several other things here that 
just absolutely make no sense at all, or are not logical. In 
that they have to be determined by other agencies to tell you 
that they do not work is staggering. So I think it is failure, 
and I hope that you pull it together.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Bono.
    The gentlewoman from California, Ms. Lofgren, is 
recognized.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Is the glass half full or half empty? Three-quarters of a 
million people to be naturalized promptly, rather than waiting 
for 18 months, or 2 years. Or given the numbers, it could have 
gone to 3 to 4 years. That is an unacceptable delay on the part 
of a Government agency. Clearly, we can do better on the 
processing of these things, we need to.
    There has been no dispute among any of us. I think that our 
real goal is to make sure that we pull together in a way that 
makes this work efficiently, and that all of the things that 
need to be done are done in a timely fashion, and so that all 
of these great people who want to be fully Americanized have 
the chance to take that final step, and not just be taxpayers 
and PTA members, but also American citizens that they want to 
be.
    The Congresswoman from Florida this morning brought her 
naturalization certificate. It reminded me of my grandfather, 
who has his naturalization certificate framed hanging on the 
wall of the living room.
    We are a better country because of people, I like to think, 
like my grandfather, and certainly the Congresswoman from 
Florida who had a chance to become an American citizen.
    Now having said that, I still have some concerns about how 
we are going to get through this big mountain of applicants. As 
we know, there are a variety of factors that leads people to do 
this. But its almost an unstoppable trend now for people to 
want to apply.
    I am wondering, we have been talking about technology, to 
what extent may the agency utilize resources on a contract 
basis that are available from other levels of government?
    I will tell you one thing that I am thinking of. The county 
of Santa Clara, and the city of San Jose, and the churches, and 
the nonprofits are really doing very wonderful things in trying 
to help people back in my district. One of the things that the 
county has are people with security clearances who work for the 
sheriff's department, the district attorney, or the court. They 
are certainly solid people who have had their own background 
checks for their jobs, who are already employed in the 
community.
    Could someone like that be employed by INS for 6 months or 
a year on a contract basis, if the county were to make them 
available to help with the backlog, if there is just a glitch; 
is there a way to corroborate where you have heavily impacted 
areas such as San Jose and other parts of the San Francisco 
region?
    Perhaps this is happening in Los Angeles. But I think that 
at least in areas like mine where everybody sees this as do-
gooderism, and let's work together, I would love to be able to 
corroborate and be able to use some of those resources. I am 
not talking flaky things, but really solid stuff like another 
government.
    Ms. Meissner. This is an area that has been a big 
frustration for us, because of statutes that are really out of 
date and that tie our hands.
    I just want to be sure that Mr. Bono knows that people have 
not been allowed to fingerprint themselves. That is an error. 
People are required to bring their fingerprints to us. But 
there are a whole set of agencies and services that provide 
that service. That is basically a regulated business by us, so 
that it is done according to certain standards.
    The prohibition in the statute has to do with getting 
voluntary help. As Mr. Colgate said earlier that has now, I 
believe at our request, been modified, so that we can now 
accept contributions of one sort or another.
    The regulations for that are being written. I really want 
to be able to work with you and with counties like yours to 
figure out what the possibilities are, and what mechanisms we 
can put together. Because you are absolutely right, this is an 
absolutely unprecedented surge, and it will take everyone's 
best efforts.
    Ms. Lofgren. So you think that the donation could be time 
by employees?
    Ms. Meissner. I just do not know. But it is an area that we 
have been very concerned with, that we have been trying to get 
some relief on in terms of what the constraints on us are for a 
couple of years. Finally, there are some changes.
    David, can you speak to it?
    Mr. Martin. There was this additional gift authority. There 
are still some other restrictions on accepting services and we 
look to the Justice's management division's regulations to give 
us guidance on that. But we will be in a position to be much 
more flexible.
    Ms. Meissner. Exactly.
    Ms. Lofgren. I would really like to work with you on that. 
I would assume that on a bipartisan basis that is the State of 
Texas or the State of California wanted their law enforcement 
agencies or computer records to be made available, that there 
should not be a constraint on that. Certainly, if it were a 
private group, it would be different. But a State government, 
or a county, or a city, I would think that we would want to 
work corroboratively on that.
    Ms. Meissner. We are exploring a number of avenues there, I 
think that if we talk about this in terms of your particular 
situation in San Jose, I hope that we can develop something.
    Ms. Lofgren. Good. Thank you.
    Mr. Smith. Thank you, Ms. Lofgren.
    The gentleman from Ohio, Mr. LaTourette, is recognized.
    Mr. LaTourette. Thank you very much, Mr. Chairman.
    Mr. Crocetti, I want to go back to something you and I were 
talking about before we took our break. When we get ready for a 
hearing like this, they give us these big, fat briefing books, 
that is why my prescription has changed since I came to 
Congress a couple of years ago.
    But I was talking to you, and the Commissioner was kind 
enough to jump in, and talk about the number of political 
appointees. As I went back from our recess, I located a note, 
and I cannot give you the source as I sit here. But in fact, 
the allegation is in one of these e-mails that there are four 
political appointees who are working on citizenship within INS, 
which is in your bailiwick, first citizenship is in your 
bailiwick.
    Are there four political appointees assigned to the 
citizenship program at INS, to your knowledge, or is that bum 
information that I received?
    Mr. Crocetti. Well, I think that the definition of 
political appointee is in question.
    Mr. LaTourette. We know that Mr. Rosenberg is not one. He 
was a contract employee. So use any definition that you feel 
comfortable with, and tell me whether or not that is true or 
not.
    Mr. Crocetti. There are people involved in the Citizenship 
USA initiative that are not careerists, yes.
    Mr. LaTourette. Is the No. 4 right?
    Ms. Meissner. I can think of the person who is no longer in 
the INS, to whom Don reported, who was a non-career appointee. 
I can think of one other staff person. I can only think of two.
    Mr. LaTourette. The reason that I ask the question is 
again, Mr. Crocetti, when we talk about this fingerprint 
business--Gilbert Kleinknecht, do you know who he is?
    Mr. Crocetti. Yes.
    Mr. LaTourette. I again have an e-mail from him dated April 
16, 1996, that basically talks about the status of the FBI 
processing of fingerprints is concerned. Then the second bullet 
and paragraph of that, it indicated that they were not only 
receiving fingerprint requests from you, as the Commissioner 
has indicated, but this is a law enforcement computer system 
that is used by a number of different agencies.
    The sentence says, ``It was noted that they do not have the 
resources to handle any increased volume.''
    When I watched the Commissioner testify yesterday, she 
talked about the fact of the ramp-up. I believe that you opened 
up 9 new offices, and 900 new full-time employees were added to 
this effort to get this job done.
    If you were in receipt in April 1996 of a communication 
that indicated that the FBI already could not handle, did not 
have the resources to handle any increased volume, first of 
all, do you recall that, did that spawn the ``This is a time 
bomb that is about to blow up'' series of memos or not?
    Mr. Crocetti. Well, actually, I disagree with that 
statement. We have been working closely with the FBI, and it 
has never come up. The resource issue has never come up other 
than when we raised it with regard to talking about 
projections.
    In fact, if I am not mistaken, the FBI gets about $23 for a 
fingerprint card. So it does not take too much to figure out 
$23 times a million cases, that is a lot of money. So in a way, 
that should fund the resources necessary to do the clearances. 
That is what we are paying the user fee for.
    Mr. LaTourette. I understand the revenue end of it. But 
this line where it was noted that they do not have the 
resources to handle any increased volume?
    Mr. Crocetti. Well, I talked to the FBI about that and they 
have had a staff decrease as a result of their relocation. So 
they have had some hiring problems there. We have also talked 
about assigning INS staff, some staff, to work at the actual 
fingerprint center to help us improve our communication, and 
work through this improvement in the whole process.
    Mr. LaTourette. Thank you.
    Mr. Rosenberg. Sir, may I add something to that?
    Mr. LaTourette. Sure.
    Mr. Rosenberg. There is a timing issue here on the entire 
question of when things occurred that is very important. The 
committee should understand that two-thirds of the cases that 
were handled during this period that we are viewing were 
submitted to the INS and to the FBI for fingerprint checks 
between 1992 and 1995 before this program ever began.
    So the question of whether they could handle a ramp-up was 
a question of handling future cases, not the cases that were 
actually naturalized during this period. There were all cases 
that had been handled in prior--or two-thirds of them before 
September 1995.
    Mr. LaTourette. I appreciate that. Mr. Rosenberg, I am glad 
that you chimed in, because I would like to ask you a couple of 
questions if I could.
    Mr. Rosenberg. Please.
    Mr. LaTourette. During the time that you ran the 
Citizenship USA program, could you tell the committee how many 
times you had the opportunity to sit down and meet with Mr. 
Farbrother of the NPR, the Vice President's staff?
    In talking to Mr. Crocetti earlier today, I think he said 
to me that he would not know them if they walked in the door. 
So I am just interested.
    Mr. Rosenberg. Absolutely. First of all, I was essentially 
the project director. There was essentially a coordinator of 
the task force that represented a variety of units in the 
organization, including the naturalization branch, which is 
under Don's control, as well as the field operations, 
management and policy all had representatives working on a task 
force concept. That is what my role was in relation to this.
    Mr. Farbrother was one of the analysts from NPR who asked 
from their end to come and meet with us. He met, I believe, 
once at headquarters initially. We were then asked to tour our 
largest facilities in Los Angeles, and that I was on that trip 
along with Alex Aleinikoff, the executive associate 
commissioner.
    Thereafter, Mr. Farbrother wanted to tour the other 
remaining of the largest sites. The Commissioner and Deputy 
Commissioner asked me if I would travel with them, one to 
listen to what the conversations were, and to assure that our 
field people understood that this was analysis and not 
direction that was being taken. So I traveled with them through 
that entire period. So the number of meetings, that is a little 
hard to answer.
    Mr. LaTourette. I appreciate that. As my yellow light 
illuminates, if I can sneak in one more question if I could.
    When we were talking to the Commissioner today, to her 
credit and I think to Mr. Crocetti's credit, that there were 
some suggestions bandied about as to how perhaps this process 
could have political advantage. I think to their credit, those 
were resisted during those meetings and trips with Mr. 
Farbrother, Laurie Lyons, and others at NPR.
    Were the political advantages of the registration effort 
ever discussed, and ideas either accepted or rejected as part 
of a political advantage and discussed?
    Mr. Rosenberg. No, neither in a formal meeting, or in any 
of the dinners or travel on the road. I never came to a meeting 
where that was mentioned.
    Mr. LaTourette. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. LaTourette.
    The gentleman from Georgia, Mr. Barr, is recognized.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Chairman, I apologize for having been at some other 
hearings that we had today. I have reviewed these materials, 
and I have a statement that I will insert for the record. I 
presume that we all have statements that we can put in the 
record.
    Mr. Smith. So ordered.
    [The prepared statement of Hon. Bob Barr follows:]
    [GRAPHIC] [TIFF OMITTED] T1887.055
    
    Mr. Barr. I suppose, Mr. Martin, that you would be in the 
best position to answer this. If it is somewhat repetitive, 
that is fine.
    What is the status of the investigation of criminal 
activities with regard to the whole mess, can you tell me where 
those stand both within the Immigration and Naturalization 
Service, and also with main Justice?
    I am not asking you to disclose the details of any ongoing 
investigations, but where do they stand, what is the status, of 
any investigation?
    Mr. Martin. Mr. Colgate described this morning a process to 
look at those people with criminal history records in the 
Nebraska review process, and that is detailed in this 
testimony.
    Is that what you are speaking of, the process?
    Mr. Barr. I would like to know what is the status of the 
investigations of criminal activity?
    Mr. Martin. I do not have the numbers in front of me here. 
But the process identified those with criminal history records.
    Mr. Barr. I am talking about people in INS.
    Ms. Meissner. I think that you are talking about any 
allegations of malfeasance.
    Mr. Barr. Yes.
    Ms. Meissner. Any allegations in that regard are under the 
responsibility of the Office of the Inspector General in the 
Justice Department.
    Mr. Barr. What is the status of those, Mr. Martin, insofar 
as INS is aware of it?
    Mr. Martin. I do not have any further information. It is 
within that office.
    Mr. Barr. You have no idea what investigations are ongoing?
    Mr. Martin. Typically, our office would not be involved in 
that process. It is handled separately for understandable 
reasons by the Office of the Inspector General. So I do not 
have information about that.
    Mr. Barr. The Inspector General of?
    Mr. Martin. The Department of Justice.
    Mr. Barr. INS is not engaged in and has no activities 
ongoing whatsoever; and in assisting in those, nobody at INS is 
aware of any criminal investigations that are ongoing?
    Ms. Meissner. We would have to ask our office of internal 
audit. We have an office of internal audit in the Immigration 
Service that maintains a liaison with the Inspector General at 
the Justice Department. If there are any matters in the Office 
of Internal Audit, which I doubt, I think that the matters 
would be under the purview of the Inspector General. The 
internal audit people would know, but I do not have that 
information here.
    Mr. Barr. Are you aware of any investigations of INS 
employees, criminal investigations, arising out of this whole 
series of problems?
    Ms. Meissner. I have heard about allegations, but I could 
not confirm for you. I cannot answer your question. I am not 
aware of any.
    Mr. Barr. I understand certainly the sensitivity of the 
details of investigation certainly being conducted by the 
Department of Justice. I am somewhat mystified that nobody here 
from INS is aware of any criminal investigations of alleged 
criminal activity being conducted by our government. Unless you 
all feel that nothing wrong was done.
    Ms. Meissner. No, no, I am not saying that. It is not our 
responsibility to carry out those investigations.
    Mr. Barr. But are you aware of any?
    Ms. Meissner. I am told that there are some allegations of 
reprisals, which are under investigation by the Office of the 
Inspector General. We would be happy to followup and get you 
information on whatever else might be available.
    Mr. Barr. Has the Inspector General contacted you and 
questioned you?
    Ms. Meissner. No.
    Mr. Barr. How about Mr. Rosenberg?
    Mr. Rosenberg. Not regarding any criminal investigation 
that I know of. They have done program audits. The Inspector 
General's Office did do some program audits, routine reviews, 
last year, for which we were questioned at the beginning. They 
were not related to individual criminal investigations. That is 
how they presented it to us.
    Mr. Barr. Mr. Crocetti.
    Mr. Crocetti. I am unaware of any criminal investigations. 
Just administrative reviews by the Inspector General.
    Mr. Barr. Nobody here is aware of any?
    Ms. Meissner. When the Inspector General has an 
investigation, it is not information that is shared with us. 
That is purposeful. It is, as Mr. Martin has said.
    Mr. Barr. You have not been made aware of any 
investigations then?
    Ms. Meissner. As I say, I am told that there is a reprisal 
investigation, but I would not know. That would not be 
information that would be shared with me until the 
investigation is complete.
    Mr. Barr. In looking at the whole range of activities here, 
is there anything that strikes you as problems that the 
Department of Justice ought to be looking into?
    Ms. Meissner. There are a series of problems that have been 
involved in this program. We have worked very closely with the 
Justice Department to address those problems. They are 
management, administrative, and technology issues.
    Mr. Barr. I am talking about criminal.
    Ms. Meissner. I am unaware of any criminal issues, and 
those are not issues that I would be involved in with the 
Justice Department. Those would be carried on in an 
investigative framework.
    Mr. Barr. Let me ask hypothetically in your duties as 
Commissioner.
    If you saw activity, records being destroyed, evidence of 
that for example, or other possible criminal activity by 
employees of INS, would you then go to the Department of 
Justice, and request that this be looked into?
    Ms. Meissner. I would.
    Mr. Barr. You have seen no such evidence?
    Ms. Meissner. I have no direct evidence of that, no.
    Mr. Barr. Have you seen any evidence that has caused you to 
go to the Department of Justice, and request that they 
investigate anything from a criminal standpoint?
    Ms. Meissner. Not personally, no. Now there may be people 
in the Immigration Service who have seen that, and they would 
have reported it to the Inspector General, and the Inspector 
General would then followup. But that would not come through 
the chain.
    Mr. Barr. So you are not aware of anything like that has 
happened?
    Ms. Meissner. I am not aware of it. I am not telling you 
that it has not occurred. I am just not aware of it.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Barr.
    I do not believe that any other Members have questions, 
with the possible exception of Mr. Bono.
    Mr. Bono. I would like to followup, if I could, Mr. 
Chairman.
    Mr. Smith. The gentleman is recognized.
    Mr. Bono. Thank you.
    Going back to fingerprinting, when the fingerprinting is 
done, where did you say that was done now? We had testimony one 
way, and now it is another. But where would that be?
    Ms. Meissner. Organizations apply for what is called 
designated fingerprint status and we accept their applications, 
and we certify them as designated fingerprint providers. We 
train them, and we make certain that their employees have 
security clearances. We randomly monitor the sites. We do 
surprise visits, to be certain that they are complying. They 
exist all around the country.
    Mr. Bono. So what would be the standards of the provider?
    Ms. Meissner. They obviously need to know how to do a 
fingerprint. There is a certain technique involved in doing 
that. They must verify the identity of the person that they are 
fingerprinting. They must handle the fingerprints according to 
standardized procedures.
    Mr. Bono. Is there a procedure where you can followup, and 
find out if that fingerprint does identify with that person?
    Ms. Meissner. We train them to do that identification 
properly, and then we monitor their work. We do surprise 
visits, and we follow-up training. There are a variety of 
monitoring procedures, to be sure that it is being relied upon.
    Mr. Bono. So you feel comfortable that the fingerprints 
would be accurate?
    Ms. Meissner. I do. Now it is not as good as the electronic 
process that we will be moving toward, which we have been 
discussing here, and the electronic processes being introduced 
late this spring, and we are beginning to pilot it. But it is a 
far better process. The DFS, the Designated Fingerprint 
Services, is a far better process than has existed before.
    Mr. Bono. I hope you monitor it heavily. Because the 
documentation in Los Angeles, you can secure almost any 
documentation for $30 from anybody. It is very, very good.
    I question whether you can go around and monitor these 
fingerprints, and I question whether you can verify that all of 
these fingerprints are accurate. But we will let that be. I 
have a problem with that. I am glad that you have changed it. 
Because I think that it needed to be changed. I think it was 
not effective.
    Going back to the backlogging, did the INS ever get 
involved in soliciting applicants for naturalization?
    Ms. Meissner. We did not solicit applicants. These 
applicants came forward.
    Mr. Bono. All of them, 100 percent of them?
    Ms. Meissner. As far as I know. Obviously, we make 
information available. If people call, come in, or write, 
whatever, we obviously want to inform them of their 
eligibility, and what the procedures are.
    We work and we have worked through this program very 
actively with community-based organizations in an effort to 
develop a much broader assistance network in the community, to 
help applicants who want to apply.
    For instance, Congresswoman Ros-Lehtinen is very involved 
with a set of organizations in Miami that we work closely with 
in helping to prepare citizenship applications. The better and 
more thoroughly an application is prepared, the document that 
comes with it, if it is provided properly makes our job easier. 
Because if we get a perfected application, then we spend our 
time on adjudicating rather than on sending it back and forth 
for it to be properly completed.
    So we have expanded and made a very important objective of 
developing partnerships we call them with intermediary 
organizations. The Catholic Church is probably the major 
intermediary organization with which we work. But we work with 
the Jewish community and we work with many Latino and other 
ethnic-based organizations. We think that is very productive.
    Mr. Rosenberg. May I add one thing, just because you asked 
about 100 percent, and I just want to be clear. The Congress 
put in our budget a grant for public awareness and outreach on 
naturalization in southern California, a $500,000 grant, which 
INS was mandated to provide to a non-governmental organization 
to make the public more aware of the process of naturalization. 
In that context, people were encouraged to apply for 
naturalization, and facilitate it in applying. That was done.
    So your question of 100 percent, obviously some came in 
through that process.
    Mr. Bono. When we have further studies that we are going to 
have, will we know the percentages that were backlogged here in 
the States, and also the number of new applicants?
    Ms. Meissner. We can tell you that now. When we became 
timely with our processing this summer, two-thirds of those 
applicants were applicants who had applied before 1996.
    Mr. Bono. You know, it is not my intention to be a tough 
guy up here at all. I am fairly new here. But I am very 
discouraged with the INS when we have to deal with the Crone 
issue, and the kind of blatant in your face about it.
    Usually, when you get caught and nailed cold, it seems to 
me that the right thing to do is just to go OK, how can we make 
you feel good about this, and how can we feel good about this.
    As I said before, seeing the penalties that were assessed 
to the people that committed what I consider crimes staggered 
me. I understand that those can go on to appeal, and be 
minimized even more.
    So it certainly disheartens me as a non-professional 
person, as someone just from the streets, to see an agency such 
as yours, which should be very tight about, you know, you 
cannot mess with this country, and you can mess with these laws 
and you cannot come in here and just helter-skelter.
    To have the agency itself be a part of the deception, and 
for us to find that out, and to have it be so completely and 
utterly uncooperative, then that raises doubts with us.
    Since I have been here, I just have doubts. The other thing 
is that it always appears that we are playing cat and mouse. I 
do not even pursue certain lines of questioning. Because if 
there is not just hard, cold evidence, I know you have an 
answer.
    But sometimes, I really question some of these answers. I 
guess that is my instinct. I will leave it at that. But they 
are troubling to me and I just hope that you realize that you 
represent America. You represent authority. You represent 
honesty, and integrity, and ethics.
    A continual defense of these, we will say all right, it is 
another coincidence that the Vice President wanted a million 
people signed up for election time, and that you procured a 
million people.
    But the actual functioning of the INS, I think, has to be 
above reproach. That should be a goal that we should go to. We 
should not be adversarial up here. We should be kind of working 
together. But the data that we get is always late. It just 
seems like an uncooperative effort, and it is discouraging. I 
think that you owe the American public more than that.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Bono.
    Let me assure the Members that they will have the 
opportunity to ask written questions as well. Without 
objection, the record will remain open for 2 weeks for 
additional questions.
    Let me thank the witnesses for their attendance, and the 
Members for their interest and stamina. Particularly Mr. 
Barrett for being such a good co-chair up here. Also, a special 
thanks to the staff, who have spent a number of nights staying 
up late, I know, because I get faxes at home, and for all of 
their work in preparation to make this hearing possible.
    With that, the subcommittees will stand adjourned.
    [Whereupon, at 3:50 p.m., the subcommittees were 
adjourned.]

                                   - 

</pre></body></html>
